No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------GANNETT COMPANY, INC., GANNETT SATELLITE
INFORMATION NETWORK INC.,
MULTIMEDIA HOLDINGS CORPORATION
d/b/a KARE 11-TV and d/b/a ST. CLOUD TIMES,
Petitioners,
v.
RYAN LARSON,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The Minnesota Supreme Court
---------------------------------♦--------------------------------APPENDIX TO PETITION FOR
A WRIT OF CERTIORARI
---------------------------------♦--------------------------------STEVEN J. WELLS
Counsel of Record
TIMOTHY J. DROSKE
NICHOLAS J. BULLARD
DORSEY & WHITNEY LLP
50 South Sixth Street, Suite 1500
Minneapolis, Minnesota 55402
Telephone: (612) 340-2600
Email: wells.steve@dorsey.com
droske.tim@dorsey.com
bullard.nick@dorsey.com
Counsel for Petitioners
Gannett Company, Inc.,
Gannett Satellite Information
Network Inc., Multimedia
Holdings Corporation
d/b/a KARE 11-TV and
d/b/a St. Cloud Times
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
Appendix A:
Opinion of the Minnesota Supreme Court
(Feb. 26, 2020) .................................................. App. 1
Appendix B:
Order Denying Petition for Rehearing of the
Minnesota Supreme Court (Mar. 30, 2020) .... App. 87
Appendix C:
Judgment of the Minnesota Supreme Court
(Apr. 13, 2020) ................................................ App. 88
Appendix D:
Opinion of the Minnesota Court of Appeals
(May 7, 2018) .................................................. App. 91
Appendix E:
Order Granting in Part and Denying in Part
Plaintiff ’s Motion for Judgment as a Matter
of Law or for a New Trial and Granting Defendants’ Motion to Strike of the Minnesota
Fourth Judicial District Court (Jun. 13,
2017) ............................................................. App. 124
Appendix F:
Judgment of the Minnesota Fourth Judicial
District Court (Jan. 5, 2017) ........................ App. 145
Appending G:
Special Verdict Form in the Minnesota Fourth
Judicial District Court (Nov. 21, 2016) ........ App. 147

ii
TABLE OF CONTENTS – Continued
Page
Appendix H:
Order Modifying the Court’s Order Granting
in Part and Denying in Part Defendant’s Motion for Summary Judgment of the Minnesota
Fourth Judicial District Court (Nov. 10,
2016) ............................................................. App. 186
Appendix I:
Order Granting in Part and Denying in Part
Defendant’s Motion for Summary Judgment
of the Minnesota Fourth Judicial District
Court (May 19, 2016) ................................... App. 194
Appendix J:
Petition for Rehearing by Respondents/CrossAppellants to the Minnesota Supreme Court
(Mar. 11, 2020) .............................................. App. 228
Appendix K:
Excerpt of Corrected Final Jury Instructions,
Instruction No. 13, Definition of “false” (Dist.
Ct. Doc. 127) ................................................. App. 245
Appendix L:
Trial Transcript Excerpts, Plaintiff Ryan Larson Direct Examination (Trial Day 6, Nov. 15,
2016) ............................................................. App. 246
Appendix M:
Trial Transcript Excerpts, Defendants’ Argument to the Court Regarding Falsity (Trial
Day 8, Nov. 17, 2016) .................................... App. 253

iii
TABLE OF CONTENTS – Continued
Page
Appendix N:
Trial Transcript Excerpts, Plaintiff ’s Closing
Argument (Trial Day 8, Nov. 17, 2016) ........ App. 255
Appendix O:
Transcript of November 30, 2012 Press Conference (Trial Ex. 102) ................................. App. 260
Appendix P:
Minnesota Department of Public Safety News
Release, Dated November 30, 2012 (Trial Ex.
104) ............................................................... App. 270

App. 1
STATE OF MINNESOTA
IN THE SUPREME COURT
A17-1068
Court of Appeals
Appellant,

Chutich, J.
Concurring in part and
dissenting in part,
Anderson, J., Gildea, C.J.

Gannett Company,
Inc., et al.,

Filed: February 26, 2020
Office of Appellate Courts

Ryan Larson,
vs.

Respondents.
-----------------------------------------------------------------------

Stephen C. Fiebiger, Stephen C. Fiebiger Law Office,
Chtd., Burnsville, Minnesota, for appellant.
Steven J. Wells, Timothy J. Droske, Nicholas J. Bullard,
Dorsey & Whitney LLP, Minneapolis, Minnesota, for
respondents.
Faegre Drinker Biddle & Reath LLP, Minneapolis,
Minnesota, for amici curiae Star Tribune Media Company LLC, Fox/UTV Holdings, LLC, The E.W. Scripps
Company, the Associated Press, Digital First Media,
Gray Television Group, Inc., Meredith Corporation, the
Minnesota Newspaper Association, The Media Institute, The National Association of Broadcasters, and
The Reporters Committee for Freedom of the Press.
Randy M. Lebedoff, Minneapolis, Minnesota, for amicus curiae Star Tribune Media Company LLC.

App. 2
Bruce D. Brown, Katie Townsend, Caitlin Vogus, Washington, D.C., for amicus curiae The Reporters Committee for Freedom of the Press.
-----------------------------------------------------------------------

SYLLABUS
1. The fair and accurate reporting privilege protects the reporting of information about a matter of
public concern that is disseminated by law enforcement officers at an official press conference or in an official press release. Here, the district court erred in
failing to recognize the existence of this privilege.
2. The fair and accurate reporting privilege may
be defeated if statements in a news report were not a
fair and accurate account of an official law enforcement
press conference or press release. Here, although two
of the statements in the news reports were fair and accurate as a matter of law, a new trial is required on five
other statements because neither the jury instructions
nor the special verdict form adequately advised the
jury about the proper inquiry for determining whether
the privilege was defeated, and the error was prejudicial.
3. Certain statements falling outside the scope of
the fair and accurate reporting privilege are not actionable as a matter of law because they are non-actionable
opinion, true, or not capable of defamatory meaning.
Affirmed in part, reversed in part, and remanded.

App. 3
OPINION
CHUTICH, Justice.
In this case we consider whether the fair and accurate reporting privilege protects news reports about
statements on a matter of public concern made by law
enforcement officers at an official press conference and
in an official press release. Because we conclude that
the privilege does apply, we must also consider
whether the jury instructions adequately advised the
jury on the proper focus of its inquiry in determining
whether the privilege was defeated—that is, whether
the statements in the news reports were a fair and accurate account of the press conference or press release.
This matter arises from the 2012 shooting death of a
Cold Spring police officer and the arrest that same
night of appellant Ryan Larson in connection with the
murder. The next day, representatives from three law
enforcement agencies held a press conference to announce Larson’s arrest and to discuss the ongoing investigation; that same day, the Minnesota Department
of Public Safety issued a corresponding press release.
Larson was released from jail without being
charged with a crime and then later cleared as a suspect. In other words, law enforcement officers had arrested Larson for a murder that he did not commit.
Larson sued state and local law enforcement officers
for various civil rights violations.1 He also sued
1

Larson’s claims against employees of the Minnesota Bureau of Criminal Apprehension have been settled. By order dated
November 13, 2019, the federal district court dismissed with

App. 4
respondents Multimedia Holdings Corporation d/b/a
KARE 11-TV and the St. Cloud Times in state court for
defamation based on their news coverage about his arrest. He claimed that 11 statements in the news reports about the murder investigation were false and
harmed his reputation.
A jury found for respondents, but the district court
set the jury verdict aside and ordered a new trial. The
court of appeals reversed the district court’s post-trial
order and ordered that the judgment for respondents
be reinstated. Larson v. Gannett Co., 915 N.W.2d 485,
488 (Minn. App. 2018).
We granted Larson’s petition for review and respondents’ request for conditional cross-review. We
conclude that, concerning the 11 alleged defamatory
statements in the news reports, (1) the fair and accurate reporting privilege applies to the 7 statements
that reported information about a matter of public concern disseminated by the law enforcement officers at
the press conference and in the press release; (2) the
jury instructions and the special verdict form did not
adequately set forth the relevant factors that the jury
should consider in determining whether the privilege
was defeated for lack of fairness and substantial accuracy, an error that was prejudicial as to 5 of the statements, but not as to 2 of the statements that are
protected by the privilege as a matter of law; and (3)
prejudice Larson’s remaining claims against Stearns County, the
Stearns County Attorney, and local law enforcement officers. Larson v. Sanner, Civ. Nos. 17-63, 18-2957 (PAM/LIB), 2019 WL
5966322, at *3 (D. Minn. Nov. 13, 2019).

App. 5
the remaining 4 statements that are not covered by the
privilege are not actionable as a matter of law. Therefore, we affirm the decision of the court of appeals in
part, reverse that decision in part, and remand to the
district court for a new trial consistent with this opinion.
FACTS
On November 29, 2012, around 11:00 p.m., Cold
Spring Police Officer Tom Decker was shot twice outside a bar in Cold Spring. Officer Decker was responding to a request from Larson’s parents to check on
Larson, who lived above the bar. About an hour after
the shooting, the police entered Larson’s apartment
while he was sleeping and arrested him. Larson was
brought to the Stearns County jail in St. Cloud and
booked on suspicion of second-degree murder. The
Stearns County website’s publicly available jail log
listed Larson’s name, age, “charge” of “MURDER 2,”
and photograph.
Official Press Conference and Minnesota Department of Public Safety Press Release
At 9 a.m. the next morning, a short press conference was convened by three law enforcement agencies.
The Chief of the Cold Spring Police Department, the
Sheriff of Stearns County, and the Deputy Superintendent of the Minnesota Bureau of Criminal Apprehension (“Bureau”) appeared, made statements, and

App. 6
answered questions. The press conference was televised live.
The Stearns County Sheriff began by briefly describing the circumstances of the shooting, including
the welfare call by Larson’s parents. The Bureau Deputy Superintendent spoke next. He described the Bureau’s investigation, including that “[a] SERT team
from the Stearns County Sheriff ’s Office was eventually able to take into custody the subject of the welfare
check.” He noted that the investigation was “active and
ongoing,” and that “[w]e’ll continue to follow up to determine exactly what happened in this incident.” Before turning the conference over to other speakers, the
Deputy Superintendent stated, “And as we noted, um,
Ryan Larson was taken into custody and was booked
into the Stearns County jail in connection with this incident.”
The Chief next spoke about Officer Decker’s background, family, and work on the police force. The law
enforcement officers then answered questions from
members of the media. The media’s inquiries focused
immediately on the arrested suspect, Larson. The first
question asked was whether Officer Decker knew Larson. Other questions included where Larson was when
he shot Officer Decker, what kind of weapon Larson
used, and whether, in light of the welfare call, the police knew more about Larson’s state of mind. The officials refrained from going into detail on the
investigation and declined to answer some questions,
noting that the investigation was in its early stages.
When asked if there was “any reason to believe that

App. 7
there might be some other individual involved,” the
Bureau’s Deputy Superintendent responded that “we
don’t have any information to believe that at this time.”
At the end of the press conference, he also stated “from
our preliminary investigation, . . . it’s apparent to us
that the officer was ambushed at the scene.”
On the day of the press conference, the Minnesota
Department of Public Safety (“Department”) issued a
press release entitled “Cold Spring Police Officer Killed
in the Line of Duty.” The press release was posted on
the Department’s public website. The release stated
that “within an hour” of launching a search for the suspect, “investigators took Ryan Michael Larson, 34, of
Cold Spring into custody. Larson was booked into the
Stearns County Jail on murder charges early this
morning.”
Officer Decker’s death and the press conference
were covered by the media throughout Minnesota as
“breaking news.” The defamation claims here concern
11 statements2 made by KARE 11 or the St. Cloud
Times concerning the investigation, including the law
enforcement press conference and Larson’s release
from Stearns County Jail.
Coverage by KARE 11
KARE 11 broadcast the story on its evening newscasts on November 30, 2012, and in an online article
2

For case of reference, the 11 alleged defamatory statements
in Larson’s complaint are set forth below in bold text.

App. 8
that same day. Its 6:00 p.m. newscast featured a “packaged” report by a reporter on location in Cold Spring.
The news anchor introduced the segment: “Condolences are pouring in tonight for the family of the Cold
Spring Police Officer who died in the line of duty, Tom
Decker. The 31 year-old was shot and killed last night
while conducting a welfare check on a suicidal man.
Police say that man—identified as 34 year-old
Ryan Larson—ambushed Officer Decker and
shot him twice—killing him.” The newscast then
cut to the reporter, who introduced an interview with
the victim’s mother: “[She] holds no ill-will against
the man accused of killing her son.” The officer’s
mother is recorded saying, “His mind must have really been messed up to do something like that. I
know Tom would have forgave him.” When the reporter finished, the news anchor ended the story by
stating, “Ryan Larson, the man accused of killing
Officer Decker, could be charged as early as
Monday.”
The 10:00 p.m. newscast followed much the same
format, but with a different reporter in Cold Spring.
The news anchor introduced the segment: “The body of
Cold Spring Police Officer Tom Decker is being
guarded around the clock until his funeral. A preliminary autopsy shows that Officer Decker died of multiple gunshot wounds. Investigators say 34-year-old
Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.” The report included a
clip of a local resident stating that Officer Decker was
“one of the good guys.” The reporter then said, “He was

App. 9
the good guy last night going to check on someone who needed help. That someone was 34 yearold Ryan Larson who investigators say opened
fire on Officer Tom Decker for no reason anyone
can fathom.”
After showing more clips from the interview with
Officer Decker’s mother, the newscast cut back to the
anchor, who said, “Charges could be filed as early as
Monday against Ryan Larson, the man . . . who is accused of killing Officer Decker.” Larson’s mugshot, retrieved from the jail log, appeared on the screen next
to his name and the words “Officer Killed” and “Suspect.” Meanwhile, the anchor stated, “He does not
have an extensive criminal history, but was cited
with disorderly conduct in 2009. He was a second-year machine tool student at St. Cloud Tech.
Larson is being held in Stearns County Jail.”
At the close of the story, a screen shot of an article
published on kare11.com was displayed. Viewers were
directed to the article, which bore the headline “Suspect jailed in fatal shooting of Cold Spring Police Officer.” The article noted that Larson was held “on
suspicion of second degree murder in the alleged ambush of a Cold Spring police officer.” It also stated, “Investigators believe he fired two shots into Cold
Spring police officer Tom Decker, causing his
death.”

App. 10
Coverage by the St. Cloud Times
The following day, December 1, 2012, the St. Cloud
Times covered Officer Decker’s death in numerous
front-page articles. The largest headline read: “Area
mourns death of Cold Spring officer.” A smaller headline in a separate article read, “Man faces murder
charge,” with the subheading, “Larson called ‘normal
person.’ ” The article reported that a “Cold Spring man
has been arrested in connection with the shooting of a
police officer Thursday night. Ryan Michael Larson,
34, is in Stearns County Jail and faces possible charges
of second-degree murder. Police say Larson is responsible for the shooting death of Cold SpringRichmond Police Officer Tom Decker.”
Larson was released from jail on December 4,
2012. A press release issued by the Department of Public Safety stated that “at this time there is not sufficient documented evidence to continue to hold Ryan
Larson” and requested “[a]nyone with information regarding this crime” to contact the authorities. Earlier
that day, Larson had called the St. Cloud Times to declare his innocence and to let people know that the real
killer remained in the community. Both the St. Cloud
Times and KARE 11 published online articles about
his statements that day, and the St. Cloud Times ran a
print story on December 5 as well.
The St. Cloud Times article was titled, “County
lets Cold Spring suspect go,” with the subtitle “Prosecutors did not have enough evidence to charge.” The article covered reactions by the community to Larson’s

App. 11
release, including that of the twin sister of Officer
Decker’s ex-wife. She expressed unease about the developments, stating that the culprit “could be somebody in the crowd.” The report then stated: “[She] said
she came to the jail Tuesday because she had one
thing she wanted to say to Larson if she got to
[sic] the chance to see him leave the jail. ‘This
isn’t over,’ she said.” The article ended with investigators urging anyone with information about the
shooting to contact law enforcement.
The police officially cleared Larson as a suspect in
August 2013. In January 2013, a person of interest in
the investigation committed suicide after police officers questioned him. Law enforcement investigators
connected the murder weapon back to the person of interest. The St. Cloud Times covered these developments in subsequent news articles.
Procedural History
Larson sued respondents for defamation, claiming
that the following 11 statements made in the television
newscasts, the online news article, and the news articles printed in the St. Cloud Times harmed his reputation:3
3

For ease of reference, we adopt the court of appeals’ numbering of these statements. As the court of appeals aptly noted,
statements 1 through 5 attributed information to what police or
investigators said or believed, statements 6 through 8 refer to the
accusation against Larson, and statements 9 through 11 convey
other information about Larson. Only the first 8 statements were
considered by the jury because the district court found, as a

App. 12
1.

Police say that man—identified as 34year-old Ryan Larson—ambushed officer
Decker and shot him twice—killing him.

2.

Investigators say 34-year-old Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.

3.

He [Officer Decker] was the good guy last
night going to check on someone who
needed help. That someone was 34-yearold Ryan Larson who investigators say
opened fire on Officer Tom Decker for no
reason anyone can fathom.

4.

Investigators believe he fired two shots
into Cold Spring Police Officer Tom
Decker, causing his death.

5.

Police say Larson is responsible for the
shooting death of Cold Spring-Richmond
Police Officer Tom Decker.

6.

[The officer’s mother] holds no ill-will
against the man accused of killing her
son.

7.

Ryan Larson, the man accused of killing
Officer Decker, could be charged as early
as Monday.

8.

Man faces murder charge.

matter of law, that the final 3 statements could not support a defamation claim.

App. 13
9.

His mind must have really been messed
up to do something like that. I know Tom
would have forgave him.

10. He does not have an extensive criminal
history, but was cited with disorderly conduct in 2009. He was a second year machine tool student at St. Cloud Tech.
Larson is being held in the Stearns
County Jail.
11. [She] said she came to the jail Tuesday
because she had one thing she wanted to
say to Larson if she got to [sic] the chance
to see him leave the jail. “This isn’t over,”
she said.
The procedural history of the litigation is complex,
but the portions relevant to our decision are summarized here. This appeal arises from the parties’ motions
that followed a jury trial held in November 2016. At
the close of evidence at the trial, the district court concluded that statements 9 through 11 were not “capable
of . . . defamatory meaning” as a matter of law and,
therefore, those statements were not submitted to the
jury. The district court also denied Larson’s request for
an instruction on “falsity by implication.” As to the jury
instructions that were given, the district court closely
followed the model jury instructions governing defamation claims. See 4 Minn. Dist. Judges Ass’n, Minnesota Practice—Jury Instruction Guides, Civil, CIVJIGS
50.10–.60 (6th ed. 2014). Notably, Larson did not seek
an instruction on republication.

App. 14
For statements 1 through 8, the 25-page special
verdict form required the jury to make findings on defamation, falsity, and negligence for each statement, in
addition to separate questions on damages. The jury
found that the 8 statements were defamatory but that
Larson failed to prove that any of the statements were
false. Consequently, the jury did not make any findings
on negligence or damages.
Larson then moved for judgment as a matter of
law or, alternatively, for a new trial. The district court
granted judgment as a matter of law in part. It rejected
respondents’ argument that the statements were protected by the fair and accurate reporting privilege. Instead, the court agreed with Larson that the jury
should have been allowed to consider his claims based
on a defamation-by-implication theory. Concluding
that “the implication of each statement was that Mr.
Larson killed Officer Decker,” the court held that the 8
statements submitted to the jury were defamatory in
nature and false as a matter of law, entitling Larson to
a new trial on the issues of negligence and damages.
Reversing course, the district court also revived
statements 9 through 11, concluding that they could
support a viable defamation-by-implication theory.
Therefore, the court ordered a new trial on all 11 statements.
Respondents appealed. The court of appeals reversed the order for a new trial, concluding that statements 1 through 8 are protected by the fair and
accurate reporting privilege. Larson v. Gannett Co., 915
N.W.2d 485, 492–97 (Minn. App. 2018). Although the

App. 15
court of appeals determined that the accuracy of the
news reports was a fact question for the jury, the court
of appeals held that question was resolved by the jury’s
decision that the statements were not false. Id. at 496,
499. Regarding statements 9 through 11, the court of
appeals held that any error in dismissing them was
harmless under the common law incremental-harm
doctrine. Id. at 500. Accordingly, the court of appeals
ordered the district court to enter judgment in respondents’ favor. Id. This appeal followed.
ANALYSIS
Absent a privilege foreclosing relief, recovery for
defamation requires a plaintiff to prove four elements:
(1) the defamatory statement was communicated to someone other than the plaintiff; (2)
the statement is false; (3) the statement tends
to harm the plaintiff ’s reputation and to lower
the plaintiff in the estimation of the community; and (4) the recipient of the false statement reasonably understands it to refer to a
specific individual.
McKee v. Laurion, 825 N.W.2d 725, 729–30 (Minn.
2013) (citations omitted) (internal quotation marks
omitted).
I.
Even if every element of a defamation claim is established, a speaker is not liable if an absolute or qualified privilege protects the defamatory statement and

App. 16
the qualified privilege is not abused. Bol v. Cole, 561
N.W.2d 143, 148–50 (Minn. 1997). An absolute privilege affords the speaker the highest protection—it protects potentially defamatory statements regardless of
the speaker’s motive or state of mind.4 Moreno v.
Crookston Times Printing Co., 610 N.W.2d 321, 328
(Minn. 2000). A qualified privilege extends to a broader
range of circumstances and, to be privileged, the statements must be made in good faith, on a proper occasion, with a proper motive, and upon reasonable or
probable cause.5 Bol, 561 N.W.2d at 149–50 (applying
a qualified privilege to statements made by mental
health providers to protect a child from abuse). These
privileges exist because “statements made in particular contexts or on certain occasions should be encouraged despite the risk that the statements might be

4

We have applied an absolute privilege to statements made
by participants in judicial proceedings, Matthis v. Kennedy, 243
Minn. 219, 67 N.W.2d 413, 417 (1954); statements made by a
high-level agency official in the performance of official duties,
Johnson v. Dirkswager, 315 N.W.2d 215, 223 (Minn. 1982); and
statements made by a state trooper in a written arrest report,
Carradine v. State, 511 N.W.2d 733, 736–37 (Minn. 1994).
5
See, e.g., Britton v. Koep, 470 N.W.2d 518, 520 (Minn. 1991)
(noting that “Minnesota was in the forefront for protection of public debate” by recognizing a qualified privilege for “[f ]air comment
on the conduct of public officials”); Lewis v. Equitable Life Assurance Soc’y of the U.S., 389 N.W.2d 876, 890 (Minn. 1986) (recognizing a qualified privilege for “an employer’s communication to
an employee of the reason for discharge”); Stuempges v. Parke,
Davis & Co., 297 N.W.2d 252, 257 (Minn. 1980) (extending a qualified privilege to an employer’s statements about a past employee’s qualifications and work record).

App. 17
defamatory.” Lewis v. Equitable Life Assurance Soc’y of
the U.S., 389 N.W.2d 876, 889 (Minn. 1986).
The privilege at issue here—the fair and accurate
reporting privilege—shields a speaker from liability
under the common law rule of republication. Under the
republication doctrine, a speaker may be liable for repeating the defamatory statements of another. See
Church of Scientology of Minn. v. Minn. State Med.
Ass’n Found., 264 N.W.2d 152, 156 (Minn. 1978) (noting the common law republication rule); 1 Robert D.
Sack, Sack on Defamation § 7:3.5[B][1] (5th ed. 2017)
(noting that the fair and accurate reporting privilege
is an exception to the republication rule).
The fair and accurate reporting privilege is similar to an absolute privilege. In Moreno, we held that,
like an absolute privilege, the fair and accurate reporting privilege cannot be defeated by common law malice—that is, proof of ill will or improper motive in the
publication of the statements. 610 N.W.2d at 329, 333.
Unlike an absolute privilege, however, the fair and accurate reporting privilege “may be lost by a showing
that the report is not a fair and accurate representation of the proceedings or meetings.” Id. at 331.
We review a district court’s order to grant a new
trial for an abuse of discretion. Halla Nursery, Inc. v.
Baumann-Furrie & Co., 454 N.W.2d 905, 910 (Minn.
1990). But a grant of a new trial “based on an error of
law” is reviewed de novo. Id. Whether the fair and accurate reporting privilege applies here is a question of
law that we review de novo. See Minke v. City of

App. 18
Minneapolis, 845 N.W.2d 179, 182 (Minn. 2014);
Moreno, 610 N.W.2d at 328.
Larson challenges the court of appeals’ conclusion
that the fair and accurate reporting privilege applies
to the news reports about the information communicated by the law enforcement officers at the press conference and in the news release. He and respondents
dispute whether our decision in Moreno v. Crookston
Times Printing Co., 610 N.W.2d 321 (Minn. 2000), supports extending the fair and accurate reporting privilege to official law enforcement news conferences and
official press releases, an issue of first impression in
Minnesota. For the reasons stated below, we conclude
that the principles recognized in Moreno and the values underlying the First Amendment warrant applying the fair and accurate reporting privilege to the
circumstances presented here.
Moreno extended the fair and accurate reporting
privilege to “the accurate and complete report or a fair
abridgement of events that are part of the regular
business of a city council meeting.” 610 N.W.2d at 334.
Before Moreno, the privilege had been recognized to
protect reports of judicial proceedings, Nixon v. Dispatch Printing Co., 101 Minn. 309, 112 N.W. 258, 258–
59 (1907), but Moreno was the first case to apply the
privilege to reports about legislative proceedings, 610
N.W.2d at 332.
In Moreno, during the public comment portion of a
city council meeting, a citizen asked the council to “stop
Officer Moreno from dealing drugs out of his Police

App. 19
car.” 610 N.W.2d at 323. The Crookston newspaper reported the accusation in an article, as well as the police
chief ’s response stating that the department “would be
remiss” not to follow up on the accusation, but denying
rumors that an officer had been arrested. Id. at 324.
The paper also relayed details from its own investigation, including references to the citizen, which we concluded “could be interpreted as commenting on his
‘veracity or integrity.’ ” Id. at 324, 334. The police officer
sued the newspaper for defamation, claiming the entire article to be defamatory. Id. at 325. Because the
record did “not permit us to determine as a matter of
law whether the material in the Times’ article that reported events other than those of the city council meeting conveyed a defamatory impression,” we remanded
the case to the district court for further determination
of this issue. Id. at 334.
In considering whether the privilege applied to the
newspaper article, we noted that, as a matter of policy,
the privilege exists because “the public interest is
served by the fair and accurate dissemination of information concerning the events of public proceedings.”
Id. at 332. In particular, we found the “articulation of
the common law on the fair and accurate reporting
privilege” in section 611 of the Restatement (Second)
of Torts to be “persuasive.” Id. Section 611 provides,
“The publication of defamatory matter concerning another in a report of an official action or proceeding or
of a meeting open to the public that deals with a matter of public concern is privileged if the report is accurate and complete or a fair abridgement of the

App. 20
occurrence reported.” Restatement (Second) of Torts
§ 611 (Am. Law Inst. 1975).
In Moreno, we further explained that the fair and
accurate reporting privilege is based on two principles.
“First, because the meeting was public, a fair and accurate report would simply relay information to the
reader that she would have seen or heard herself were
she present at the meeting. ”6 610 N.W.2d at 331 (citing
W. Page Keeton et al., Prosser and Keeton on the Law
of Torts § 115 (5th ed. 1984)). “The second principle is
the ‘obvious public interest in having public affairs
made known to all.’ ” Id. (quoting Prosser and Keeton
on Torts, supra, § 115). The public’s interest in receiving information provided by the government about important matters, and in knowing what public officials
are doing, is a weighty one. See Sack on Defamation,
supra, § 7.3.5[B][2].
Moreno further noted that the Legislature, in the
context of criminal defamation, enacted a privilege for
“a fair and true report or a fair summary of any judicial, legislative or other public or official proceedings.”
Minn. Stat. § 609.765, subd. 3(3) (2018), cited in
Moreno, 610 N.W.2d at 327 n.3. This statutory reference to “other public or official proceedings” shows legislative support for applying the civil version of the
reporting privilege beyond the previously recognized
6

This “agency” rationale recognizes that when a person accurately reports information conveyed in an official press conference, she essentially stands in for the public at large. See
generally Sack on Defamation, supra, § 7:3.5[B][2] (describing
agency rationale).

App. 21
judicial and legislative contexts to the specific law enforcement context present in this case. See Moreno, 610
N.W.2d at 333.
The principles articulated in Moreno convince us
to extend the privilege’s protections to the media reporting at issue here. Accordingly, we hold that the fair
and accurate reporting privilege protects news reports
that accurately and fairly summarize statements
about a matter of public concern made by law enforcement officers during an official press conference and in
an official news release. As in Moreno, we take an incremental approach confined to the “legal questions
presented by the facts of this case and made within the
context of our own common law.” 610 N.W.2d at 332.
And following Moreno, we find the policy objectives of
the Restatement to be persuasive—that the public interest is served by the fair and accurate dissemination
of information concerning the events of public or official actions or proceedings—even though we do not
adopt the Restatement in its entirety. See Moreno, 610
N.W.2d at 332.7
Analyzing these objectives here, we first conclude
that the press conference and press release were public. The event was televised and the press release was
posted online. A representative from the Bureau of
Criminal Apprehension testified at trial that the very
7

Contrary to the dissent’s fears, this rule of law is not a
“wholesale adoption” of section 611 or an “unreasonably broad”
rule. The dissent’s characterization of our decision mistakes our
articulation of the rationale for the fair and accurate reporting
privilege for the rule of law that we announce.

App. 22
“purpose of the news conference was to provide information to the public and to the media to provide to the
public.” Doubtless, the corresponding press release was
issued for the same purpose. Applying the privilege
here fits neatly with the privilege’s “agency principle”:
“because the meeting was public, a fair and accurate
report would simply relay information to the reader
that she would have seen or heard herself were she
present at the meeting.” Moreno, 610 N.W.2d at 331; see
also Restatement (Second) of Torts § 611 cmt. i.
Larson contests this conclusion, arguing that the
press conference was not “public” because only the media were invited and the public was not given “advance
notice” that the meeting would occur. This view of what
proceedings are “public” is far too narrow. The clear
purpose of the press conference was to convey information to the community, and the community was able
to view the press conference live on television or
through the subsequent media coverage. In every practical sense, the press conference was “open to the public.” Restatement (Second) of Torts § 611.
Larson nonetheless argues that, even if public, extending the privilege to media “summaries” of a press
conference does not align with the privilege’s agency
principle. See Moreno, 610 N.W.2d at 331. Moreno
squarely forecloses this argument because we recognized there that when a proceeding is protected by the
privilege, the protection extends to any “fair abridgement of events that are part of the regular business of
that proceeding. Id. at 334. Larson’s argument is also
contradicted by the criminal defamation privilege,

App. 23
which expressly protects “fair summar[ies]” of any
public or official proceeding. Minn. Stat. § 609.765,
subd. 3(3). Allowing the press some leeway in its depiction and reporting of public events is also supported by
the principles of the First Amendment and sound public policy. As the Supreme Court has stated, “in a society in which each individual has but limited time and
resources with which to observe at first hand the operations of his government, he relies necessarily upon
the press to bring him in convenient form the facts of
those operations.” Cox Broad. Corp. v. Cohn, 420 U.S.
469, 491 (1975).
To be sure, the media’s reporting of an event may
be an imperfect proxy for first-hand experience. But
the privilege ensures that the media’s distillation of an
event is not too imprecise; a plaintiff can still defeat
the privilege’s protection by demonstrating that the report was not an “accurate and complete report or a fair
abridgement” of the proceeding. Moreno, 610 N.W.2d at
334.
Second, the press conference and press release involved a “matter of public concern.” Id. at 331 (quoting
Restatement (Second) of Torts § 611). Speech on matters of public concern “occupies the highest rung of the
hierarchy of First Amendment values, and is entitled
to special protection.” Maethner v. Someplace Safe, Inc.,
929 N.W.2d 868, 875 (Minn. 2019) (quoting Snyder v.
Phelps, 562 U.S. 443, 452 (2011)).
Here, the police statements involved the sudden
slaying of a community police officer, which Larson and

App. 24
the dissent agree is a matter of public concern. The citizens of Cold Spring and surrounding communities
had a great need to be informed about matters affecting their safety and their ability to go about their daily
activities without fear. And under some circumstances,
such as when a suspected criminal remains at large, it
is important for the public to be so informed and for
the government to be able to caution the public and solicit pertinent information.
The media’s reports about the conduct of the law
enforcement agencies in investigating a matter of public concern promote key values of transparency and accountability. These news reports not only facilitate
communication between state officials and the public
that they serve, but they also allow the public to assess
the quality of the state and local officials’ response to
a public safety emergency. See Johnson v. Dirkswager,
315 N.W.2d 215, 220 (Minn. 1982) (according an absolute privilege to a cabinet-level official, reasoning that
“the purpose of the privilege is not so much to protect
public officials but to promote the public good, i.e., to
keep the public informed of the public’s business”). The
privilege’s “second principle”—the “ ‘obvious public interest in having public affairs made known to all’ ”—is
certainly met here. Moreno, 610 N.W.2d at 331 (quoting
Prosser and Keeton on Torts, supra, § 115).
Although the dissent rightly agrees that “the murder of a police officer and the expenditure of public
funds to investigate that crime are a matter of public
concern,” the dissent believes that the identity of the
person who is the focus of the investigation “cannot be

App. 25
said to be of sufficient public concern” for the privilege
to apply. The dissent opines instead that the police
should simply inform the public “that a suspect is in
custody or that they have no reason to believe that anyone else is in danger.” Notably, however, the fair and
accurate reporting privilege focuses on the reporting of
what the police say—it does not control the substance
of what the police say at an official press conference or
in an official press release. Moreno specifically instructs that “the report must be either an accurate and
complete report of events at the proceeding or a fair
abridgment thereof.” 610 N.W.2d at 331–32.
The dissent’s limitation would force the press to
make quick, ad hoc determinations about which public
law enforcement statements to omit from live broadcasts, rebroadcasts, and reporting because they are not
“of sufficient public concern” for the privilege to apply,
while at the same time making sure that an abridged
summary of what occurred at the press conference is
“fair.” And when the state does announce a criminal investigation, the dissent would place the onus of liability for a potentially false accusation not just on the
original speaker—here, the state by way of its law enforcement officers—but on the media.8

8

The dissent attempts to lessen the damage that its rule
would inflict on the media by noting that the media would have
protection from liability under the negligence or actual-malice
standards of care. These protections, however, are cold comfort
against the heavy costs of litigation. Such costs, we have recognized, risk rendering the media “ineffective as guardians of the
public weal by deterring investigation of controversial subjects or

App. 26
We see little sense in that rule. A rule that places
defamation liability on a party that has no control over
the original message cannot deter the conduct that defamation law seeks to prevent.9
Third, reports about the press conference and
press release are covered by the privilege’s application
to “an official action or proceeding.” Moreno, 610
N.W.2d at 331. (quoting Restatement (Second) of Torts
§ 611). The press conference was organized by the leaders of law enforcement agencies, in the context of their
official duties, to inform the public of the investigation.
Although not every statement made by a law enforcement officer to the press is an official action, the statements made here during a planned, formal press
conference, to convey information about an ongoing
criminal investigation, were official actions that were
part of an official proceeding and subject to the privilege. See Restatement (Second) of Torts § 611 cmt. d;
see also Jones v. Taibbi, 400 Mass. 786, 512 N.E.2d 260,
267 (1987) (noting that defendants may be privileged
to report allegations if they “were made public as part
of an official statement by the [Los Angeles Police Department]”); Wright v. Grove Sun Newspaper Co., 873
P.2d 983, 985, 988 (Okla. 1994) (concluding that a press
even official misconduct.” Jadwin v. Minneapolis Star & Tribune
Co., 367 N.W.2d 476, 491 n.19 (Minn. 1985).
9
The dissent notes in a footnote the various laws and procedures governing the behavior of law enforcement agencies. We
agree that these provisions are important safeguards. The presence of these protections substantially decreases the odds that a
law enforcement officer in an official press conference will purposely or carelessly defame someone.

App. 27
conference held by a district attorney to distribute information about a drug investigation was “official because [it] concern[s] the investigative function of the
office”). These statements are in stark contrast to informal interviews or private conversations with arresting officers or investigators, which are neither official
actions or proceedings nor open to the public.10
Larson proposes that for an action or proceeding
to be “official” it must be “recurring” and “essential to
democracy.” He also asserts that “official” proceedings
must provide an opportunity for “both sides to be
heard” and result in an “official record.”
These criteria are unsupported by precedent, and
Larson fails to explain how they serve the interests advanced by the fair and accurate reporting privilege. In
Moreno, for example, the citizen’s accusations against
the officer were prime examples of ad hoc or impromptu public statements, and the officer certainly
had no immediate opportunity to rebut the citizen’s
10

For example, our decision in Carradine v. State concerned
statements that a state trooper made in an arrest report and in
response to informal press inquiries related to the arrest report.
511 N.W.2d 733, 736 (Minn. 1994). In determining when an absolute privilege applied, we distinguished between those statements
made by an officer in “the performance of his function as an officer” and those statements that were “not at all essential to the
officer’s performance of his duties as an officer.” Id. at 737. Moreover, Carradine suggests that the law enforcement officers here
are at least protected by a qualified privilege. Id. at 737 n.3. Absent the fair and accurate reporting privilege, however, the media
reporting their statements would have less protection from liability than the original speaker. Our decision avoids this inconsistent result.

App. 28
accusations. 610 N.W.2d at 324. And even assuming
that the privilege requires the proceeding to be “essential to democracy,” a government-sponsored press conference and press release concerning the exercise of
police power undoubtedly qualifies. See Neb. Press
Ass’n v. Stuart, 427 U.S. 539, 587 (1976) (Brennan, J.,
concurring) (“Commentary and reporting on the criminal justice system is at the core of First Amendment
values, for the operation and integrity of that system
is of crucial import to citizens concerned with the administration of government.”).
For these reasons, we conclude that the statements made here during a planned, formal, press conference, to convey information about an ongoing
criminal investigation of public interest, were official
actions that were part of an official proceeding and the
reports from that proceeding are subject to the privilege.
The dissent claims that our holding conflicts with
Nixon. But, as Moreno recognized, Nixon provides little
guidance because “we did not discuss the nature and
scope of the privilege” in that case “nor did we discuss
its applications to other public proceedings.” Moreno,
610 N.W.2d at 331. And Nixon is distinguishable factually. There, the source of the defamation was a private
party, who made defamatory statements about another
private party in a legal complaint filed in district court,
which were then reported by a newspaper. 112 N.W. at
258. Here, the source of the defamatory statements
was not a private party, but government officials who
held a press conference to inform the public about an

App. 29
ongoing criminal investigation. Unlike Nixon, the
news reports here “serve the administration of justice”
and were a “legitimate object of public interest” because the statements were made by law enforcement
officials in the performance of their duties. Id.
Equally important, as we recognized in Moreno,
Nixon was “decided nearly 60 years before the Supreme Court articulated the First Amendment implications of defamation sanctions” in New York Times Co.
v. Sullivan, 376 U.S. 254 (1964). Moreno, 610 N.W.2d at
330. And Nixon was also decided well before the Minnesota Rules of Civil Procedure—and its procedural
safeguards against frivolous complaints—were enacted.11
Larson further maintains, as the district court
found in its post-trial order granting a new trial, that
the privilege must be limited to reporting upon the fact
of arrest “until criminal charges are filed, and judicial
control over the case is exercised.” He and the dissent

11

The Rules of Civil Procedure deter a party from filing complaints to defame another party. See Minn. R. Civ. P. 11.02 (prohibiting a party or its attorney from presenting a pleading “for
any improper purpose” or that lacks evidentiary support); Minn.
R. Civ. P. 11.03 (allowing a court to impose sanctions for violating
Rule 11.02); see also Sack on Defamation, supra, § 7:3.5 (noting
that under the “modern” rule “[t]he damage resulting from use of
the filing of a complaint or petition to disseminate a libel, it is
argued, is better addressed by aggressive pursuit of sanctions
against attorneys and parties who make allegations in bad faith
or without support than permitting redress against a republisher”).

App. 30
assert support for this limitation in comment (h) to section 611 of the Restatement, which states:
An arrest by an officer is an official action, and
a report of the fact of the arrest or of the
charge of crime made by the officer in making
or returning the arrest is therefore within the
conditional privilege covered by this Section.
On the other hand statements made by the
police or by the complainant or other witnesses or by the prosecuting attorney as to the
facts of the case or the evidence expected to be
given are not yet part of the judicial proceeding or of the arrest itself and are not privileged under this Section.
Restatement (Second) of Torts § 611 cmt. h.
Reliance on comment (h) is misplaced. To be sure,
we cited comment (h) in Moreno, but we did so in a section of the opinion that described how the entirety of
section 611 of the Restatement (Second) of Torts functions. 610 N.W.2d at 332. We noted that the broad principles in section 611 are narrowed in application, and
cited comment (h) in explaining that the fair and accurate reporting privilege can be defeated when the reporter makes “additional comments, not part of the
meeting, that would convey a defamatory impression
or ‘impute corrupt motives to anyone, [or] . . . indict expressly or by innuendo the veracity or integrity of any

App. 31
of the parties.’ ” Id. at 332 (emphasis added) (quoting
Restatement (Second) of Torts § 611 cmt. f ).12
More importantly, the assertion by Larson and the
dissent that comment (h) means that the privilege is
limited to the fact of arrest or criminal charge is flatly
contradicted by Moreno, which involved reporting on
allegations of criminal activity before any arrest occurred. There, we held that the fair and accurate reporting privilege applied to a newspaper article about
a citizen’s accusation of specific criminal activity by a
police officer even though the officer had not been arrested and no judicial proceeding was underway. Id. at
334. The news report was privileged because it relayed
public comments made at a city council meeting. Id.
The thrust of Moreno is that, if a proceeding is covered
by the privilege because it is an official proceeding
open to the public, the application of the privilege does
not depend upon the content of what was said. Here,
rather than a city council meeting, the official proceeding was a law enforcement press conference.
12

Moreno did not adopt section 611 or any of the comments
specifically. 610 N.W.2d at 332. To the extent that comment (h) is
persuasive, we agree with the court of appeals’ observation that
it is best understood “to mean that the privilege does not apply to
unofficial police comments that are not a part of an official meeting or statement by law enforcement.” Larson, 915 N.W.2d at 495.
This view harmonizes, in the law enforcement context, comment
(h) with comment (i), entitled “[P]ublic meetings.” According to
comment (i), the privilege “extends to a report of any meeting, assembly or gathering that is open to the general public and is held
for the purpose of discussing or otherwise dealing with matters of
public concern.” Restatement (Second) of Torts § 611 cmt. i. The
press conference here falls squarely within this description.

App. 32
Finally, we are unpersuaded by the argument that
extending the privilege to reporting of official law enforcement press conferences and press releases “will
have a substantial likelihood of materially prejudicing
a jury trial in a pending criminal matter.” Minn. R.
Prof. Conduct 3.6; see also Minn. R. Prof. Conduct 3.8
(requiring prosecutors to refrain from “making an extrajudicial statement that the prosecutor would be prohibited from making under Rule 3.6”). Although we
know that tension may exist in some cases between
protecting freedom of the press and preserving an unbiased jury pool, we cannot conclude that extending
ethical rules for lawyers to non-lawyer public officials
is appropriate, given the public interest in “the fair and
accurate dissemination of information concerning the
events of public proceedings.” Moreno, 610 N.W.2d at
332.
Further, procedural mechanisms, such as a change
of venue or voir dire, already exist to protect a defendant’s rights. See Minn. R. Crim. P. 24.03, subd. 1
(change of venue); Minn. R. Crim. P. 26.02, subd. 4 (voir
dire examination); see also Stuart, 427 U.S. at 563–64
(acknowledging voir dire as a method to preserve the
defendant’s right to a fair trial even when intense
press coverage is present); Sheppard v. Maxwell, 384
U.S. 333, 350, 353 (1966) (implicitly recognizing that a
change of venue may protect a defendant’s right to a
fair trial and noting that “where there was no threat
or menace to the integrity of the trial, we have consistently required that the press have a free hand, even
though we sometimes deplored its sensationalism”

App. 33
(citations omitted) (internal quotation marks omitted)). And the passage of time alleviates the effect of
potentially prejudicial comments about a criminal case
made by a government official. See State v. Parker, 901
N.W.2d 917, 921–22, 926–27 (Minn. 2017) (concluding
that comments made by a county attorney at a press
conference more than a year before trial did not affect
the defendant’s substantial rights because the jurors
were not aware of the statements).
Decisions from other jurisdictions provide further
support for our decision to extend the fair and accurate
reporting privilege to reports of law enforcement press
conferences and press releases. According to one judicial tally in 2010, 47 states recognize the fair and accurate reporting privilege in some form or another.
Salzano v. N.J. Media Grp., Inc., 201 N.J. 500, 993 A.2d
778, 787 n.2 (2010) (listing state statutes and decisions
recognizing the fair and accurate reporting privilege).
We are far from an outlier in recognizing that the fair
and accurate reporting privilege extends to press conferences held by law enforcement officers.13

13

See Kilgore v. Younger, 640 P.2d 793, 796–97 (1982) (holding that the privilege protects reports based on a press conference
held by the attorney general in a legally convened public meeting); Jones, 512 N.E.2d at 266–67 (concluding that the fair and
accurate reporting privilege protects news reports of murder allegations, later proven to be false, made by the Los Angeles Police
Chief at a press conference); Thomas v. Tel. Publ’g Co., 155 N.H.
314, 929 A.2d 993, 1010 (2007) (stating that “[t]he privilege also
protects reports that meet the accuracy requirements . . . and are
based upon press conferences, interviews with a police chief, or
other types of official ‘conversations’ ” (citation omitted)); Wright,

App. 34
We acknowledge that balancing the public’s right
to know with a defamed person’s interest in protecting
his reputation is a “difficult and sensitive task.” Johnson, 315 N.W.2d at 221. Personal reputation is “ ‘highly
worthy of protection,’ ” but “at the same time, courts
cannot offer recourse for injury to reputation at the
cost of chilling speech on matters of public concern.”
Maethner, 929 N.W.2d at 875 (quoting Jadwin v. Minneapolis Star & Tribune Co., 367 N.W.2d 476, 491
(Minn. 1985)).
For the policy reasons set forth in Moreno, and
based upon the values underlying the First Amendment, we conclude that the balance here weighs in favor of applying the fair and accurate reporting
privilege to news reports of information disseminated
by law enforcement officers about a matter of public
concern at an official press conference or in an official
press release. Accordingly, the district court erred
when it determined, during trial and in its post-trial
order, that the fair and accurate reporting privilege
does not apply to the statements at issue in this case.

873 P.2d at 989–90 (concluding that a press conference held by a
district attorney was an official public occasion subject to the privilege); see also Lee v. TMZ Prods. Inc., 710 Fed. Appx. 551, 558–
59 (3d Cir. 2017) (applying New Jersey’s version of the privilege
to news reports based on a press conference and news release of
the New York Attorney General).

App. 35
II.
Having concluded that the fair and accurate reporting privilege applies here, we next consider Larson’s argument that the privilege has been abused or
“defeated.” Moreno v. Crookston Times Printing Co.,
610 N.W.2d 321, 333 (Minn. 2000). Once a defendant
has demonstrated the existence of a qualified privilege,
“the burden shifts to plaintiff to prove that the privilege has been abused, which is generally a question for
the jury.” Stuempges v. Parke, Davis & Co., 297 N.W.2d
252, 257 (Minn. 1980).
As we explained in Moreno, the privilege “is defeated by a showing that the report is not a fair and
accurate report” of the public proceeding. 610 N.W.2d
at 333. A report is fair and accurate if the report
“simply relay[s] information to the reader that she
would have seen or heard herself were she present” at
the proceeding. Id. at 331. The report “cannot be edited
in such a manner as to misrepresent the proceeding
and become misleading.” Id. at 332 (citing Restatement
(Second) of Torts § 611 cmt. f ).
Because the district court incorrectly determined
that the fair and accurate reporting privilege did not
apply to the news reports here, the district court did
not instruct the jury on the factors to consider in deciding whether the privilege had been defeated. Instead, the district court instructed the jury on general
principles of defamation, including the element of falsity. The district court used the definition of “false”
from the model jury instructions:

App. 36
A statement or communication is false if it is
not substantially accurate. Substantial accuracy does not require every word to be true. A
statement or communication is substantially
accurate if its substance or gist is true.
4 Minn. Dist. Judges Ass’n, Minnesota Practice—Jury
Instruction Guides, Civil, CIVJIG 50.25 (6th ed. 2014).
But the district court also included language about
context in this instruction: “In determining whether a
statement was false, the words must be construed as a
whole without taking any word or phrase out of context. The meaning of the statement must be construed
in the context of the article or broadcast as a whole.”
Larson contends that even if the fair and accurate
reporting privilege applies here, the privilege was
“lost.” He argues that the jury instructions did not accurately convey the concepts of fairness and substantial accuracy. He further argues that the jury never
had a chance to decide whether the statements in the
news reports “produced the same effect on the mind of
the recipient which the precise truth would have produced.” Respondents, by contrast, contend that the
statements in the news reports were “fair and accurate
as a matter of law.” According to respondents, there is
“no need to turn to the jury verdict” because the news
reports conveyed the “gist” or “sting” of the message
conveyed at the press conference and by the press release. Alternatively, respondents urge us to rely upon
the jury’s verdict that the statements were not false to
conclude that the fair and accurate reporting privilege
was not defeated for lack of substantial accuracy.

App. 37
“The district court has broad discretion in determining jury instructions, and we will not reverse
where jury instructions ‘overall fairly and correctly
state the applicable law.’ ” Stewart v. Koenig, 783
N.W.2d 164, 166 (Minn. 2010) (quoting Hilligoss v. Cargill, Inc., 649 N.W.2d 142, 147 (Minn. 2002)). A new
trial is required, however, if an erroneous instruction
“destroys the substantial correctness of the charge as
a whole, causes a miscarriage of justice, or results in
substantial prejudice.” Domagala v. Rolland, 805
N.W.2d 14, 31 (Minn. 2011). A jury instruction is prejudicial if the instruction is misleading on a crucial element in a case and “would have changed the outcome
of the case.” Id. If we cannot determine the effect of an
erroneous jury instruction, “we will give the complainant the benefit of the doubt and grant a new trial.” Id.
The court of appeals determined that the district
court erred by failing to use the fair and accurate reporting privilege “as the starting point from which to
analyze the falsity instructions.” Larson, 915 N.W.2d at
498. Nonetheless, the court of appeals concluded that
“the district court’s falsity instruction did not destroy
the ‘substantial correctness of the charge as a whole.’ ”
Id. at 499 (quoting Domagala, 805 N.W.2d at 31). The
court of appeals ultimately credited the jury’s finding
that the statements were not false as resolving the issue of whether the privilege was defeated. Id. at 499.
The court of appeals therefore concluded that the district court erred in granting Larson a new trial. Id. at
500.

App. 38
We agree with respondents that, as a matter of
law, statements 7 and 8 were fair and accurate reports
of the press conference and press release and, therefore, the privilege applies. But for the reasons that follow, we conclude that a new trial is required to
determine whether the fair and accurate reporting
privilege was defeated for statements 1 through 5.
The question of whether a qualified privilege was
defeated generally is a jury question. Lewis, 389
N.W.2d at 890 (citing Restatement (Second) of Torts
§ 619 (Am. Law Inst. 1975)). When more than one conclusion can be drawn from undisputed facts, the question of substantial accuracy and fairness should go to
the jury. See Utecht v. Shopko Dep’t Store, 324 N.W.2d
652, 654 (Minn. 1982). But the question of whether a
qualified privilege was defeated need not be submitted
to the jury if “the facts are such that only one conclusion can be reasonably drawn.” Restatement (Second)
of Torts § 619 cmt. b; cf. McKee, 825 N.W.2d at 730–31
(concluding that no genuine issue of material fact existed as to the falsity of various statements in a defamation case that did not involve a privilege and
deciding substantial accuracy as a matter of law).
The district court instructed the jury here only on
substantial accuracy, using the model jury instruction
on the falsity element of a defamation claim. But the
focus in determining whether the fair and accurate reporting privilege was defeated is not on “the truth or
falsity of the content of the defamatory statement,” but
on “the accuracy with which the statement is reported.”
Moreno, 610 N.W.2d at 331 (emphasis added); see also

App. 39
KBMT Operating Co. v. Toledo, 492 S.W.3d 710, 714
(Tex. 2016) (“When the privilege applies, the gist of an
allegedly defamatory newscast must be compared to a
truthful report of the official proceedings, not to the actual facts.”). This distinction matters because when the
privilege applies, the re-publisher is not liable if the
statement is reported accurately and fairly, even if the
underlying statement is false.14 As noted above, the
14

This distinction is why falsity-by-implication cases do not
fit comfortably in the context of the fair and accurate reporting
privilege inquiry. The falsity-by-implication doctrine instructs
that even if a statement is true on its face, a defamation action
may be maintained if the implication of the statement is untrue.
Lewis, 389 N.W.2d at 889 (holding that a truth defense must “go
to the underlying implication of the statement, at least where the
statement is more than a simple allegation”). Lewis illustrates the
principle well. The case involved employees claiming defamation
under a compelled self-publication theory because they were
forced to tell prospective employers that they had been fired for
gross insubordination. Id. at 886. The employees asserted that
the employer’s determination of gross insubordination was a false
pretext for justifying their termination and that they had, in fact,
not been grossly insubordinate. See id. at 888. We held that the
employees’ defamation claims could proceed because the jury
found that being forced to repeat to prospective employers a literally true statement—“I was fired for gross insubordination”—implied a false fact that the employee had actually been grossly
insubordinate. Id. at 889. In other words, the employees’ defamation claims survived because the underlying fact implied by the
statement—that the employees were grossly insubordinate—was
untrue.
The whole point of the qualified fair and accurate reporting
privilege, however, is that in limited circumstances a report about
another person’s statement is not subject to defamation liability—
even if the facts underlying the statement are not true. The distinction is made clear if we assume momentarily that the qualified fair and accurate reporting privilege applied to a newspaper

App. 40
fair and accurate reporting privilege is an exception to
the common law republication rule, which provides
that a speaker who knows or should know that a statement is false and defamatory but repeats it nonetheless is equally as liable for the defamation as the
original speaker. See Church of Scientology of Minn. v.
Minn. State Med. Ass’n Found., 264 N.W.2d 152, 156
(Minn. 1978).

report that the employer in Lewis stated that the employees had
been fired for gross insubordination. (In reality, of course, the
privilege would not apply because the report about the Lewis employees is not a report on a public proceeding.) Under the fair and
accurate reporting privilege, the newspaper report would be protected from defamation liability even if the employees proved that
they did not commit gross insubordination: the opposite of the result in Lewis. Id. Stated another way, if the falsity-by-implication
principle were transferred whole-cloth into the fair and accurate
reporting privilege inquiry, that principle would effectively swallow the privilege in every case by requiring the defendant to prove
that any reported statement made by others in the proceeding
was substantially accurate.
This conclusion does not mean, however, that the implications of a report about another’s statement are irrelevant to our
analysis under the fair and accurate reporting privilege. As discussed elsewhere in the opinion, if a report implies a meaning
that is different from the meaning conveyed by the reported-upon
statement, the qualified fair and accurate reporting privilege
would not protect the report. For example, if the news reports
here omitted or added crucial facts in a manner that conveyed an
erroneous impression of the information conveyed at the press
conference to the listener or reader, the privilege may be defeated.
See Moreno, 610 N.W.2d at 333 (stating that fair and accurate
reporting privilege can be defeated if the report contains “additional contextual material . . . that conveys a defamatory impression”).

App. 41
The court of appeals concluded that the district
court’s falsity instruction sufficiently instructed the
jury “on the substantial accuracy of the news report.”
Larson, 915 N.W.2d at 499. The court therefore found
that the district court erred in ordering a new trial. Id.
at 498–500.
We disagree that the jury instructions were sufficient. We conclude that the district court’s instruction
on falsity was an incomplete instruction regarding the
factors that a jury should consider in determining
whether the fair and accurate reporting privilege was
defeated. To be sure, the district court did instruct the
jury on the “substantial accuracy” standard that applies in deciding the falsity element in a general defamation case not involving a privilege. And the
substantial accuracy standard is relevant to the jury’s
inquiry in determining whether the fair and accurate
reporting privilege was defeated. A report may be substantially accurate even if the report is not “exact in
every immaterial detail.” Restatement (Second) of
Torts § 611 cmt. f. In other words, we may overlook only
minor inaccuracies in the report for the privilege to be
preserved; the report must “convey[ ] to the persons
who read it a substantially correct account of the proceedings.” Id.
Moreover, to be protected by the privilege, “[n]ot
only must the report be accurate, but it must be fair.”
Id. A news report may not be fair if the report omits or
misplaces law enforcement statements or adds contextual material in a way that changes the meaning of the
statements. See Moreno, 610 N.W.2d at 333. Our

App. 42
recognition of the privilege rests in part on the principle that a fair and accurate report of statements made
by law enforcement officers “simply relay[s] information” that individuals would have heard or read
themselves if they had actually attended the press conference or read the press release. Id. at 331.
In other words, a news report is fair and accurate
if the report has “the same effect on the mind” of the
listener or reader as that which attending the press
conference or reading the press release would have
had.15 McKee, 825 N.W.2d at 730; see Masson v. New
Yorker Magazine, Inc., 501 U.S. 496, 517 (1991) (holding that a “statement is not considered false unless it
‘would have a different effect on the mind of the reader
from that which the pleaded truth would have produced’ ” (quoting R. Sack, Libel, Slander, and Related
Problems 138 (1980))). That is, the substance of the
meaning of the report must be the same—must communicate the same notion—as the underlying

15

This same principle applies in defamation actions that do
not involve the assertion of a privilege. In McKee, we articulated
a test for falsity that incorporated this principle—that “[a] statement is substantially true if it would have the same effect on the
mind of the reader or listener as that which the pleaded truth
would have produced.” 825 N.W.2d at 730 (citing Masson v. New
Yorker Magazine, Inc., 501 U.S. 496, 517 (1991)). Because the jury
may not be familiar with the meaning of the term “gist,” instructing a jury on falsity may involve including a clarifying instruction
that the statement is substantially true if it would have the same
effect on the mind of the reader or listener as that which the original statement would have produced.

App. 43
statement. McKee, 825 N.W.2d at 730; Restatement
(Second) of Torts § 611 cmt. f.
Therefore, for a news report to be protected by the
fair and accurate reporting privilege, the media cannot
edit or present the law enforcement statements in a
way that makes the report misleading. Moreno, 610
N.W.2d at 332. Specifically, the privilege can be defeated if the report is not “a fair abridgment” of events
at the proceeding, id. at 331, or the report contains “additional contextual material . . . that conveys a defamatory impression or comments on the veracity or
integrity of any party,” id. at 333. This inquiry—an essential component of determining if the fair and accurate reporting privilege protects a report—was not
included in the jury instructions and special verdict
form used here.
Because the district court concluded that the fair
and accurate reporting privilege did not apply here,
the district court did not instruct the jury on the factors to consider in determining whether the statements were fair and accurate, and the special verdict
form did not ask the jury to decide whether the privilege had been defeated by reporting that was not fair
and accurate. We conclude that the jury instructions
were incomplete and potentially misleading and therefore did not “fairly and correctly state the applicable
law.” Hilligoss, 649 N.W.2d at 147; see also Domagala,
805 N.W.2d at 31.
The district court should have instructed the jury
to consider whether the news reports were fair and

App. 44
accurate accounts of the law enforcement statements.
The crucial inquiry for the jury is whether the statements in the news reports communicated to the viewer
or reader the same meaning that someone who actually attended the press conference or read the press release would have taken away from the press
conference or press release.16 Especially in a case involving the fair and accurate reporting privilege, this
key question, modified to fit the circumstances here,
best encapsulates the issue for the jury: Did the reported statements produce the same effect on the mind
of the listener or the reader as the oral and written
statements of the law enforcement officers at the press
conference or in the press release? If the court had
framed the issue this way, the jury would have clearly
understood that its charge was to determine the fairness and accuracy of the reported statements and not
whether the underlying substance of those statements—that Larson killed Officer Decker—was true or
false. The district court’s instructions did not make
this distinction clear and therefore were misleading as

16

Respondents, in fact, recommended to the district court
that the jury instructions and the proposed special verdict form
include this key concept. One proposed instruction stated, “A report is considered substantially accurate, and a fair report if its
gist or sting is true, meaning that it produces the same effect on
the mind of the recipient[ ] which the truth would have produced.”
(Emphasis added.) Similarly, respondents proposed that the special verdict form list every statement and then ask, as the first
question, “Did the statement produce the same effect on the mind
of the recipients as the written and/or oral statements of law enforcement?”

App. 45
to a crucial inquiry in this case. See Domagala, 805
N.W.2d at 31.
Because the district court did not adequately instruct the jury on the fairness and accuracy inquiry, we
conclude that the error was potentially prejudicial to
Larson and that he is entitled to a new trial so that a
jury can determine whether the privilege was defeated
concerning statements 1 through 5:
1.

Police say that man—identified as 34year-old Ryan Larson—ambushed officer
Decker and shot him twice—killing him.

2.

Investigators say 34-year-old Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.

3.

He [Officer Decker] was the good guy last
night going to check on someone who
needed help. That someone was 34-yearold Ryan Larson who investigators say
opened fire on Officer Tom Decker for no
reason anyone can fathom.

4.

Investigators believe he fired two shots
into Cold Spring Police Officer Tom
Decker, causing his death.

5.

Police say Larson is responsible for the
shooting death of Cold Spring-Richmond
Police Officer Tom Decker.

Larson’s arguments on appeal go to the question
of whether the privilege was defeated. For example, he
argues that the news reports omitted certain facts and
did not appropriately convey that the investigation

App. 46
was in its very early stages, as law enforcement officers
stated at the press conference and in the press release.
The district court agreed that, if the privilege did apply
here, the news reports “created the impression of finality to the investigation and certainty to the idea that
Mr. Larson had killed Officer Decker,” which was “not
present” in the press conference or press release. According to the district court, the news reports did not
give the impression that the investigation was in a preliminary stage and that the investigation was ongoing;
rather, the effect of each of the statements was that
“police had their man” and “[t]he investigation was
over.” In sum, the district court determined that each
of the “statements produced a harsher effect or sting
on the mind of the recipients than the precise truth
would have produced.”
But this is a question for the jury to decide. If the
jury had been adequately instructed on the fairness
and accuracy inquiry, the jury could have reasonably
concluded that the privilege was defeated because the
statements in the news reports did not convey the
same meaning as the statements at the press conference and in the press release. Because the erroneous
jury instructions possibly prejudiced Larson, he is entitled to a new trial17 on statements 1 through 5. See
17

The dissent would usurp the role of the jury and hold that
the privilege was defeated because these statements were “false
as a matter of law.” We have long held that “the truth or falsity
of a statement is inherently within the province of the jury.”
Lewis, 389 N.W.2d at 889. Even if there is “no disputed material
fact about the content of the press conference, the broadcast, or
the newspaper article,” as the dissent states, we cannot decide

App. 47
George v. Estate of Baker, 724 N.W.2d 1, 10 (Minn.
2006) (explaining that a jury instruction is prejudicial
if the erroneous instruction could have influenced the
jury’s analysis).
We conclude, however, that only one conclusion
can be drawn regarding statements 7 and 8: they were
fair and accurate as a matter of law. These statements
are:
7.

Ryan Larson, the man accused of killing
Officer Decker, could be charged as early
as Monday.

8.

Man faces murder charge.

Larson asserts that these statements were not accurate because the effect of each statement “would produce on the mind of the recipient” that he “had been
formally charged with murder.” We disagree.
The use of the term “accused” in statement 7—
"Ryan Larson, the man accused of killing Officer
Decker, could be charged as early as Monday”—which
was part of a KARE 11 newscast, cannot reasonably be
interpreted in the technical, legal sense as meaning
falsity as a matter of law if a jury can draw different conclusions
from undisputed facts. See McKee, 825 N.W.2d at 730 (“As a general rule, the truth or falsity of a statement is a question for the
jury.”). “Only where the facts are undisputed and reasonable
minds can draw but one conclusion from them does the question
for determination become one of law for the court.” Conover v. N.
States Power Co., 313 N.W.2d 397, 401 (Minn. 1981). Regarding
statements 1 through 5, a new trial is required because a jury
might reasonably draw different conclusions regarding the substantial accuracy and fairness of any one of the statements.

App. 48
that Larson had already been charged with murder.
The statement itself includes the phrase “could be
charged as early as Monday,” which clearly communicated that Larson had not yet been formally charged.
(Emphasis added.) Given the context of his announced
arrest, we conclude, as a matter of law, that this statement is protected by the fair and accurate reporting
privilege.18
Similarly, concerning statement 8—the headline
in the St. Cloud Times “Man faces murder charge”—
the use of the word “faces” simply conveyed to the
reader that Larson had the prospect of being charged
in the future. See Webster’s Collegiate Dictionary 414–
15 (10th ed. 1998) (defining “face” as “to have as a prospect”). Moreover, taking into account the context, the
article accompanying the headline clearly stated that
Larson was in the Stearns County Jail and “face[d]
possible charges of second-degree murder.” (Emphasis
added.) Accordingly, we conclude, as a matter of law,
18

We note that some courts have held as a matter of law that
the distinction between “arrested” and “charged” is immaterial
when applying the privilege. See Williams v. WCAU-TV, 555
F. Supp. 198, 203–04 (E.D. Pa. 1983) (concluding that a statement
made during a broadcast that the plaintiff “will be charged for
bank robbery,” even though he was never charged, was substantially accurate because the plaintiff was arrested); Jones, 512
N.E.2d at 266 (concluding that “the report of the plaintiff ’s arrest
did not become substantially inaccurate merely because the report incorrectly stated that the plaintiff had been charged with
murder” because “[a]lthough the plaintiff was not actually
charged, the impact of that statement did not create a substantially greater defamatory sting than an accurate report that the
plaintiff had only been booked on suspicion of murder”).

App. 49
that this statement is also protected by the fair and
accurate reporting privilege.
Therefore, we affirm the court of appeals’ decision
regarding statements 7 and 8, but reverse and remand
for a new trial on whether the fair and accurate reporting privilege has been defeated regarding statements
1 through 5.
III.
Finally, we consider whether a new trial is required concerning statement 6 and statements 9
through 11, which were not reports of the law enforcement statements made at the press conference or in
the press release and, therefore, are not subject to the
privilege. The district court initially dismissed statements 9 through 11 from the case as not actionable.
Later, the district court reversed course and ordered a
new trial on these statements, concluding that it was
error to dismiss the statements because a reasonable
jury could understand the statements as implying that
Larson killed Officer Decker.
We review a district court’s order for a new trial
for an abuse of discretion. Halla Nursery, Inc., 454
N.W.2d at 910. But when an order for a new trial is
based on a question of law, we review the district
court’s decision de novo. Stoebe v. Merastar Ins. Co., 554
N.W.2d 733, 735 (Minn. 1996).

App. 50
Here we consider the following statements:
6.

[The officer’s mother] holds no ill-will
against the man accused of killing her
son.19

9.

His mind must have really been messed
up to do something like that. I know Tom
would have forgave him.

10. He does not have an extensive criminal
history, but was cited with disorderly conduct in 2009. He was a second year machine tool student at St. Cloud Tech.
Larson is being held in the Stearns
County Jail.
11. [She] said she came to the jail Tuesday
because she had one thing she wanted to
say to Larson if she got to [sic] the chance
to see him leave the jail. “This isn’t over,”
she said.
We must decide whether these statements can
support a defamation claim as a matter of law.
Larson claims that each of these statements implied that he killed Officer Decker. At common law, if a
“ ‘defendant juxtaposes a series of facts so as to imply
a defamatory connection between them, or creates a
19

The court of appeals treated statement 6 as one of the
statements protected by the fair and accurate reporting privilege.
See Larson, 915 N.W.2d at 500. But this statement was not part
of the report of statements made at the law enforcement press
conference or in the press release; rather, the statement related
to an interview with Officer Decker’s mother. The privilege does
not apply to this statement.

App. 51
defamatory implication by omitting facts, he may be
held responsible for the defamatory implication, unless
it qualifies as an opinion, even though the particular
facts are correct.’ ” Diesen v. Hessburg, 455 N.W.2d 446,
450 (Minn. 1990) (emphasis added) (quoting Prosser
and Keeton on Torts, supra, § 116 (5th ed. Supp. 1988)).
“Whether defamatory meaning is conveyed depends
upon how an ordinary person understands the language used in the light of surrounding circumstances”
and “the words must be construed as a whole without
taking any word or phrase out of context.” McKee, 825
N.W.2d at 731 (citations omitted) (internal quotation
marks omitted).
First, we consider statement 6—the statement
that Officer Decker’s mother “holds no ill-will against
the man accused of killing her son.” This statement
was made during a KARE 11 broadcast as part of the
description of the reporter’s interview with Officer
Decker’s mother. After the report on the interview, the
segment cut back to the KARE 11 anchor, who then
stated that “Ryan Larson, the man accused of killing
Officer Decker, could be charged as early as Monday.”
The anchor’s statement is statement 7, which we discussed above in connection with the fair and accurate
reporting privilege. As we concluded regarding statement 7, the word “accused” in statement 6, when considered in the context of the news report, does not
connote a formal legal charge of murder, as Larson contends; in fact, the report makes clear that Larson had
not yet been charged with a crime. Further, the statement that the officer’s mother “holds no ill-will” is not

App. 52
capable of a defamatory meaning. Therefore, we conclude that the defamation claim concerning statement
6 fails as a matter of law.
Next, we consider statements 9 and 11, and conclude that these statements are non-actionable opinion. The First Amendment protects opinion from
defamation liability. Diesen, 455 N.W.2d at 450 (citing
Gertz v. Robert Welch, Inc., 418 U.S. 323, 339–40
(1974)). In assessing whether a statement is an opinion, we consider its “specificity and verifiability, as well
as [its] literary and public context.” Id. at 450. A statement that is merely “rhetorical hyperbole,” moreover,
is considered non-actionable. McKee, 825 N.W.2d at
733 (citing Milkovich v. Lorain Journal Co., 497 U.S. 1,
19–20 (1990)).
Statement 9 was made by Officer Decker’s mother
to a reporter and then broadcast on KARE 11. In response to the reporter’s questions, Officer Decker’s
mother said of the suspect, “His mind must have really
been messed up to do something like that. I know Tom
would have forgave him.” This statement speculates
about the suspect’s state of mind and further opines
about how her dead son would have charitably forgiven
his alleged killer. In the context of the entire newscast,
no ordinary listener would understand statement 9 to
be an assertion of fact, or to imply an assertion of fact,
about Larson.
Statement 11 appeared in the St. Cloud Times and
was made by the twin sister of Officer Decker’s ex-wife,
who had been asked for a reaction to the possibility

App. 53
that Larson would be released from jail. Larson’s claim
is based on the article’s statement that “[She] said she
came to the jail Tuesday because she had one thing she
wanted to say to Larson if she got to [sic] the chance to
see him leave the jail. ‘This isn’t over,’ she said.” The
full context of the article makes clear, however, that
these statements were not about Larson’s guilt, but the
speaker’s own worries. Immediately preceding the
quoted passage, the article states: “ ‘(The culprit) could
be somebody in the crowd,’ [she] said.” She said “her
sister fears for the safety of her children because there
are so many unknowns about what happened or what
led to the shooting.” Properly considered in its context,
we fail to see how statement 11 can be reasonably understood as anything other than opinion or “rhetorical
hyperbole.” See McKee, 825 N.W.2d at 733.
Finally, turning to statement 10, the statement
was made by the KARE 11 anchor and conveyed information about Larson’s background, including his criminal history: “[He] does not have an extensive criminal
history, but was cited with disorderly conduct in 2009.
He was a second year machine tool student at St. Cloud
Tech. Larson is being held in Stearns County Jail.” The
information about Larson’s criminal history is a matter of public record, entitled to First Amendment protection. See Cox, 420 U.S. at 496; see also Carradine v.
State, 511 N.W.2d 733, 737 (Minn. 1994) (noting that
an arrest report “is a matter of public record available
to the press”). His status as student was a true statement. In addition to being public and true, statement
10 does not “juxtapose[ ] a series of facts so as to imply

App. 54
a defamatory connection between them.” Diesen, 455
N.W.2d at 450. Because no implication of defamation
arises from statement 10, Larson’s defamation-by-implication claim fails.20
CONCLUSION
For the foregoing reasons, we affirm the decision
of the court of appeals in part, reverse in part, and remand to the district court for further proceedings consistent with this opinion.
Affirmed in part, reversed in part, and remanded.

CONCURRENCE & DISSENT
ANDERSON, Justice (concurring in part, dissenting in
part).
This case requires us to balance the tension between “free and open public discourse and an individual’s right to compensation for harm to reputation.”
20

Given these conclusions, we need not consider the court of
appeals’ conclusion that Larson is barred from recovery on these
statements under the incremental-harm doctrine. Larson, 915
N.W.2d at 500. It is also unnecessary to consider respondents’ arguments regarding the evidence of negligence and damages. The
jury did not answer these questions on the special verdict form,
the district court concluded that a new trial on these issues was
necessary though for reasons different from those explained here,
and the court of appeals did not reach these issues. Id. Because a
new trial must be held to determine whether the privilege was
defeated, that trial will also, if necessary, encompass issues of
negligence and damages.

App. 55
Moreno v. Crookston Times Printing Co., 610 N.W.2d
321, 329 (Minn. 2000). Although we have “long sought
to protect and enhance free and open discussion of public issues,” we have also recognized that “personal reputation has been cherished as important and highly
worthy of protection.” Jadwin v. Minneapolis Star &
Tribune Co., 367 N.W.2d 476, 490–91 (Minn. 1985). We
have struck a balance between these two interests
through a complex array of privileges and shifting requirements for the elements of a prima facie defamation case. Id. at 480. Because the court tips that
balance too far here in favor of the press, effectively
immunizing the press from liability for falsely accusing a private citizen of murder, I respectfully dissent.1
The facts of this case are not disputed. In 2012,
Cold Spring police officer Tom Decker was shot to
death. Police arrested appellant Ryan Larson in connection with Officer Decker’s death. But Larson was
never charged with any crime and police later learned
that the real killer was somebody else.
Even though their investigation was in its early
stages, police held a press conference and issued a
press release the day after the shooting, announcing
that they had arrested Larson. Respondents, through
KARE 11 and the St. Cloud Times newspaper, covered
the press conference. KARE 11’s 6 p.m. newscast
1

I agree with the court’s conclusion that, because statements
9–11 fall outside the scope of the privilege at issue here, they are
not actionable as a matter of law. Thus, I join in the court’s decision in that part of section III of the opinion that addresses statements 9–11.

App. 56
stated, among other challenged statements, “Police say
that . . . Ryan Larson . . . ambushed Officer Decker and
shot him twice—killing him.”
Larson sued respondents for defamation, identifying 11 different statements that he contended were defamatory. In five of these statements, respondents
reported that police said or believed that Larson had
killed Officer Decker.
Larson requested that the district court instruct
the jury on defamation by implication as follows: “A
statement or communication is also false if the implication of the statement is false.” 4 Minn. Dist. Judges
Ass’n, Minnesota Practice—Jury Instruction, Guides,
Civil, CIVJIG 50.25 (6th ed. 2014) (hereinafter CIVJIG
50.25). The district court denied this request.
The jury determined that the statements at issue
were defamatory but not false. The district court, however, granted Larson’s posttrial motion and held that
the statements were false as a matter of law because
the implication of the statements—that Larson killed
Officer Decker—was false. The court also rejected respondents’ argument that the fair and accurate reporting privilege immunized them from Larson’s
defamation claim. Thus, the district court determined
that a new trial was required, to address the issues of
negligence and damages. The court of appeals reversed, holding that the fair and accurate reporting
privilege applied to 8 of the 11 statements cited by Larson in his complaint, and thus the district court erred

App. 57
by granting a new trial. We granted Larson’s petition
for review.2
I.
I turn first to the question of the fair and accurate
reporting privilege. We have discussed this privilege in
only two-cases, applying it in one case, Moreno, 610
N.W.2d at 334, and declining to apply it in the other,
Nixon v. Dispatch Printing Co., 112 N.W. 258, 259
(1907). In both cases, we declined to apply the privilege
broadly because to do so would undermine “[t]he constitutional guaranty to the citizen of a certain remedy
for all wrongs.” See Nixon, 112 N.W. at 258; see also
Moreno, 610 N.W.2d at 331 (noting that a “narrow application” of the privilege balances its broad protection). The court ignores that caution today in favor of
an expansive and limitless rule of privilege. At its outset, the fair and accurate reporting privilege was a narrow common law privilege designed to protect fair
reporting on adversarial judicial proceedings; it had no
application to reporting on law enforcement press conferences. Even if the privilege is to be expanded beyond
the well-reasoned limits recognized at common law, as
this court did in Moreno, a further expansion to encompass the circumstances here misunderstands our precedent. But even relying on the court’s dubious
expansion of the privilege, I would hold that the

2

We also granted respondents’ cross-petition on the question
of whether their news reports were fair and accurate.

App. 58
statements made were not “fair and accurate” as a
matter of law.
A.
I begin with the observation that the Minnesota
Constitution specifically promises the residents of
Minnesota the right to a remedy in our courts for damage to character. Minn. Const. art. 1, § 8 (“Every person
is entitled to a certain remedy in the laws for all injuries or wrongs which he may receive to his person,
property or character. . . .”). That constitutionally mandated remedy for the wrong of libel or slander did not
appear out of thin air. The common law, developed over
hundreds of years, has long recognized a remedy for
damage to reputation from defamation. See Van
Vechten Veeder, The History and Theory of the Law of
Defamation, 3 Colum. L. Rev. 546, 547–61 (1903) (reviewing how early laws, including Roman, Christian,
Germanic, and English law, protected a person’s reputation); 1 William Blackstone, Commentaries on the
Law of England in Four Books *134 (1753) (“The security of his reputation or good name from the arts of detraction and slander, are rights to which every man is
entitled, by reason and natural justice; since without
these it is impossible to have the perfect enjoyment of
any other advantage or right.”). Significant litigation
vindicating an individual’s right to protect reputation
emerged as early as the seventeenth century. See Van
Vechten Veeder, supra, at 559 (referencing several
seventeenth-century cases); see also Allen v. Pioneer
Press Co., 41 N.W. 936, 938 (1889) (acknowledging that

App. 59
the right at common law to protect one’s reputation included the ability to bring an action to seek “damages
to his standing and reputation”); King v. Lake (1670)
145 Eng. Rep. 552, 552–53 (providing an example of
seventeenth-century common law refinement of defamation law by distinguishing between libel and slander). While a fair and accurate reporting privilege
developed in common law, the courts were mixed regarding whether the privilege extended beyond adversarial judicial proceedings to ex parte judicial
hearings; what was clear was that some kind of judicial
proceeding was required.3 In accord with the common
3

At common law, the fair and accurate reporting privilege
was a limited privilege recognized only when reporting on judicial
proceedings because these official proceedings provided inherent
protections to others. A nineteenth-century Rhode Island case explained the rationale for this limited privilege:
If a man has not the right to go around to tell of charges
made by one against another, much less should a newspaper have the right to spread it broadcast and in enduring form. . . . When the charges come up for
adjudication, however, although their publication may
be as harmful and distressing to the person accused as
if they had been published before their consideration
by a court, a different rule applies. Individual feelings
are no longer considered, for the reason, as stated by
Judge Holmes: “It is desirable that the trial of causes
should take place under the public eye, not because the
controversies of one citizen with another are of public
concern, but because it is of the highest moment that
those who administer justice should always act under
the sense of public responsibility, and that every citizen
should be able to satisfy himself, with his own eyes, as
to the mode in which a public duty is performed.”
Metcalf v. Times Publ’g Co., 40 A. 864, 865–66 (1898) (tracing the
history of the fair and accurate reporting privilege from early

App. 60
law, we held in Nixon that publishing the contents of a
complaint was not an adversarial judicial proceeding
and the publication was not protected by the fair and
accurate reporting privilege. 112 N.W. at 258–59.
The right of a person “to the protection of his own
reputation from unjustified invasion and wrongful
hurt reflects no more than our basic concept of the essential dignity and worth of every human being—a
concept at the root of any decent system of ordered liberty.” Rosenblatt v. Baer, 383 U.S. 75, 92 (1966) (Stewart, J., concurring). Importantly, “[t]he protection of
private personality, like the protection of life itself, is
left primarily to the individual States under the Ninth
and Tenth Amendments.” Id. By extending the privilege, the court has deprived Larson of his historic right
to seek justice from those who, in his view, have damaged his reputation.
B.
I acknowledge that we have already exceeded the
bounds of common law when in Moreno we extended
this privilege to legislative proceedings. 610 N.W.2d at
332–33 (extending the fair and accurate reporting
privilege from judicial proceedings to include legislative proceedings based on “policy considerations”). It is
not necessary to address the wisdom of that extension
here in order to recognize that further expansion of the

English precedent through its adoption into United States jurisprudence).

App. 61
privilege is neither consistent with the history of defamation law nor wise under our existing jurisprudence.
The court grounds its application of the privilege
in the Restatement (Second) of Torts, which describes
this privilege as one protecting the fair and accurate
“report of an official action or proceeding or of a meeting open to the public that deals with a matter of public
concern.” Restatement (Second) of Torts § 611 (Am.
Law. Inst. 1977). But we have never fully adopted section 611 and a wholesale adoption of this Restatement
section is inconsistent with our cautious approach to
privileges in general and to this privilege in particular.
See Zutz v. Nelson, 788 N.W.2d 58, 62 (Minn. 2010)
(noting that an “[a]bsolute privilege is not lightly
granted and applies only in limited circumstances”);
see also Moreno, 610 N.W.2d at 332 (declining to adopt
section 611 in full).
Other than referencing section 611, the court does
not clearly articulate why the privilege applies here.
The court states multiple times that the press conference was “official” and that the agency’s press release
was “official,” apparently because “officials” conducted
the press conference and wrote the press release. Under that logic, the media has immunity to report on any
press conference held by any government employee
and the scope of the fair and accurate reporting privilege is effectively limitless. Because of the court’s broad
rule, any government official or employee will be able
to call a press conference or disseminate a press release that defames private individuals and the press,
with impunity, will be able to widely circulate that

App. 62
defamation. Such expansive immunity is flatly inconsistent with section 611 of the Restatement and with
our own precedent.4
Section 611 itself is inconsistent with the court’s
expansive application of the privilege. Comment (h) to
section 611 makes clear that “statements made by the
police . . . as to the facts of the case or the evidence expected to be given are not yet part of the judicial proceeding or of the arrest itself and are not privileged
under this Section.” Restatement (Second) of Torts
§ 611 cmt. h. Consistent with the comment to section
611, the privilege should not apply here.5
4

The court’s rule will be difficult to implement. The rule requires courts to make ad hoc determinations on whether something is an “official action.” Without any standards to anchor
these decisions, courts must first decide what is, or is not, an “official duty” of a government employee. From there, courts must
decide whether the government employee’s speech was “official”
speech undertaken to fulfill that duty. And in light of the court’s
decision today, it is hard to imagine what speech will not be
deemed “official” if all a government employee must do is call a
press conference or publish a press release. This rule is unreasonably broad and has the potential to swallow all of the carefully
crafted privileges and defenses that currently exist in the law of
defamation. Moreover, with the rise of the Internet, which defendants are “media” and therefore qualify for this reporting privilege
will be difficult to determine with any certainty. See Maethner v.
Someplace Safe, Inc., 929 N.W.2d 868, 876 (Minn. 2019) (acknowledging a defendant’s argument, although finding it nondispositive, that “determining who qualifies as a member of the media
has become untenable with the rise of the internet and the decline
of print and broadcast media”).
5
The court states that to the extent we cited comment (h)
favorably in Moreno, our reference has little utility in determining when the fair and accurate reporting privilege applies because

App. 63
The court’s expansive new rule is also inconsistent
with our precedent. The court, relying on Moreno, concludes that the privilege applies because the press conference was a meeting open to the public that deals
with matters of public concern. But state law required
the city council meeting at issue in Moreno to be open
to the public. See Minn. Stat. § 13D.01, subd. 1(b)(4)–
(5) (2018) (requiring that meetings of governing bodies
of cities and towns be open to the public). There is no
we were using it to explain only how that privilege can be defeated. This distinction misapprehends our discussion in Moreno.
Although we explained ways in which the fair and accurate reporting privilege can be defeated, we specifically discussed the
problem that arises when reporters include “additional contextual
material, not part of the proceeding” in their reports. Moreno, 610
N.W.2d at 333. Because this material is not covered by the privilege, the use of this additional material can defeat an otherwise
privileged report. Id. As an example of such additional material
not covered by the privilege, we included statements by the police
about the facts of a case that are not yet part of a judicial proceeding. Id. To be additional contextual material, a statement first
must be outside the privilege. Thus, this discussion was as much
a comment on the inapplicability of the fair and accurate reporting privilege to police statements like the ones at issue in this case
as it was about ways in which the privilege can be defeated.
The court also contends that Moreno contradicts the limits of
comment (h) because, in that case, a citizen’s accusation that a
specific person had committed criminal activity was privileged
even though judicial proceedings were not underway. But the fair
and accurate reporting privilege is not concerned with the identity of the first speaker. Instead, it applies to reports from public
proceedings. Accordingly, the citizen’s statements in Moreno were
protected because they were made as “part of the regular business
of a city council meeting.” Id. But the law enforcement statements
about the citizen’s statements were outside the privilege because
law enforcement’s statements were not made as part of a privileged proceeding. Id. at 334.

App. 64
statute that requires police to hold press conferences
or issue press releases.
Moreover, that a government employee chooses to
make something public cannot be the basis for extending a near-absolute immunity to media who report on
that publication.6 In Moreno, for example, the fact that
the police chief spoke to the media and that the media
6

The court bases its extension of the privilege on its concern
for a situation where the media has less protection from liability
than the government official on whom the media is reporting. I
am not at all troubled by this result and do not find it inconsistent
as the court does. The court’s reliance on Carradine v. State and
Johnson v. Dirkswager misunderstands our reasoning for extending absolute immunity to certain actions of public officials. As we
concluded in Carradine:
[T]he purpose of extending absolute immunity to an officer
performing a certain governmental function is not primarily
to protect the officer personally from civil liability (although
that is the effect of absolute immunity). Rather, the rationale
is that unless the officer in question is absolutely immune
from suit, the officer will timorously, instead of fearlessly, perform the function in question and, as a result, government—
that is, the public—will be the ultimate loser.
511 N.W.2d 733, 735 (Minn. 1994).
Absolute privilege and the fair and accurate reporting privilege serve different purposes, and there is nothing inconsistent
about extending one and not the other. Further, the court’s rule
does not even resolve the purported inconsistency. Our decision
in Johnson, that a high-level state official “has an absolute privilege, in the performance of his official duties, to communicate defamatory material” does not also support the court’s broad
application of the privilege. Johnson v. Dirkswager, 315 N.W.2d
215, 223 (Minn. 1982). In Johnson, a privilege applied because
state law required that the reasons for the employer’s termination
decision be made public. Id. There is no such statutory mandate
in this case.

App. 65
reported on the police chief ’s statements did not entitle the media to the privilege for reporting on the
chief ’s statements. We limited the privilege only to the
“report on the events of the city council meeting.” See
610 N.W.2d at 334. Moreno, therefore, does not support
the court’s rule.
The court’s broad application of the privilege also
conflicts with Nixon. In Nixon, the question was
whether the fair and accurate reporting privilege applied to immunize reporting by the media on accusations made in a complaint that was filed in court. 112
N.W. at 258. Obviously, the complaint was public because it had been filed in court. Id. (noting that “by virtue of . . . statute the clerk must exhibit the [complaint]
in his office for the inspection of any person”). But we
held that the unilateral decision of a plaintiff to file a
complaint did not clothe the media with immunity to
publish the allegations. Id. at 258–59. Rather, we held
that, for the privilege to apply, there needed to be a “judicial proceeding,” and before there would be a “judicial
proceeding,” there needed to be a matter “under the
control of the judge, where both sides may be heard. Id.
at 259. A fair report of such a proceeding would include
the claims of all parties as made in court.” Id. at 258–
59. Under the circumstance in Nixon—where the complaint had “never been presented to the court for its
action”—the privilege did not apply. Id. Consistent
with Nixon, the unilateral decision of law enforcement
to hold a press conference and issue a press release
does not provide immunity to the media to publish

App. 66
defamatory statements made at that press conference
or in that press release.7
The court concludes, however, that the privilege
applies here because the subject discussed at the press
conference involved a matter of public concern. And the
court repeatedly invokes the values of the First
Amendment and principles of government accountability to support its conclusion that the media has immunity here. These values and principles have little to
do with the facts here. Importantly, the media here did
not report about government misconduct or defame a
government employee. This case is about a private citizen who was falsely accused by certain media representatives of shooting and killing a police officer. But
the court does not explain just exactly how the First
Amendment is served by extending immunity to the
press for making false accusations.8
7

Unable to square its rule with Nixon, the court casts Nixon
aside as an old case, then casts Moreno aside because “Moreno
recognized [that] Nixon provides little guidance.” In fact, Moreno
relied on the analysis in Nixon to conclude that the privilege
should apply. Moreno, 610 N.W.2d at 332 (“The same policy considerations found in Nixon support extending that privilege to fair
and accurate reports of legislative proceedings as well, including
city council meetings.”).
8
One of the cases the court cites, Cox Broadcasting Corp. v.
Cohn, 420 U.S. 469 (1975), shows that the court’s reliance on First
Amendment principles is misplaced. There, the media published
the name of a rape victim, which the media was able to obtain
because the victim’s name was in a court filing in a pending and
public criminal case. Id. at 471–73. Here, by contrast, there was
no pending criminal case because no criminal charges were ever
filed.

App. 67
Certainly, the murder of a police officer and the expenditure of public funds to investigate that crime are
a matter of public concern. But the identity of the person who is the focus of the police investigation cannot
be said to be of sufficient public concern to warrant the
application of the immunity the media seeks here. See
Rouch v. Enquirer & News of Battle Creek, Mich., 357
N.W.2d 794, 801 (1984) (“[T]here is an important distinction between matters which truly promote the public interest and matters which are merely interesting
to the public.”), aff ’d, 427 Mich. 157, 398 N.W.2d 245
(1986), superseded by statute as recognized in Northland Wheels Roller Skating Ctr., Inc. v. Detroit Free
Press, Inc., 539 N.W.2d 774, 779 (1995). The court does
not and could not demonstrate otherwise because any
public interest is satisfied when law enforcement informs the public that a suspect is in custody or that
there is no reason to believe that anyone else is in danger. Law enforcement routinely issues such statements
without revealing the identity of the suspect or the details of the crime.
Further, there is no public policy, compelling or
otherwise, that requires us to extend the privilege this
far. In fact, privileging the dissemination of this kind
of defamation is antithetical to the constitutional guarantees of a fair trial. See U.S. Const. amend. XIV, § 1;
Minn. Const. art. 1, § 6. Law enforcement press conferences and news releases of this sort have substantial
potential “to prejudice those whom the law still presumes to be innocent and to poison the sources of justice.” Lancour v. Herald & Globe Ass’n, 17 A.2d 253, 259

App. 68
(Vt. 1941). This cost outweighs the public’s appetite for
information about the commission and investigation of
crime before judicial proceedings have been initiated.
Cf. McAllister v. Detroit Free Press Co., 43 N.W. 431, 437
(1889) (“It is indignity enough for an honest man to be
arrested and put in prison for an offense of which he is
innocent, . . . without being further subjected to the
wrong and outrage of a false publication of the circumstance of such arrest and imprisonment, looking towards his guilt, without remedy.”).9
This is not to say that reports of law enforcement
press conferences and press releases can never be privileged. As the court posits, there might be a situation
where “a suspected criminal remains at large” and a
press conference is held “to caution the public and solicit pertinent information.” A qualified privilege likely
extends to such a press conference. See Bol v. Cole, 561
N.W.2d 143, 150 (Minn. 1997) (extending a qualified
privilege to an accusation of child abuse published in
an effort to prevent further harm). Further, the commission and investigation of a crime is a matter of public concern. See Cox Broad. Corp. v. Cohn, 420 U.S. 469,
492 (1975) (“The commission of crime, prosecutions
9

The court admits that tension may exist in some cases between protecting freedom of the press and preserving an unbiased
jury pool. Here, the record shows that at least 95,000 households
likely viewed the 6 p.m. broadcast and at least 125,000 households likely viewed the 10 p.m. broadcast that accused Larson of
killing a police officer and, of course, the only daily newspaper in
St. Cloud also accused him of murdering a police officer. It can be
safely said that the court’s understated observation about “tension” is accurate, to say the least.

App. 69
resulting from it, and judicial proceedings arising from
the prosecutions, however, are without question events
of legitimate concern to the public. . . .”); Jacobson v.
Rochester Commc’ns Corp., 410 N.W.2d 830, 832, 836
n.7 (Minn. 1987) (noting that news reports about a
criminal trial and the out-of-court activities of the accused were matters of public concern). Thus, if the
press republish police statements about the commission and investigation of a crime, defamed citizens will
need to prove that the press was negligent to make a
prima facie case, Jadwin, 367 N.W.2d at 491, and must
prove actual malice to recover presumed or punitive
damages, see Maethner v. Someplace Safe, Inc., 929
N.W.2d 868, 878–79 (Minn. 2019).
The court dismisses these protections out of concern for the media having to bear the costs of litigation
and the possibility that such costs could deter the media from investigating “controversial subjects or even
official misconduct.” Of course in this case, the media
was not deterred from its reporting even though we
had not yet extended the privilege the court recognizes
today and the court is resolutely silent on the financial
burden on Larson associated with his attempts to restore his shattered reputation. Moreover, completely
absent from the court’s evaluation is any consideration
of the reputational interests of the private citizen who
was harmed here.
As we recognized in Jadwin, the very case the
court cites, private citizens are “deserving of recovery”
and they “ordinarily have little to no media access to
rebut alleged libelous charges.” 367 N.W.2d at 491. And

App. 70
because a private citizen’s “sole means to vindicate his
or her reputation may be [a] judicial determination
that the injurious statement is in fact false,” we declined to adopt a fault standard that would “go too far
in extinguishing the only protection a private individual may invoke.” Id. I would follow this same path here.
Given the other protections that our law already provides to the media, the reduced public interest, and the
important reputational interests at stake, I would not
extend the fair and accurate reporting privilege to law
enforcement press conferences and press releases.10
10

The court concludes that extending the privilege to law enforcement press conferences and press releases will allow the public to hold the government accountable and oversee the
performance of public officials and institutions. This is unpersuasive. Although media reports may facilitate communication between state officials and the public, while also allowing the public
to assess the quality of state officials’ responses to a public safety
emergency, these interests are satisfied by reporting that a suspect is in custody. To do more, to identify that suspect before he
faces criminal charges, is entirely unnecessary to the articulated
goals. Moreover, it is hard to imagine how the restrained statements such as those made at the press conference here will allow
the public to monitor any wrongdoing by the police or a lack of
integrity in the criminal justice system.
Other laws aimed at transparency and accountability of law
enforcement—and the criminal justice system as a whole—are
better tools to achieve this goal. See, e.g., Minn. Stat. §§ 13.82 (defining categories of law enforcement data as private, confidential,
or open to the public, and describing procedures to make this data
available if applicable), 299C.18 (mandating that the Bureau of
Criminal Apprehension submit a biennial report to the Governor
and the Legislature detailing the operations of the bureau),
626.8459(a) (mandating that the Peace Officer Standards and
Training Board conduct reviews on all state and local law enforcement agencies to ensure compliance with statutes and rules, and

App. 71
II.
I would not apply the privilege here. Rather, I
would reach the same conclusion that the district court
reached; that is, that statements one through eight are
false as a matter of law. The dispositive question is
whether the reports about the November 30 law enforcement press conference made during KARE 11’s
evening news broadcasts and published the next day
in the St. Cloud Times communicated to the viewer or
reader the same meaning that someone who actually
attended the press conference would have taken away
from the press conference. After comparing the undisputed statements made at the press conference and
the undisputed reports by respondents, I conclude that
the answer to that question as a matter of law is “No.”
Thus, I would remand to the district court for the sole
purpose of determining the negligence of respondents
and the damages that respondents must pay to
that the board report detailed information about those reviews to
the Legislature) (2018); Minn. R. Pub. Access to Recs. of Jud.
Branch 2 (setting out rules for public access to records of the judicial branch, with the presumption that the records of all courts
are “open to any member of the public for inspection or copying”
unless an exception in the rules applies or a court orders otherwise); Minneapolis, Minn. Police Department Pol’y & Proc. Manual § 4-223 (2018) (regulating and requiring the use of body
cameras in certain situations).
Finally, I disagree with the court’s assertion that it makes
“no sense” not to immunize the media because the media was not
responsible for the “original message.” Why this should matter,
the court does not explain. In any case, not only was the media in
control of the dissemination of the message that Larson shot and
killed a police officer, as I explain later, those statements also
were not the “original message.”

App. 72
compensate Larson, as the district court properly required under its posttrial order.11
A.
When analyzing defamation claims, we must carefully balance two competing values: (1) “the right to
speak freely about issues of concern” and (2) an individual’s right to protect his or her reputation, which
“reflects no more than our basic concept of the essential dignity and worth of every human being—a concept at the root of any decent system of ordered liberty.”
Maethner, 929 N.W.2d at 891 (Thissen, J., dissenting)
(quoting Gertz v. Robert Welch, Inc., 418 U.S. 323, 341
(1974)). This same balancing of interests is critical
whether the alleged defamer is an individual passing
rumors on the street corner or a large media company
communicating with many viewers or readers. Indeed,
our concern about damage to reputation should be
heightened when the alleged defamer can reach tens
of thousands of viewers.12
11

The same analysis would lead me to conclude that even if
the privilege applied, it would not protect the media here because
their reporting was not fair and accurate.
12
It is notable that most news outlets in the Twin Cities follow the commendable rule that the names of persons alleged to
have committed crimes are not released until the person is actually charged with the crime. For reasons about which one can only
speculate, respondents chose not to follow that general practice
when reporting on the murder of Officer Decker. Certainly, a primary public purpose of the law enforcement press conference—to
reassure the local community that the police were actively and
diligently investigating the crime and that a potential shooter had

App. 73
In McKee v. Laurion, we adopted the following test
for whether a statement about what someone else said
or wrote is false:
If the statement is true in substance, minor
inaccuracies of expression or detail are immaterial. Minor inaccuracies do not amount to
falsity so long as the substance, the gist, the
sting, of the libelous charge is justified. A
statement is substantially true if it would
have the same effect on the mind of the reader
or listener as that which the pleaded truth
would have produced.
825 N.W.2d 725, 730 (Minn. 2013) (citations omitted)
(internal quotation marks omitted).
Two key principles emerge from this test. First, we
may overlook only “minor” inaccuracies. Id. (citing Restatement (Second) of Torts § 581A cmt. f (Am. Law.
Inst. 1977) (“Slight inaccuracies of expression are immaterial provided that the defamatory charge is true
in substance.” (emphasis added))). Second, when comparing an allegedly defamatory statement with a
statement that differs from the actual statement made
by the speaker, the focus is not on the difference in the
words of the statements themselves, but on the meaning communicated by those words. Id. at 730–31. The
substance of the meaning of the alleged defamatory
statement must be the same—must communicate the
same notion—as the actual statement. Id. at 730; see
been apprehended—did not require respondents to report Larson’s name.

App. 74
Masson v. New Yorker Magazine, Inc., 501 U.S. 496, 517
(1991) (stating that falsity is judged by whether
changes in a statement “result[ ] in a material change
in the meaning conveyed by the statement”).
In McKee, a doctor sued for defamation when a patient’s son posted statements about the doctor on the
Internet. 825 N.W.2d at 728. Our analysis of those
statements illustrates that the critical inquiry is
whether the meaning communicated by the alleged defamatory statement and the actual statement is the
same.
First, the son claimed that the doctor had told the
patient and his family that the doctor had “spen[t] time
finding out if you transferred or died.” Id. at 730. The
doctor testified that he had made a joke that he was
glad to find the patient in a regular hospital bed because “you only go one of two ways when you leave the
intensive care unit; you either have improved to the
point where you’re someplace like this [a regular bed]
or you leave because you died.” Id. We concluded that,
because both statements “communicate the notion that
patients in the intensive care unit who have suffered a
hemorrhagic stroke leave the intensive care unit either
because they have been transferred to a regular room
or they have died,” the substance communicated by the
alleged statement and the actual statement was the
same. Id. at 730–31.
Second, the son alleged that the doctor told the
family that “44% of hemorrhagic strokes die within 30
days. I guess this is the better option.” Id. at 729. The

App. 75
doctor acknowledged that, although he told the family
that some ICU patients die, he denied referencing the
specific percentage. Id. at 731. We held that the mention of the percentage was irrelevant because the point
of the communication—its “gist or sting”—was mentioning to a worried family that hemorrhagic stroke
patients die. Id. at 730. In that context, both the alleged statement with the percentage and the actual
statement communicated the same meaning. Id. Accordingly, we concluded that the statement as alleged
was not false.
Third, the son alleged that the doctor said it
“doesn’t matter” that the patient’s gown did not cover
his backside. Id. at 731. The doctor claimed that he told
the patient that the gown “looks like it’s okay.” Id. Because “[c]ommenting that the gown ‘looks like it’s okay’
is another way of communicating that ‘it didn’t matter’
that the gown was not tied in the back,” we held that
“any inaccuracy of expression does not change the
meaning of what [the doctor] admits to having said.”
Id. Consequently, we determined that the statement
was not actionable. Id.
This focus—measuring falsity based on the meaning communicated by the statement—is also illustrated by Lewis v. Equitable Life Assurance Society of
the U.S., 389 N.W.2d 876 (Minn. 1986). In Lewis, terminated employees sued an employer who had fired them
for “gross insubordination.” Id. at 880. The former employees alleged that they were forced to republish to
prospective employers that they had been fired for
“gross insubordination” even though (the former

App. 76
employees contended) they had not been grossly insubordinate. Id. at 882. The employer argued that the district court erred by holding the employer liable for
defamation because the statement that the former employees made—that they had been fired for gross insubordination—was true. Id. at 886. We disagreed and
held that the falsity of a statement must be judged
based on the “underlying implication of the statement”—in other words, the meaning communicated by
the statement. Id. at 889. Accordingly, the former employees were not barred from recovering defamation
damages if the underlying statements—that the former employees actually engaged in gross insubordination—were false. Id. at 888–89; see generally Minn.
Dist. Judges Ass’n, CIVJIG 50.25.
The test that we have applied in McKee and Lewis
accords with the United States Supreme Court’s decision in Masson, 501 U.S. at 516–17. There, and as relevant here, the Supreme Court expressly rejected a
looser “rational interpretation” theory of similarity between an alleged statement and an actual statement.
Id. at 518–20. Under this theory, an “altered quotation
is protected [from defamation liability] so long as it is
a ‘rational interpretation’ of an actual statement.” Id.
at 518. The Supreme Court explained that this “interpretive license” is necessary when an author relies
“upon ambiguous sources.” Id. at 519. But when the
author of a statement seeks to convey what a speaker
said through quotations, the author cannot take interpretative license—offer a “rational interpretation”—of
what the author thought the speaker really meant. Id.

App. 77
at 519–20. “Were we to assess quotations under a rational interpretation standard, we would give journalists the freedom to place statements in their subjects’
mouths without fear of liability.” Id. at 520. And that,
the Supreme Court reasoned, would be bad for journalism and for the values that the First Amendment seeks
to protect:
By eliminating any method of distinguishing
between the statements of the subject and the
interpretation of the author, we would diminish to a great degree the trustworthiness of
the printed word and eliminate the real meaning of quotations. Not only [the subjects of defamatory statements,] but the press doubtless
would suffer under such a rule. Newsworthy
figures might become more wary of journalists, knowing that any comment could be
transmuted and attributed to the subject, so
long as some bounds of rational interpretation
were not exceeded.
Id.
In summary, a report of what someone else said is
true, for defamation purposes, when (laying the report
and the statement side by side) the report contains
only minor or slight differences from, and, more critically, communicates the same meaning as, the statement itself.13
13

The current jury instruction, as prepared by the Minnesota District Judges Association, CIVJIG 50.25, provides: “A
statement or communication is false if it is not substantially accurate. Substantial accuracy does not require every word to be

App. 78
B.
With these principles in mind, I turn now to the
actual statements made at the press conference and in
the press release, then compare those statements to
the defamatory statements broadcast and published
by respondents.
The Press Conference
On November 30, law enforcement officers from
the Stearns County Sheriff ’s Office, the Minnesota Bureau of Criminal Apprehension (BCA), and the Cold
Spring Police Department held a press conference
about the shooting. The Sheriff started with a description of the incident. He noted that Officer Decker was
responding to a call that Larson was potentially suicidal. He stated: “[W]hen officers pulled up, Officer
Decker left his squad car, and a very short time later
was confronted by an armed individual, shot twice, and
died.” The Sheriff did not identify Larson as the “armed
individual.”
A deputy superintendent from the BCA spoke
next. He noted that the Sheriff ’s Office took the subject
of the welfare check (Larson) into custody. He stated:
“After that occurred, he was interviewed by Stearns
County deputies, and some of that investigation is still
true. A statement or communication is substantially accurate if
its substance or gist is true.” I am not sure that the words “substance” and “gist” provide much clarity to jurors, and thus I agree
with the court that a clarifying instruction, perhaps drawing from
McKee, may be useful to jurors.

App. 79
ongoing.” (Emphasis added.) The BCA representative
further stated:
•

“Members of the BCA crime scene have
processed the crime scene, and that’s still
in process right now, gathering evidence
related to this investigation.”

•

“We have agents and deputies from the
Stearns County Sheriff ’s Office, along
with other police personnel in the area,
conducting follow-up investigation and
interviews . . . around the entire state of
Minnesota at this time.”

•

“[T]his is an active and ongoing investigation. We’ll continue to follow up to determine exactly what happened in this
incident. And, as we noted, . . . Ryan Larson was taken into custody and booked
into the Stearns County jail in connection
with this incident.”14

After the Cold Spring Police Chief spoke about Officer Decker, the three law enforcement officers took
questions from reporters. In response to questions
about investigators “walking out near the river,” the
BCA representative emphasized “that’s part of the active and ongoing investigation. All I’ll say is that it’s an
active crime scene and that we’re . . . looking for and
14

The Minnesota Department of Public Safety issued a news
release on November 30 as well. The news release stated: “We’re
still in the very early stages of this ongoing and active investigation” and reported that, earlier in the morning of November 30,
Larson had been taken into custody and booked into Stearns
County Jail on murder charges.

App. 80
gathering evidence related to this crime right now.”
Significantly, when asked if there was any reason to
believe that there might be other individuals involved,
the BCA representative reinforced that “we don’t have
any information to believe that at this time, but it’s in
early stages of the investigation. We continue to follow
up on all leads.”
In response to questions about a weapon and
where Larson was when he shot at Officer Decker, the
BCA representative refused to confirm any details or
even that Larson was the shooter, stating each time
that he could not “discuss” or “comment” on an active
investigation: “[A]gain, that’s part of an active crime
scene, and we just, we can’t discuss the details of the
active crime scene at this time.” When asked about the
reports that Larson was suicidal, the Sterns County
Sheriff stated, “Again, it’s far too early in the investigation to make a comment in reference to that.”
Finally, reporters asked the law enforcement officers whether Officer Decker had a partner with him
when he arrived on the scene. The BCA representative
responded that Officer Decker “was with a partner
when he was shot. And, you know, what I can say about
this from our preliminary investigation . . . it’s apparent to us that the officer was ambushed at the scene.”
After another two questions, the Sterns County Sherriff ended the press conference, observing that “it
wouldn’t be prudent for us to comment any further on
this.”

App. 81
In summary, the law enforcement officers stated
no fewer than 13 times over the course of a short press
conference that the investigation was active and ongoing, preliminary and in its early stages, and in process.
Not once during the press conference did any law enforcement officer state that Larson ambushed, shot, or
killed Officer Decker. Not once during the press conference did any law enforcement officer state that Larson
had been charged in the murder of Officer Decker. Not
once during the press conference did any law enforcement officer accuse Larson of killing Officer Decker.
KARE 11 Television News Coverage
KARE 11 began its 6 p.m. broadcast as follows:
Condolences are pouring in tonight for the
family of the Cold Spring Police Officer who
died in the line of duty, Tom Decker. The 31year-old was shot and killed last night while
conducting a welfare check on a suicidal man.
Police say that man—identified as 34-year-old
Ryan Larson—ambushed Officer Decker and
shot him twice—killing him.
Later in the broadcast, the KARE 11 news anchor once
again described Larson as “the man accused of killing
Officer Decker.”
KARE 11 again began its 10 p.m. broadcast with
the story of Officer Decker’s murder:
The body of Cold Spring Police Officer Tom
Decker is being guarded around the clock until his funeral. A preliminary autopsy shows

App. 82
Officer Decker died of multiple gunshot
wounds. Investigators say 34-year-old Ryan
Larson ambushed the officer, shooting him
twice. Larson is in custody.
The broadcast then switched to a reporter at the scene.
After showing part of the interview with Officer
Decker’s mother, the reporter said that Officer Decker
“was the good guy last night, going to check on someone who needed help. That someone was 34-year-old
Ryan Larson who investigators say opened fire on Officer Tom Decker for no reason anyone can fathom.”
The broadcast then returned to the mother, who speculated that Larson’s mind was messed up. A bit later,
the broadcast returned to the station and the anchor
stated, “Charges could be filed as early as Monday
against Ryan Larson, the man accused of killing Officer Decker,” and followed with a description of Larson’s criminal history and status as a machine tool
student at St. Cloud Technical & Community College.21
St. Cloud Times Reporting
On December 1, the St. Cloud Times understandably devoted significant coverage to the killing of Officer Decker, as well as to the investigation. In one
story titled “Man faces murder charge,” the paper reported that “Ryan Michael Larson, 34, is in Stearns
21

KARE 11 also posted a story on its website. The story
states that a man was being “held on suspicion of second degree
murder in the alleged ambush of a Cold Spring police officer” and
that “[i]nvestigators believe he fired two shots into Cold Spring
police officer Tom Decker, causing his death.”

App. 83
County Jail and faces possible murder charges of second-degree murder. Police say Larson is responsible for
the shooting death of Cold Spring-Richmond Police Officer Tom Decker.”
C.
I agree with the court that the same test applies
when analyzing whether a statement is “fair and accurate” for purposes of the qualified fair and accurate reporting privilege or whether a statement is false for
purposes of the proving the essential elements of a defamation claim. In both cases we compare what was reported to have been said with what was actually said.
But in a typical defamation case, we compare the defendant’s report on what a plaintiff allegedly said and
what the plaintiff actually said, while the statements
compared in a qualified fair and accurate reporting
privilege case are the reports about a statement made
about the plaintiff by a third party and what the third
party actually said. Compare McKee, 825 N.W.2d at
730–31 (comparing statement of alleged defamer with
actual statement of plaintiff ), with Moreno, 610
N.W.2d at 331 (stating that focus is on the accuracy
with which the statement of a third party is reported).
This difference matters because the qualified fair and
accurate reporting privilege may protect the reporter
from liability even if the underlying third-party statements about the plaintiff are false. The underlying inquiry in both cases—whether the second, reported
statement communicated the same meaning as the

App. 84
actual statement (whether made by the plaintiff or by
a third party about the plaintiff )—is the same.
In this case, then, our inquiry is whether respondents’ reports about the law enforcement press conference communicated the same meaning that someone
who actually attended the press conference would have
taken away from the press conference.
A person attending the press conference would
have fairly concluded that law enforcement was in the
midst of an active, ongoing, and early-stages investigation. The person would have learned that Larson had
been arrested as a suspect in the murder that was under investigation. But nothing about what law enforcement said at the press conference supports the
takeaway that law enforcement had determined that
Larson ambushed, shot, and killed Officer Decker or
that law enforcement was accusing the as-yet uncharged Larson of doing so. Certainly law enforcement
never said anything close to those things. Indeed, when
asked about the possibility of another shooter, law enforcement expressly cautioned that “we don’t have any
information to believe that at this time, but it’s in early
stages of the investigation. We continue to follow up on
all leads.”
The same person watching KARE 11 that night
would have reached a much different conclusion. The
viewer would have come away with the clear impression that law enforcement accused Larson of the shooting. The viewer was told that law enforcement stated
that Larson “ambushed Officer Decker and shot him

App. 85
twice—killing him” and that Larson “opened fire on Officer Tom Decker for no reason anyone can fathom.”
Similarly, a person reading in the December 1 St.
Cloud Times that “[p]olice say Larson is responsible for
the shooting death of Cold Spring-Richmond Police Officer Tom Decker” would have come to the same impression: that law enforcement stated that Larson was
the shooter.
We have decided questions of falsity as a matter of
law where the content of an alleged defamatory statement and an actual statement is undisputed. See
McKee, 825 N.W.2d at 730–31. There is no disputed material fact about the content of the press conference,
the broadcasts, or the newspaper article. The statements made by law enforcement at the November 30
press conference objectively communicated a much different meaning and narrative than the story told to
viewers of KARE 11’s November 30 news broadcast
and the readers of the December 1 St. Cloud Times.
Therefore, I conclude that KARE 11’s statements made
during the 6 p.m. and 10 p.m. broadcasts on November
30 and the statement in the St. Cloud Times article
published the next day did not communicate the same
meaning as the press conference as a matter of law.
A free and robust press that is motivated to inform
and educate the public about important public matters
is undoubtedly critical to our democracy, and a broad
cushion around the press is necessary to accomplish
that end. But we also expect the press to act responsibly in how it conducts its work. That did not happen
here. Accordingly, I would hold that, even if a qualified

App. 86
fair and accurate reporting privilege applies to the November 30 press conference, respondents are not entitled to the protection of the privilege because their
reports were not “fair and accurate.” For the same reasons, I would hold that the reports by respondents
were false as a matter of law because they did not communicate the same meaning that law enforcement conveyed at the press conference.
Accordingly, I would remand to the district court
for the sole purpose of assessing whether the media
companies were negligent in their reporting and, if so,
the damages that Larson suffered as a result of respondents’ defamatory statements.

GILDEA, Chief Justice (concurring in part, dissenting
in part).
I join in the concurrence and dissent of Justice Anderson.

App. 87
STATE OF MINNESOTA
IN SUPREME COURT
A17-1068
Ryan Larson,
Appellant,
vs.
Gannett Company, Inc., et al.,
Respondents.
ORDER
Based upon all of the files, records, and proceedings, herein,
IT IS HEREBY ORDERED that the petition of
respondents Gannett Company, Inc., et al., for rehearing or in the alternative for a remand to the court of
appeals, be, and the same is, denied.
Dated: March 30, 2020
BY THE COURT
/s/ Margaret H. Chutich
Margaret H. Chutich
Associate Justice

App. 88
STATE OF MINNESOTA

SUPREME COURT
JUDGMENT

Ryan Larson, Appellant, vs.
Appellate Court
Gannett Company, Inc., et al.,
# A 17-1068
Respondents
Trial Court
# 27-CV-15-9371
Pursuant to a decision of the Minnesota Supreme
Court duly made and entered, it is determined and
adjudged that the decision of the Hennepin County
District Court, Civil Division herein appealed from be
and the same hereby is affirmed in part, reversed in
part, and remanded. Judgment is entered accordingly.
It is further determined and adjudged that Ryan
Larson herein, have and recover of Gannett Company,
Inc., et al., herein the amount of $1,252.80 as costs and
disbursements in this cause in the Supreme Court and
$168.20 as costs and disbursements in this cause in the
Court of Appeals. Execution may be issued for the enforcement thereof.
Dated and signed: April 13, 2020
FOR THE COURT
Attest: AnnMarie S. O’Neill
Clerk of the Appellate Courts
By:

AnnMarie S. O’Neill
Clerk of the Appellate Courts

App. 89
Statement For Judgment
Costs and Disbursements in the Amount of: $1,421.00
Attorney Fees in the Amount of:
Other in the Amount of:
Total: $1,421.00
Satisfaction of Judgment filed:
Dated
Therefore the above judgment is duly satisfied in
full and discharged of record
Attest: AnnMarie S. O’Neill
Clerk of the
Appellate Court

By:

STATE OF MINNESOTA

SUPREME COURT

Assistant Clerk

TRANSCRIPT OF
JUDGMENT
I, AnnMarie S. O’Neill, Clerk of the Appellate
Courts, do hereby certify that the foregoing is a full
and true copy of the Entry of Judgment in the cause
therein entitled, as appears from the original record in
my office; that I have carefully compared the within
copy with said original and that the same is a correct
transcript therefrom.

App. 90
Witness my signature at the Minnesota Judicial Center,
In the City of St. Paul

April 13, 2020
Dated

Attest: AnnMarie S. O’Neill
Clerk of the Appellate Courts
By:

AnnMarie S. O’Neill
Clerk of the Appellate Courts

App. 91
STATE OF MINNESOTA
IN COURT OF APPEALS
A17-1068
Ryan Larson,
Respondent,
vs.
Gannett Company, Inc., et al.,
Appellants.
Filed May 7, 2018
Reversed and remanded
Bratvold, Judge
Hennepin County District Court
File No. 27-CV-15-9371
Stephen C. Fiebiger, Stephen C. Fiebiger Law Office,
Chtd., Burnsville, Minnesota, for respondent.
Steven J. Wells, Timothy J. Droske, Angela M. Porter,
Dorsey & Whitney, PLLP, Minneapolis, Minnesota, for
appellants.
Leita Walker, Faegre Baker Daniels LLP, Minneapolis,
Minnesota, for amici curiae Star Tribune Media Company LLC, The Associated Press, Fox/UTV Holdings,
LLC, The Minnesota Newspaper Association, and The
Reporters Committee for Freedom of the Press.
Randy M. Lebedoff, Minneapolis, Minnesota, for amicus curiae Star Tribune Media Company LLC.
Considered and decided by Bratvold, Presiding
Judge; Larkin, Judge; and Florey, Judge.

App. 92
SYLLABUS
The fair-report privilege extends to protect news
reports that accurately summarize or fairly abridge
information relayed at a law-enforcement agency’s
official press conference or by a law-enforcement
agency’s official news release.
OPINION
BRATVOLD, Judge.
This appeal arises from a district court decision
setting aside a jury verdict and vacating the resulting
judgment in a defamation suit. Appellants Multimedia
Holdings Corporation d/b/a KARE 11-TV (KARE 11)
and d/b/a the St. Cloud Times (St. Cloud Times) (collectively, appellants) seek review of the district court’s
decision to grant respondent Ryan Larson a new trial.1
Larson sued appellants for defamation based on news
reports they issued about his arrest following the 2012
murder of a police officer.
We hold (1) the fair-report privilege protected appellants’ news reports that accurately summarized
and fairly abridged statements made by law enforcement at an official press conference and in an official
news release; and (2) the district court erred in vacating the jury’s verdict that appellants’ statements were
not false and in ordering a new trial. Because of these
1

Respondent’s claims against two other defendants, Gannett
Satellite Networks Inc., and Gannett Company Inc. were dismissed.

App. 93
determinations, we do not need to reach other issues
raised by appellants. Thus, we reverse the district
court’s new-trial order, reinstate the jury’s verdict, and
remand for entry of judgment in favor of appellants.
FACTS
On Thursday, November 29, 2012, at approximately 11:00 p.m., Cold Spring police officer Tom
Decker was shot and killed near a bar. Larson lived
above the bar, and Decker was following up on a request from Larson’s family to check on his welfare because he was possibly suicidal. Police arrested Larson
and booked him in the Stearns County jail in connection with the murder. Larson’s name and anticipated
charge appeared in the jail log; similar information
was in an application to detain that was signed by a
judge a few days later.
On the morning of November 30, law-enforcement
officials held a joint press conference about the shooting, during which Minnesota Bureau of Criminal Apprehension Deputy Superintendent Drew Evans,
Stearns County Sheriff John Sanner, and Cold Spring
Police Chief Phil Jones made statements and answered
questions. While they stressed that the investigation
was in its early stages and refused to answer some
questions, they stated that police had arrested Larson
and that they did not have “any information to believe”
that other individuals were involved. They also said
it was “apparent” that Decker was “ambushed at the
scene.”

App. 94
The Minnesota Department of Public Safety issued a news release on November 30, 2012, stating
that “[w]ithin an hour” of the shooting a SWAT team
arrested Larson, who “was booked into the Stearns
County Jail on murder charges.”
Decker’s shooting and the investigation that followed were “breaking news” in Minnesota. At least one
television station provided live coverage of the joint
press conference. While covering the shooting, KARE
11 and the St. Cloud Times made 11 statements that
are the focus of Larson’s defamation lawsuit.
Statements on November 30 by KARE 11
KARE 11 covered Decker’s shooting in its 5:00
p.m., 6:00 p.m., and 10:00 p.m. newscasts on November
30, 2012. During the 6:00 p.m. newscast, KARE 11 reported that Decker “was shot and killed last night
while conducting a welfare check on a suicidal man.”
The report continued: “Police say that man—identified
as 34-year-old Ryan Larson—ambushed Officer
Decker and shot him twice—killing him.” Then, the
newscast cut to a reporter who interviewed Decker’s
mother, and the reporter stated that Decker’s mother
“holds no ill-will against the man accused of killing her
son.” The newscast closed by saying, “Ryan Larson, the
man accused of killing Officer Decker, could be charged
as early as Monday.” Larson’s mugshot and criminal
history accompanied this statement.
During the 10:00 p.m. newscast, KARE 11 opened
by stating, “Investigators say 34-year-old Ryan Larson

App. 95
ambushed the officer, shooting him twice. Larson is in
custody.” During that program, a reporter stated: “He
was the good guy last night going to check on someone
who needed help. That someone was 34-year-old Ryan
Larson who investigators say opened fire on Officer
Tom Decker for no reason anyone can fathom.” The
story cut to the interview with Decker’s mother, who
stated: “His mind must have really been messed up to
do something like that. I know Tom would have forgave
him.” KARE 11 ended by describing Larson’s background: “He does not have an extensive criminal history, but was cited with disorderly conduct in 2009. He
was a second year machine tool student at St. Cloud
Tech. Larson is being held in the Stearns County Jail.”
KARE 11 also posted an article to its website,
either on November 30 or December 1, which stated:
“Investigators believe [Larson] fired two shots into
Cold Spring police officer Tom Decker, causing his
death.”
Statements on December 1 by the St. Cloud Times
On December 1, 2012, the St. Cloud Times published a story on the front page with the headline,
“Man faces murder charge.” The article stated: “Ryan
Michael Larson, 34, is in Stearns County Jail and faces
possible charges of second-degree murder. Police say
Larson is responsible for the shooting death of Cold
Spring-Richmond Police Officer Tom Decker.”

App. 96
Larson’s Release and Statements on December 5 by
the St. Cloud Times
By December 4, 2012, investigators determined
that there was insufficient evidence to further detain
Larson, and released him. On December 5, 2012, the
St. Cloud Times published an article about Larson’s
release. Referring to a community member, the article
stated: “[S]he had one thing she wanted to say to
Larson if she got to [sic] the chance to see him leave
the jail. ‘This isn’t over,’ she said.”
Larson Officially Cleared as a Suspect
After Larson’s release, police continued their investigation. By January 2, 2013, Eric Thomes was
the lead suspect, but he committed suicide “just hours
after agents came to question him.” A search of
Thomes’s property revealed a weapon that investigators determined was the gun that killed Decker. Investigators officially cleared Larson in August 2013.
Procedural History
Larson sued appellants, alleging defamation and
identifying 11 statements made either by KARE 11 on
November 30 or by the St. Cloud Times on December 1
and 5. The statements may be summarized into three
groups. The first group of statements attributed

App. 97
information to what police or investigators said or believed.2
1. “Police say that man—identified as 34-yearold Ryan Larson—ambushed Officer Decker and shot
him twice, killing him.”
2. “Investigators say 34-year-old Ryan Larson
ambushed the officer, shooting him twice. Larson is in
custody.”
3. “[Decker] was the good guy last night, going to
check on someone who needed help. That someone was
34-year-old Ryan Larson who investigators say opened
fire on Officer Tom Decker for no reason anyone can
fathom.”
4. “Investigators believe [Larson] fired two
shots into Cold Spring police officer Tom Decker, causing his death.”
5. “Police say Larson is responsible for the shooting death of Cold Spring-Richmond Police Officer Tom
Decker.”
The second group of statements referred to the accusation against Larson.
6. Decker’s mother “holds no ill-will against the
man accused of killing her son.”

2

We have numbered the statements and bolded the relevant
words for easy reference.

App. 98
7. “Ryan Larson, the man accused of killing
Officer Decker, could be charged as early as Monday.”
8.

“Man faces murder charge.”

The third group of statements conveyed other information about Larson.
9. Decker’s mother stated: “His mind must have
really been messed up to do something like that. I
know Tom would have forgave him.”
10. “[Larson] does not have an extensive criminal history, but was cited with disorderly conduct in
2009. He was a second year machine tool student at
St. Cloud Tech. Larson is being held in the Stearns
County Jail.”
11. Comment by a community member after
Larson’s release: “[S]he had one thing she wanted to
say to Larson if she got to [sic] the chance to see him
leave the jail. ‘This isn’t over,’ she said.”
Appellants moved for summary judgment in December 2015, arguing that the fair-report privilege
barred Larson’s defamation claim. On May 19, 2016,
the district court granted summary judgment, in part,
after determining that appellants’ statements reporting information from “the jail log and the [a]pplication
to [d]etain and [o]rder are entitled to the [fair-report]
privilege.” Similarly, the district court reasoned that,
“to the extent the news conference and news release
only communicated the fact of Mr. Larson’s arrest or
the charge of crime made by the officer in making or
returning his arrest, these sources are entitled to the

App. 99
[fair-report] privilege” but that the privilege did not
extend to appellants’ statements that went beyond
Larson’s arrest and anticipated charge. But the district
court denied summary judgment because “genuine issues of material fact exist[ed] regarding whether [appellants] abused the privilege.”
A jury trial began on November 7, 2016. On November 10, the district court issued a new summaryjudgment order on the fair-report privilege, expressly
modifying its May 19 summary-judgment order. In the
November 10 order, the district court concluded that
statements 1-5, involving what police said or believed,
were not protected by the fair-report privilege because
they were “not substantially accurate as a matter of
law” and the statements went beyond “the fact of
[Larson’s] arrest.” The district court reasoned that
“the effect” of the news reports was that “police firmly
believed” that Larson had killed Decker, “they were
likely proceeding with murder charges,” and that
charges “could be brought as early as Monday.” Because appellants’ statements “created the impression
of finality to the investigation,” and law enforcement
“repeatedly emphasized” that the investigation was
preliminary, the news reports produced a “harsher
effect” than “the precise truth would have produced.”
The district court also determined that statements 68, regarding accusations against Larson, were not substantially accurate because they implied that Larson
had, in fact, been formally charged by the prosecution,
which was not true.

App. 100
On November 16, the seventh day of the trial, appellants moved for judgment as a matter of law, in part
arguing that statements 9-11 were not defamatory as
a matter of law. The district court took the motion under advisement and, on the next day of trial, denied
other issues raised by the motion, but granted the motion, in part, by dismissing statements 9-11 as “not
capable of . . . defamatory meaning.”
Statements 1-8 went to the jury along with a 25page special verdict form that included eight separate
interrogatories about each statement to determine appellants’ liability, in addition to separate questions on
damages. On November 21, 2016, the jury returned its
verdict, finding that each statement was defamatory,
referred to Larson, and was published. But the jury
also determined that each statement was not false. The
district court directed entry of judgment in appellants’
favor on December 5, 2016, and judgment was entered
on January 5, 2017.
On January 3, 2017, Larson moved for a judgment
as a matter of law or, alternatively, for a new trial. The
district court granted in part and denied in part Larson’s motion. In an order dated June 13, 2017, the district court vacated the December order and judgment
in appellants’ favor and scheduled a new trial. The district court first modified its November 10 summaryjudgment order by stating that the fair-report privilege
“does not apply to” this case. The court reasoned that
appellants’ statements were not protected because the
information relayed by law enforcement at the press
conference and in the news release went “beyond the

App. 101
mere fact of arrest or charge.” The district court then
determined that statements 1-8 were “as a matter of
law . . . defamatory in nature and false.” The district
court also concluded that it had erred in dismissing
Larson’s claims regarding statements 9-11 because a
reasonable jury could have found that these statements implied that Larson killed Decker. On these
grounds, the district court granted a new trial concerning all 11 statements. The district court denied Larson’s request to determine additional issues as a
matter of law. This appeal follows.
ISSUES
I.

Did the district court err in granting judgment as
a matter of law because the fair-report privilege
does not apply to news reports about statements
made by law enforcement at an official press conference and in an official news release?

II. Did the district court err in granting a new trial?
ANALYSIS
Appellants argue that the district court erred in
granting judgment as a matter of law to Larson based
on its conclusion that the fair-report privilege did not
apply to news reports about law-enforcement statements at the November 30 press conference and in
the subsequent news release. In particular, appellants
contend that the district court incorrectly determined
that statements 1-8 were false as a matter of law. Appellants also argue that the district court incorrectly

App. 102
granted a new trial on all statements, including statements 9-11, which the district court had properly dismissed during trial. Alternatively, appellants urge us
to conclude that the district court incorrectly denied
their motion for judgment as a matter of law because
Larson failed to offer evidence that appellants were
negligent or caused his damages.
We first hold that the fair-report privilege applies to fair and accurate reports of statements by
law enforcement during an official press conference
and in an official news release. We also conclude that
the fair-report privilege protected fair and accurate
news reports about the November 30 press conference and news release. Then, we determine that
there were genuine issues of fact as to whether statements 1-8 were substantially accurate summaries or
fair abridgments of law-enforcement statements from
the official press conference and news release. Next,
we conclude the district court erred in vacating the
judgment on the jury’s verdict and in ordering a new
trial. The district court’s jury instructions sufficiently
stated the applicable law and any error was harmless.
As a result, we do not reach appellants’ alternative arguments. We reverse the district court’s order entering judgment as a matter of law and for a new trial,
and remand with directions to enter judgment in appellants’ favor.

App. 103
I.

The fair-report privilege extends to fair and
accurate news reports about law-enforcement
statements made at an official press conference or in an official news release.

To establish a claim of defamation for a statement
made by a defendant, a plaintiff must show that:
“(1) the defamatory statement was communicated to
someone other than the plaintiff; (2) the statement is
false; (3) the statement tends to harm the plaintiff ’s
reputation and to lower [him] in the estimation of the
community; and (4) the recipient of the false statement
reasonably understands it to refer to a specific individual.” McKee v. Laurion, 825 N.W.2d 725, 729-30 (Minn.
2013) (quotations omitted). Even if a plaintiff satisfies
each of these elements, a defendant is not liable if an
absolute or qualified privilege protects the defamatory
statement. See Moreno v. Crookston Times Printing
Co., 610 N.W.2d 321, 329 (Minn. 2000). But a defendant
may lose an otherwise applicable qualified privilege
by abusing it. Id. at 329, 333. This court reviews the
application of defamation privileges de novo. See
Minke v. City of Minneapolis, 845 N.W.2d 179, 182
(Minn. 2014).
A. The district court erred in concluding
that the fair-report privilege did not
apply to this case.
Minnesota has recognized the fair-report privilege
for over a century, but questions remain about its
scope. In Nixon v. Dispatch Printing Co., the Minnesota
Supreme Court held that the fair-report privilege

App. 104
extends to protect reports of judicial proceedings, but
does not apply to reports of legal pleadings filed with a
district court. 101 Minn. 309, 311-13, 112 N.W. 258,
258-59 (1907). Most recently, the supreme court ruled
that the privilege applies to an “accurate and complete
report or a fair abridgement of events that are part of
the regular business of a city council meeting.” Moreno,
610 N.W.2d at 333. Whether the privilege applies to reports about information relayed by law enforcement at
press conferences and in news releases is an issue of
first impression in Minnesota.3
Moreno guides our understanding of the scope of
the fair-report privilege. In that case, during public
comment at a city council meeting, a citizen stated that
a local police officer was “dealing drugs out of his Police
car.” Id. at 323. A newspaper reported the citizen’s accusation, summarized the police department’s response, and relayed some details from the newspaper’s
own investigation. Id. at 324. The police officer sued
the newspaper for defamation. Id. at 325. The supreme
court held that the fair-report privilege applied to a
news report of events at a city council meeting, including the citizen’s accusation. Id. at 332-33. In doing so,
the supreme court predicated much of its analysis on

3

We agree with the district court that the fair-report privilege applies to news reports that summarize information in a jail
log or in a court order authorizing detention. Because appellants’
news reports contained information not included in the jail log
and detention order, we must determine if the fair-report privilege protects appellants’ statements summarizing the press conference and the news release.

App. 105
section 611 of the Restatement (Second) of Torts
(1976). Id. at 331. That section states:
The publication of defamatory matter concerning another in a report of an official action
or proceeding or of a meeting open to the public that deals with a matter of public concern
is privileged if the report is accurate and complete or a fair abridgment of the occurrence
reported.
Restatement (Second) of Torts § 611.
The supreme court explained that the fair-report
privilege is based on two principles. “First, because the
meeting was public, a fair and accurate report would
simply relay information to the reader that she would
have seen or heard herself were she present at the
meeting. The second principle is the obvious public interest in having public affairs made known to all.”
Moreno, 610 N.W.2d at 331 (citations and quotation
omitted). The supreme court concluded the fair-report
privilege extended to legislative proceedings because
the same “policy considerations” that supported applying the privilege to judicial proceedings in Nixon also
supported its application to legislative proceedings. Id.
at 332. The court also noted that the legislature “in the
criminal context, [recognized] the policy objectives of a
fair and accurate reporting privilege are furthered by
protecting such reports from challenges of common law

App. 106
malice.” Id. at 333 (citing Minn. Stat. Ann. § 609.765,
advisory comm. cmt. (West 1964)).4
After holding that the fair-report privilege extended to city council meetings, the supreme court also
held that the privilege may be abused if the report is
not fair and accurate or if the report includes “additional contextual material, not part of the proceeding”
and that material “either conveyed a defamatory impression or commented on the veracity or integrity of
any party.” Id. at 333-34. Because the news article at
issue in Moreno reported on events outside the city
council meeting, the supreme court remanded for factual determinations regarding the additional material
in the news article. Id. at 334.
Based on Moreno, we conclude that the fair-report
privilege applies to protect news reports that accurately and fairly summarize statements made by law
enforcement during an official press conference and in
an official news release for three reasons. First, a lawenforcement press conference is a “meeting open to
the public that deal[s] with matters of public concern.”
See Restatement (Second) of Torts § 611. Likewise, a
4

The advisory committee note to Minn. Stat. § 609.765,
subd. 3(4), states that “[u]nder the recommended section, if the
report is fair and true, malice is immaterial and no criminal liability arises. The public interest in publication of the proceedings
referred to would seem to call for this position.” Minn. Stat. Ann.
§ 609.765, advisory comm. cmt. (West 1964). Further, we note
that in Moreno, the supreme court appears to have mistakenly
cited to Minn. Stat. § 609.675 (2016) (exposure of unused refrigerator or container to children) instead of Minn. Stat. § 609.765
(2016) (criminal defamation). 610 N.W.2d at 333.

App. 107
law-enforcement news release is a “report of an official
action or proceeding.” See id. Moreno’s analysis of the
city council meeting is applicable to the November 30
press conference and news release. The press conference and news release were public, therefore, “a fair
and accurate report would simply relay information to
the reader that she would have seen or heard herself
were she present at the meeting.” See Moreno, 610
N.W.2d at 331. And, there was an “obvious public interest” in relaying to the public the information provided
by law enforcement. In fact, public interest in police
statements about the slaying of a police officer is perhaps more obvious than public interest in a private
citizen’s statements during public comment at a city
council meeting. While the citizen was commenting on
possible criminal activity by a police officer, the citizen
had no official capacity. Id. at 332. In contrast, the
press conference and news release in Larson’s case
were official statements by law-enforcement authorities on a recent murder, when public concern over apprehension of the killer was high.
Second, comments to Restatement (Second) of Torts
§ 611 support the view that the fair-report privilege
applies to official written statements by law enforcement. For example, comment (i) states the privilege
“also extends to a report of any meeting, assembly or
gathering that is open to the general public and is held
for the purpose of discussing or otherwise dealing with
matters of public concern.” Restatement (Second) of
Torts § 611 cmt. i. Comment (d) extends the privilege
to “the report of any official proceeding, or any action

App. 108
taken by any officer or agency of the government of . . .
any State or any of its subdivisions.” Restatement
(Second) of Torts § 611 cmt. d. Comment (d) continues,
“Since the holding of an official hearing or meeting is
itself an official proceeding, the privilege includes the
report of any official hearing or meeting, even though
no action is taken.” Id. These comments suggest the
privilege extends to law-enforcement press conferences and news releases because both types of statements disseminate official information to the public.
Third, the criminal defamation statute that
Moreno analyzed also suggests that the fair-report
privilege extends to this context. While the statute explicitly provides that criminal defamation is justified
when the communication is a “fair and true report or a
fair summary” of judicial and legislative proceedings,
it also extends a privilege to “other public or official
proceedings.” Minn. Stat. § 609.765, subd. 3(4). The
November 30 press conference is in the nature of an
official proceeding because law enforcement from the
state, county, and municipality jointly convened the
conference to inform the public about an ongoing investigation.
The district court rejected application of the fairreport privilege based on three arguments: (1) the fairreport privilege does not apply to official statements
that comment on more than the fact of an arrest or
charge; (2) the fair-report privilege does not apply to
“extra-judicial statements; and (3) statements beyond
the fact of arrest threaten the impartiality of the jury
pool. We address each argument in turn.

App. 109
First, the district court concluded that the fairreport privilege did not apply to reports about lawenforcement statements at press conferences “that go
beyond the mere fact of arrest and the charge of arrest”
and that precede commencement of judicial proceedings. In doing so, the district court relied on comment
(h) of section 611 of the Restatement (Second) of Torts,
which the supreme court referenced approvingly in
Moreno. 610 N.W.2d at 332. Comment (h) states:
An arrest by an officer is an official action,
and a report of the fact of the arrest or of the
charge of crime made by the officer in making
or returning the arrest is therefore within the
conditional privilege covered by this Section.
On the other hand statements made by the
police or by the complainant or other witnesses or by the prosecuting attorney as to the
facts of the case or the evidence expected to be
given are not yet part of the judicial proceeding or of the arrest itself and are not privileged under this Section.
Restatement (Second) of Torts § 611 cmt. h (emphasis
added). The district court reasoned that “Minnesota
courts have consistently analyzed extra-judicial statements like the ones at issue in this case under Comment h and not under any other section of the
Restatement.” The district court also stated that construing “these statements under a different provision
of the Restatement would strip Comment h of any
meaning.”

App. 110
The district court erred in its analysis of comment
(h). The district court’s statement that Minnesota
courts have analyzed “statements like the ones at issue
in this case under Comment h and not under any other
section of the Restatement” is unfounded. Neither the
district court nor Larson point to any cases, much less
Minnesota cases, applying comment (h) to official
statements by law enforcement.5
Comment (h) should be understood to mean that
the privilege does not apply to unofficial police comments that are not a part of an official meeting or statement by law enforcement. Moreno cited comment (h) to
support its conclusion that “[a] reporter also may not
make additional comments, not part of the meeting,
that would convey a defamatory impression or impute
corrupt motives to any one, [or] . . . indict expressly or
by innuendo the veracity or integrity of any of the parties.” 610 N.W.2d at 332 (emphasis added) (quotation
omitted); see also Carradine v. State, 511 N.W.2d 733,
737 (Minn. 1994) (holding police officer comments to
press that departed from official report and added to
plaintiff ’s injury were not privileged).

5

The district court seemed to rely on two federal cases applying the fair-report privilege under Minnesota law after Nixon
but before Moreno. See Schuster v. U.S. News & World Report,
Inc., 602 F.2d 850, 851-55 (8th Cir. 1979) (holding privilege applied to grand jury indictment); Hurley v. Nw. Publ’ns, Inc., 273
F. Supp. 967, 962-72 (D. Minn. 1967) (holding privilege applied to
complaint filed “pursuant to the prior order of [a] Probate Court
arising out of probate proceedings pending therein”). Neither of
these cases, however, mentions or cites comment (h).

App. 111
Additionally, the district court’s conclusion that
comment (h) means the privilege is limited to the fact
of arrest or criminal charge is not consistent with
Moreno, which applied the privilege to a news report
of a citizen’s statements about criminal activity by a
police officer, even though the officer had not been arrested or charged with any wrongdoing. 610 N.W.2d at
324. The news report about the citizen’s statements
was privileged because it summarized public comments at a city council meeting. Id. at 333. The logical
extension of the district court’s ruling, if we attempt to
construe it along with Moreno, suggests that the privilege would have applied had appellants reported on
law-enforcement statements during a city council
meeting. We can discern no meaningful distinction between citizen statements about criminal activity that
are made at a city council meeting and police statements about a recent crime at an official press conference.
Second, the district court characterized the press
conference and news release as “extra-judicial” statements, and determined that the fair-report privilege
did not apply to them as a result. It is correct that several Minnesota cases, state and federal, have analyzed
whether the statements summarized in news reports
originated in judicial proceedings. See, e.g., Schuster,
602 F.2d at 851-55; Hurley, 273 F. Supp. at 969-72;
Nixon, 101 Minn. at 311-13, 112 N.W. at 258-59. But no
state or federal Minnesota case has held the fair-report
privilege applies only to news reports that summarize
statements in judicial proceedings and in no other

App. 112
official proceedings. In fact, Moreno confirmed that the
privilege is not limited to judicial proceedings, by holding that the privilege applies to news reports about
legislative proceedings and city-council meetings. 610
N.W.2d at 332-33.
Third, the district court pointed out that the
Minnesota Rules of Professional Conduct prohibit
prosecutors from making “extra-judicial statements”
that will have a “substantial likelihood of materially
prejudicing a jury trial in a pending criminal matter.”
See Minn. R. Prof. Conduct 3.6. We acknowledge the
importance of ensuring that media coverage of crimes
does not taint the jury pool. See Neb. Press Ass’n v.
Stuart, 427 U.S. 539, 568-69, 96 S. Ct. 2791, 2807
(1976) (recognizing tension between preserving an unbiased jury pool and protecting freedom of the press).
We trust that law enforcement also has this concern in
mind and accordingly tempers its official statements.
The ethical rule cited by the district court does
not persuade us that the fair-report privilege is inapplicable to news reports of official statements at press
conferences and in news releases. As Moreno stated,
“the public interest is served by the fair and accurate
dissemination of information concerning the events of
public proceedings.” 610 N.W.2d at 332. Additionally,
voir dire serves to protect a defendant’s right to an unbiased jury. See Stuart, 427 U.S. at 563-64, 96 S. Ct. at
2805 (recognizing voir dire as a method to preserve the
defendant’s right to a fair trial, despite intense press
coverage). We conclude that the public interest is
served by fair and accurate reports about information

App. 113
conveyed by law enforcement at an official press conferences or in an official news release. While this conclusion leads us to extend the fair-report privilege to
news reports of official law-enforcement statements,
we also note that this privilege is qualified and does
not protect news reports that fail to fairly and accurately reflect official statements.
Accordingly, the fair-report privilege applied to
fair and accurate news reports of law-enforcement
statements made at the November 30 official press
conference and in the official news release. Thus, the
district court erred when it determined, in its posttrial
order granting Larson judgment as a matter of law,
that the fair-report privilege “does not apply to this
case.”
B. Whether appellants abused the fairreport privilege in the news reports
identified by Larson raised a genuine
issue of material fact for the jury.
Even if the fair-report privilege is applicable, the
privilege can be abused or “defeated” upon a showing
that the report was not fair and accurate, or that the
report included additional material that was outside
the official proceeding and the additional material conveyed a defamatory meaning. Moreno, 610 N.W.2d at
334. In denying summary judgment, the district court
determined that the evidence presented a question of
fact whether the news reports were fair and accurate.
In granting a new trial to Larson and in vacating the

App. 114
jury’s verdict, the district court reversed itself, in part,
and determined that statements 1-8 were false as a
matter of law.
Moreno expounded on “what additions will generally defeat the fairness and accuracy of a report.” Id. at
333. Moreno referenced approvingly comment (f ). Id.
at 333. Although not explicitly discussed in Moreno,
comment (f ) states that that the report does not need
to be “exact in every immaterial detail or . . . conform
to that precision demanded in technical or scientific
reporting.” Restatement (Second) of Torts § 611 cmt. f.
Comment (f ) continues, “It is enough that [the report]
conveys to the persons who read it a substantially correct account of the proceedings.” Id. Whether a defendant has abused a privilege is “generally a question for
the jury.” Stuempges v. Parke, Davis & Co., 297 N.W.2d
252, 257 (Minn. 1980).
Appellants argue that their reporting of the press
conference and news release was substantially accurate as a matter of law and the district court erred in
submitting this case to the jury. Larson argues that
appellants abused any privilege because their reports
inaccurately communicated that police had conclusively identified Larson as the killer. Larson’s argument in this regard is confusing. At times, he appears
to suggest that appellants’ reports were not substantially accurate because Larson did not shoot Decker.
But the appropriate standard is whether appellants’
reports accurately summarized or fairly abridged
statements made by law enforcement at the press

App. 115
conference or in the news release. See Moreno, 610
N.W.2d at 334.
We conclude that there was a genuine issue of fact
whether appellants’ reports, i.e., statements 1-8, were
substantially accurate summaries or fair abridgements of law-enforcement statements at the press
conference and in the news release. Appellants’ reports
used terminology and recited some facts not mentioned
at the press conference or in the news release. Most of
these differences appear to be minor details, such as
stating that Decker was shot twice. But some differences may be more significant. At the press conference,
law enforcement did not “say” that Larson ambushed
Decker, but law enforcement did “say” that Decker was
shot and ambushed and that they had arrested Larson
in connection with the shooting. Further, the news release and jail log indicated that Larson was being
held and a murder charge was anticipated. Thus, if
law-enforcement statements from the jail log, press
conference, and news release are considered together,
a reasonable jury may conclude that statements 1-8
were substantially accurate reports of official statements.
In Utecht v. Shopko Dep’t Store, the supreme court
clarified when a judge should defer to a jury verdict
in a defamation case. 324 N.W.2d 652, 653-54 (Minn.
1982). The court stated it had “often cautioned that
summary judgment is not a substitute for trial” and
urged judges to allow the jury to decide whether words
“capable of the defamatory meaning” were understood
to be defamatory. Id. A similar analysis applies to

App. 116
whether a news report is a fair and accurate summary.
As a result, we conclude that a genuine issue of material fact existed as to whether statements 1-8 accurately reported or fairly abridged law-enforcement
statements from the November 30 press conference
and news release.
Consistent with this ruling, the district court correctly denied summary judgment to appellants before
trial and erred in granting partial judgment to Larson
after trial by determining that statements 1-8 were
false as a matter of law.
II.

The district court erred in granting a new
trial.

Generally, “the decision to grant a new trial does
lie within the sound discretion of the trial court and
will not be disturbed absent a clear abuse of that discretion.” Halla Nursery, Inc. v. Baumann-Furrie & Co.,
454 N.W.2d 905, 910 (Minn. 1990). But if “the new trial
was based on an error of law, not an exercise of discretion,” the appellate court reviews the decision de novo.
Id. While decisions granting a new trial are not generally appealable, the order granting a new trial here
was appealable because the district court determined
that the new trial was warranted based on errors of
law. See Minn. R. Civ. App. P. 103.03(d); O’Brien v.
Wendt, 295 N.W.2d 367, 370 (Minn. 1980). In order to
grant a new trial, the error must have been prejudicial.
Torchwood Props., LLC v. McKinnon, 784 N.W.2d 416,
419 (Minn. App. 2010).

App. 117
The district court granted a new trial to Larson for
three related reasons. First, the district court determined it erred when it denied requested jury instructions. Before the case was submitted to the jury, Larson
asked the court to instruct the jury on falsity by implication, but the district court denied the request.6 After
trial, Larson asked for a new trial on this ground and
the district court concluded it had erred because, according to the district court, each of the statements
implied that Larson killed Decker.
Second, the district court rejected appellants’ argument that the fair-report privilege affected its
analysis of falsity, reiterating that “statements made
by law enforcement at a press conference that go beyond the mere fact of arrest or charge are not protected
6

Larson also asked the court to instruct the jury on defamation by implication, by adding to the definition of a defamatory
statement language similar to the pattern instruction:
A statement or communication may be defamatory because
the defendant:
1. Left out certain facts so the statement conveyed a
defamatory meaning.
2. Linked statements in a way that conveyed a defamatory meaning.
3. Stated an opinion that conveyed defamatory facts.
See 4 Minnesota Practice, CIVJIG 50.10 (2014). The district court
declined. Larson’s new-trial motion sought a new trial on this
ground and the district court concluded that it erred in failing to
give this additional language as part of the definition of defamation. Because the jury found each of the eight statements to be
defamatory, we conclude that any error in the instruction on
defamation was not prejudicial to Larson and cannot support an
order for new trial. McKinnon, 784 N.W.2d at 419.

App. 118
before judicial proceedings commence.” Additionally,
the district court concluded that statements 1-8, regarding what police said or the accusations against
Larson, were false as matter of law because “[t]here
is no evidence that Mr. Larson killed Officer Decker.”
Thus, a new trial was required to address negligence
and damages on those statements. Third, the district
court decided that a new trial was necessary to correct
its error in dismissing statements 9-11 because those
statements also implied that Larson killed Decker and
thus raised a question of fact for the jury.7
We conclude that the district court erred in granting a new trial for three reasons. First, the fair-report
privilege applies to this case and the district court
erred in failing to use the privilege as the starting
point from which to analyze the falsity instruction.8
7

The district court also set aside the jury’s verdict on the
ground that the jury was not instructed on defamation by republication. See Restatement (Second) of Torts § 578 (“[O]ne who repeats or otherwise republishes defamatory matter is subject to
liability as if he had originally published it.”) Because Larson did
not ask during trial for an instruction on defamation by republication, he forfeited this issue as a basis for the new-trial order
unless he showed plain error affecting substantial rights. See
Minn. R. Civ. P. 51.04(a)-(b). Larson’s brief on appeal does not
argue plain error, thus, we do not consider this issue.
8
Notably, appellants do not challenge the falsity instruction
because they seek reinstatement of the jury verdict. Because appellants do not raise the issue, we do not determine whether the
falsity instruction correctly stated the applicable law for the fairreport privilege. See Wolner v. Mahaska Indus., 325 N.W.2d 39,
42 (Minn. 1982) (“Where a party makes no objections to jury instructions before the jury retires, and does not specify fundamental errors in a motion for a new trial, the instructions are the law

App. 119
The falsity instruction given in this case closely followed the pattern instruction.
A statement or communication is false if it is
not substantially accurate. Substantial accuracy does not require every word to be true. A
statement or communication is substantially
accurate if its substance or gist is true. In determining whether a statement was false, the
words must be construed as a whole without
taking any word or phrase out of context. The
meaning of the statement must be construed
in the context of the article and broadcast as
a whole.
See 4 Minnesota Practice, CIVJIG 50.25 (2014). The
district court declined Larson’s request to add the following: “A statement or communication is false if the
implication of the statement is false.” See 4 Minnesota
Practice, CIVJIG 50.25 (2014). This court will not
overturn a jury verdict if the instructions “overall
fairly and correctly state the applicable law.” Hilligoss
v. Cargill, Inc., 649 N.W.2d 142, 147 (Minn. 2002). Even
if a district court’s instructions do not fairly and accurately describe the applicable law, we will reverse the
jury’s verdict only “if the error destroy[ed] the substantial correctness of the charge as a whole, cause[d] a
miscarriage of justice, or result[ed] in substantial prejudice.” Domagala v. Rolland, 805 N.W.2d 14, 31 (Minn.
2011).

of the case and may not be challenged for the first time on appeal.”).

App. 120
Here, the district court’s falsity instruction did not
destroy the “substantial correctness of the charge as a
whole,” see id., because the instruction directed the
jury to determine substantial accuracy, to construe
words as a whole, and to assess the meaning of each
statement in context. Caselaw suggests that, when the
fair-report privilege applies to a defamation claim, the
falsity instruction should focus the jury’s attention on
the substantial accuracy of the news report and not
the content of what is being reported. See generally
Moreno, 610 N.W.2d at 331 (“[O]nce it is established
that the report is within the scope of the fair and accurate reporting privilege, fault is not determined by the
truth or falsity of the content of the defamatory statement. It is determined by the accuracy with which the
statement is reported.”). We note that the special verdict form quoted statements 1-8 verbatim so the jury
was directed to focus its attention on the substantial
accuracy of the news report.
Second, the district court erred in its conclusion
that statements 1-8 required an instruction on falsity
by implication, which is when true statements “because of the particular juxtaposition of the statements
or the omission of particular facts” become false.
Schlieman v. Gannett Minn. Broad., Inc., 637 N.W.2d
297, 303 (Minn. App. 2001), review denied (Minn. Mar.
19, 2002). In Diesen v. Hessburg, the Minnesota Supreme Court held, by a plurality, that an allegedly false
implication that arises out of true statements is generally not actionable in defamation by a public-official
plaintiff against a news media. 455 N.W.2d 446, 451-52

App. 121
(Minn. 1990).9 In a subsequent decision by this court,
we observed that Diesen’s holding “is consistent with
First Amendment principles that guarantee a free
press.” Schlieman, 637 N.W.2d at 303. The same First
Amendment principles may support the conclusion
that falsity by implication is not actionable in a defamation action by a private plaintiff where the fair-report
privilege protects media reports. However, we need
not decide this weightier constitutional issue because
we determine that the district court erred in its legal
conclusion that statements 1-8 implied Larson shot
Decker.
As the district court aptly stated before it charged
the jury, statements 1-8 are factually true or false because they are reports about what police said or believed and what accusations Larson faced. Because the
statements contain caveats such as “police say,” the
district court erred in concluding, posttrial, that these
statements implied Larson actually killed Decker.
Also, the district court sufficiently instructed the jury
on substantial accuracy, including directions to consider the statements in context; therefore, we conclude
that the district court erred when it determined that
falsity by implication applied to statements 1-8.
Third, even if we assume that the district court
erred in dismissing statements 9-11, this error was
9

To be clear, the district court considered Diesen and reasoned that its prohibition against defamation by implication did
not apply because Larson is a private individual and “did not
voluntarily thrust himself into the public sphere like a public
official.”

App. 122
harmless. Appellants urge us to reach this conclusion
under the incremental-harm doctrine, which provides
that “if a jury properly might find that the additional
[defamatory] statements significantly added to any
injury sustained by plaintiff over and above any injury
sustained as a result of [absolutely privileged statements], then plaintiff should be allowed to proceed to
trial . . . ; otherwise, not.” Carradine, 511 N.W.2d at
737. The supreme court has applied this doctrine to
defamation cases against public officials that are protected by absolute privilege. See id. And the supreme
court stated that the fair-report privilege falls somewhere in between an absolute and qualified privilege.
Moreno, 610 N.W.2d at 331.
Significant parallels between absolute privilege
and the fair-report privilege suggest that the incremental harm doctrine should apply here. See id. at 328,
331 (explaining that absolute privilege protects “a publisher of potentially defamatory statements regardless
of motive and cannot be defeated by any showing of
malice” while the fair-report privilege is “somewhat
broader in its scope” than other conditional privileges
because common-law malice does not affect its application). In both situations—statements by public officials
and news reports summarizing official statements—
the public has a significant interest in hearing the protected statements. See id. (“An absolute privilege applies to protect the public service or the administration
of justice” while fair-report privilege exists in part
based on “the obvious public interest in having public
affairs made known to all.” (quotation omitted)).

App. 123
Larson offered no evidence that he suffered any
additional harm through statements 9-11 that he did
not also sustain through statements 1-8, which were
protected by the fair-report privilege and found to be
substantially accurate by the jury. Accordingly, applying the incremental harm doctrine, we conclude that
Larson suffered no prejudice as a result of the district
court’s decision to dismiss statements 9-11, and, consequently, the district court erred in granting a new trial.
DECISION
The district court erred in concluding that the fairreport privilege did not apply to this case, erred in
setting aside the jury’s verdict, and erred in vacating
the judgment with regard to statements 1-8. Additionally, the district court erred by ordering a new trial and
including statements 9-11. As a result, we reverse the
district’s order granting a new trial and remand with
instructions to enter judgment in favor of appellants.
Based on our decision, there is no reason to address
appellants’ other arguments.
Reversed and remanded.

App. 124
STATE OF MINNESOTA
COUNTY OF HENNEPIN

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Ryan Larson,
Plaintiff,
v.

Case Type: Personal
Injury
Judge Susan N. Burke

ORDER GRANTING IN
Gannett Company Inc.,
PART AND DENYING
Gannett Satellite
IN PART PLAINTIFF’S
Information Network Inc.,
MOTION FOR
Multimedia Holdings
JUDGMENT AS A
Corporation, d/b/a KARE
MATTER OF LAW OR
11-TV and d/b/a St.
FOR A NEW TRIAL
Cloud Times,
AND GRANTING
DEFENDANTS’
Defendants.
MOTION TO STRIKE
(Filed Jun. 13, 2017)
Court File No.
27-CV-15-9371
This matter came before the Honorable Susan N.
Burke on March 21, 2017, on Plaintiffs motion for judgment as a matter of law or for a new trial and Defendants’ motion to strike Plaintiff ’s reply brief. Stephen
Fiebiger, Esq., appeared for Plaintiff. Steven Wells,
Esq., and Emily Mawer, Esq., appeared for Defendants.
For the following reasons, Plaintiff ’s motion for judgment as a matter of law or for a new trial is granted in
part and denied in part, and Defendants’ motion to
strike Plaintiff ’s reply brief is granted.

App. 125
INTRODUCTION
The Court holds that Mr. Larson may bring claims
based on defamation by implication. The Court further
holds that all eight of the Defendants’ statements that
were submitted to the jury implied that Mr. Larson
killed Officer Decker, and that these statements were
all defamatory in nature and false as a matter of law.
The Court orders a new trial on whether Defendants
knew or, in the exercise of reasonable care, should have
known each statement was false, and on damages.
The Court also holds that, given the context in
which three statements previously dismissed by the
Court were made, a reasonable jury could have found
that each of those statements also implied that Mr.
Larson killed Officer Decker. The Court orders a new
trial on the three previously dismissed statements as
well.
BACKGROUND
This is a defamation action based on statements
made in KARE 11’s broadcasts and St. Cloud Times’s
news articles covering the murder of Cold Spring Police Officer Tom Decker. Ryan Larson was initially arrested, but released after a few days. He was never
charged with a crime. After about a month, the BCA
publicly cleared Mr. Larson as a suspect. There was evidence Mr. Eric Thomes killed Officer Decker, but Mr.
Thomes committed suicide shortly after law enforcement attempted to contact him for an interview in connection with the murder.

App. 126
The case was tried to a jury from November 7,
2016, to November 17, 2016. At the close of evidence,
Mr. Larson requested the jury be instructed on defamation and falsity by implication and moved for judgment as a matter of law. The Court denied his request
and dismissed three statements. The following statements made by KARE 11 were submitted to the jury:
1.

Police say that man – identified as 34year old Ryan Larson – ambushed Officer
Decker and shot him twice, killing him.

2.

Rosella holds no ill-will against the man
accused of killing her son.

3.

Ryan Larson, the man accused of killing
officer Decker, could be charged as early
as Monday.

4.

Investigators say 34-year old Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.

5.

He was the good guy last night going to
check on someone who needed help.
That someone was 34-year old Ryan Larson who investigators say opened fire on
Officer Tom Decker for no reason anyone
can fathom.

6.

Investigators believe he fired two shots
into Cold Spring police officer Tom
Decker, causing his death.

The following statements made by St. Cloud Times
were submitted to the jury:
7.

Man faces murder charge.

App. 127
8.

Police say Larson is responsible for the
shooting death of Cold Spring-Richmond
Police Officer Tom Decker.

The three statements dismissed by the Court
were:
1.

His mind must have really been messed
up to do something like that. I know Tom
would’ve forgave him.

2.

He does not have an extensive criminal
history, but was cited with disorderly
conduct in 2009. He was a second year
machine tool student at St. Cloud Tech.
Larson is being held in the Stearns
County Jail.

3.

[S]he had one thing she wanted to say to
Larson if she got to [sic] the chance to
see him leave the jail. “This isn’t over,”
she said.

During trial, no evidence was presented that Mr.
Larson killed Officer Decker. On November 21, 2016, a
divided jury found that each of the eight statements
was defamatory, but not false. On January 5, 2017, the
Court entered judgment for Defendants. Mr. Larson
now moves for judgment as a matter of law or for a new
trial. Defendants move to strike Mr. Larson’s reply
brief.

App. 128
ANALYSIS
I.

Mr. Larson Is Entitled to Partial Judgment as a Matter of Law

Mr. Larson argues he is entitled to judgment as a
matter of law regarding all eight statements sent to
the jury. For the following reasons, the Court grants
judgment as a matter of law that all eight statements
were defamatory in nature and false. However, the
Court denies Mr. Larson’s motion as to whether Defendants knew or, in the exercise of reasonable care,
should have known that the statements were false. The
Court denies Mr. Larson’s motion for judgment as a
matter of law on all other grounds.
1.

Legal Standard

Minnesota Rule of Civil Procedure 50 governs motions for judgment as a matter of law. A party is entitled to judgment as a matter of law on an issue only if
there is no legally sufficient evidentiary basis for a reasonable jury to find for the non-moving party. Minn. R.
Civ. P. 50.01. In determining whether a party is entitled to judgment as a matter of law, “the court must
view the credibility of the evidence, and every inference which may fairly be drawn therefrom, in favor of
the adverse party.” Paradise v. City of Minneapolis, 297
N.W.2d 152, 155 (Minn. 1980).

App. 129
2.

Elements of a Defamation Claim

“To establish the elements of a defamation claim
in Minnesota, a plaintiff must prove that: (1) the defamatory statement was ‘communicated to someone
other than the plaintiff ’; (2) the statement is false; (3)
the statement tends to ‘harm the plaintiff ’s reputation
and to lower [the plaintiff ] in the estimation of the
community,’ and (4) ‘the recipient of the false statement reasonably understands it to refer to a specific
individual.’ ” McKee v. Laurion, 825 N.W.2d 725, 729-30
(Minn. 2013) (citations omitted).
3.

Defamation by Implication

Mr. Larson argues that the Court should have allowed his claims based on defamation by implication.
The Court agrees. A statement is defamatory if the
statement tends to harm the reputation of a person
and lower his esteem in the community. McKee v. Laurion, 825 N.W.2d 725, 729-30 (Minn. 2013) (citations
omitted). A statement is also defamatory if the implication of the statement tends to harm the reputation
of a person and lower his esteem in the community.
Diesen v. Hessburg, 455 N.W.2d 446, 449-50 (Minn.
1990). The defamatory meaning must be interpreted in
light of the context surrounding the statement. Schlieman v. Gannett Minnesota Broad., Inc., 637 N.W.2d
297, 304 (Minn. Ct. App. 2001). A statement may be defamatory by implication if: (1) it leaves out certain
facts so that the statement conveyed has a defamatory
meaning, (2) it linked statements in a way that

App. 130
conveyed a defamatory meaning, or (3) it stated an
opinion that conveyed defamatory facts. Utecht v.
Shopko Dept. Store, 324 N.W.2d 652, 65354 (Minn.
1982).
At trial, the Court held that it was not clear that
Minnesota recognized defamation by implication
based on Diesen v. Hessburg, 455 N.W.2d 446 (Minn.
1990). Diesen held that defamation by implication was
not recognized in cases involving defamation claims
brought by public officials against media defendants
concerning criticism of their official actions. Id. at 44952. However, this is not a case in which the allegedly
defamatory statements criticize a public official for the
way in which he is carrying out his official duties. Mr.
Larson is a private individual, not a public official. He
did not voluntarily thrust himself into the public
sphere like a public official. He does not have access to
public mediums for answering disparaging falsehoods
like a public official. Thus, the Court should have allowed Mr. Larson’s claims based on defamation by implication.
4.

Falsity by Implication

Mr. Larson argues that the Court should have allowed his claims based on falsity by implication. The
Court agrees. In a defamation case, a statement must
be false in order to be actionable. A statement or communication is false if it is not substantially accurate.
See Jadwin v. Minneapolis Star & Tribune Co., 390
N.W.2d 437, 441 (Minn. Ct. App. 1986). Substantial

App. 131
accuracy does not require every word to be true. Id. A
statement or communication is substantially accurate
if its substance or gist is true. Id. A statement or communication is also false if the implication of the statement is false. See Lewis v. Equitable Life Assurance
Soc. of the United States, 389 N.W.2d 876, 888 (Minn.
1986); CIVJIG 50.25.
The falsity inquiry properly focuses on the underlying implication of a statement and not on whether
the statement itself is false. Lewis, 389 N.W.2d at 88889. In Lewis, employees were fired for gross insubordination and claimed they had to tell future employers
thereby requiring the employees to self-publish defamatory statements. Id. The defendant argued that it was
true that the reason employees were fired was for gross
insubordination. Id. However, the court held it was
proper to focus on the truth of the underlying implication of the statement: whether the employees actually
engaged in gross insubordination. Id. Thus, the Court
should have allowed Mr. Larson’s claims based on falsity by implication.
5.

Republication

Defendants argued that they were just the “messenger” delivering statements from law enforcement.
However, this argument is contrary to law. Restatement (Second) of Torts § 578 (“[O]ne who repeats or
otherwise republishes defamatory matter is subject to
liability as if he had originally published it.”); see also
Cianci v. New Times Publ’g Co., 639 F.2d 54, 60-61 (2d

App. 132
Cir. 1980) (concluding that the republication rule applies to the press even though the press may be able to
seek the protection of certain privileges including the
fair report privilege); Olinger v. Am. Say. & Loan Ass’n,
409 F.2d 142, 144 (D.C. Cir. 1969) (concluding that
“[t]he law affords no protection to those who couch
their libel in the form of reports or repetition” and that
“the repeater cannot defend on the ground of truth
simply by proving that the source named did, in fact,
utter the statement”). “Unless protected by a privilege,
defendants are as liable for republication of a defamatory statement as if they had made the statement
themselves.” Price v. Viking Press, Inc., 625 F. Supp.
641, 644-45 (D. Minn. 1985) (citing Cianci, 639 F.2d at
60-61 & Prosser, Handbook on the Law of Torts § 111
(4th ed. 1971)).
6.

The Fair and Accurate Report Privilege

The fair and accurate report privilege allows media defendants to report on certain official acts and
proceedings without being liable for reporting defamatory statements as long as their reporting is fair and
accurate. Order Denying Defendants’ Motion for Summary Judgment 11-12 (citing Moreno v. Crookston
Times Printing Co., 610 N.W.2d 321, 333 (Minn. 2000)).
This is true even if the statements conveyed are false
and defamatory and even if they were published with
actual malice. Moreno, 610 N.W.2d at 333.

App. 133
However, statements made by law enforcement at
a press conference that go beyond the mere fact of arrest or charge are not protected before judicial proceedings commence. Order Denying Defendants’ Motion for
Summary Judgment 11 (quoting Moreno, 610 N.W.2d
at 333) (“While an arrest or indictment is an official act
generally covered by [Section 611 of the Restatement
(Second) of Torts], ‘statements made by the police or by
the complainant or other witnesses or by the prosecuting attorney as to the facts of the case or evidence expected to be given are not yet part of the judicial
proceeding or of the arrest itself and are not privileged
under this Section.”)). The need for public dissemination of information during the brief period of time before arrestees are brought before a judge does not
justify depriving defamed individuals of their constitutional right to a remedy, especially in light of the increased risk of defamatory statements prior to action
by a court. Id. at 1, 11-18. Minnesota’s Rules of Professional Conduct acknowledge the danger of these extrajudicial statements by prohibiting prosecutors and police from making extra-judicial statements that will
have a substantial likelihood of materially prejudicing
a jury. Id at 16 (citing Minn. R. Prof. Conduct 3.6, 3.8).
In this case, judicial proceedings had not yet commenced. Mr. Larson was not even charged with a crime.
The fair report privilege does not apply to Defendants’
statements. Thus, this is an ordinary defamation case.
Mr. Larson must prove that Defendants’ statements
are defamatory in nature, false, and that Defendants

App. 134
knew or, in the exercise of reasonable care, should have
known the statements were false.
7.

All Eight Statements Submitted to
the Jury Are Defamatory in Nature
and False as a Matter of Law

Given the context in which each statement was
made, the implication of each statement was that Mr.
Larson killed Officer Decker. There is no evidence that
Mr. Larson killed Officer Decker. The statements are
defamatory in nature and false. Viewing the evidence
in the light most favorable to Defendants, no reasonable jury could find otherwise. Defendants argue that
each statement accurately reported what law enforcement officials said. However, those who repeat defamatory statements are subject to liability as if they had
originally made them. And, the fair report privilege
does not apply. Mr. Larson was not even charged with
a crime. Accordingly, Mr. Larson is entitled to judgment as a matter of law on the issues of the statement’s
defamatory nature and its falsity.
8.

Substantial Accuracy and Waiver

Defendants argue that the Court recognized that
the jury “could go either way” as to the question of substantial accuracy. The Court made this acknowledgment during a discussion of the Court of Appeals
decision in Jadwin v. Minneapolis Star and Tribune
Company. 309 N.W.2d 437 (Minn. Ct. App. 1986). The
focus of this discussion was whether the accuracy of

App. 135
Defendants’ reports of law enforcement’s statements
under the fair report privilege was a question of fact or
law. However, this entire discussion was irrelevant because the fair report privilege does not apply in this
case.
Defendants argue that Mr. Larson waived the argument that the underlying content of the statements
was at issue. Mr. Larson did not waive this argument.
Mr. Larson repeatedly argued that the statements
were false because he did not kill Officer Decker. Mr.
Larson confirmed before closing that he was arguing
that the statements were false because he did not kill
Officer Decker.
9.

Mr. Larson Is Not Entitled to Judgment as a Matter of Law on Other
Grounds

Mr. Larson alternatively argues that he is entitled
to judgment as a matter of law because in its November 10, 2016 Order, the Court already decided as a matter of law that the statements were not accurately
reported under the fair report privilege. However, during the Jadwin discussion, the Court vacated this order. Moreover, the entire discussion was irrelevant
because the fair report privilege does not apply. Finally,
Mr. Larson’s motion for judgment as a matter of law is
already granted as to falsity and defamation.
Mr. Larson also argues he is entitled to judgment
as a matter of law on the issue of negligence. In his
supporting memorandum, Mr. Larson confuses the

App. 136
concept of “negligent publication” with the fault standard of negligence. That is, Mr. Larson repeatedly refers
to CIVJIG 50.15 that provides in part: “A publication
is made negligently if a reasonable person would recognize that the defamatory matter will be communicated to a person other than plaintiff.” There was never
a dispute that KARE 11 and St. Cloud Times intentionally communicated their statements to people other
than Mr. Larson. This does not entitle Mr. Larson to
judgment as a matter of law that Defendants knew, or
in the exercise of reasonable care, should have known
that the published statements were false.
Mr. Larson also moves for judgment as a matter of
law on other grounds. Mr. Larson claims the Court
erred by admitting the Application to Detain and permitting testimony about the document. Mr. Larson
claims the Court erred by giving a jury instruction on
probable cause. Mr. Larson claims the Court erred by
not including language from Jadwin in its falsity instruction. The Court properly admitted the Application
to Detain and related evidence, and properly instructed the jury on probable cause and falsity. Moreover, Mr. Larson does not explain how any of these
alleged errors would entitled him to judgment as a
matter of law. The Court has already granted Mr. Larson’s motion for judgment as a matter of law as to the
defamatory nature and falsity of the statements submitted to the jury. Mr. Larson’s motions for judgment
as a matter of law on all other grounds should be denied.

App. 137
10. Mr. Larson Is Entitled to a New
Trial on the Eight Statements Submitted to the Jury
Because Mr. Larson is entitled to judgment as a
matter of law as to the defamatory nature and falsity
of the eight statements submitted to the jury, the Court
orders a new trial on whether Defendants knew or, in
the exercise of reasonable care, should have known
each statement was false and on damages.
II. Mr. Larson Is Entitled to a New Trial on
the Three Statements Dismissed by the
Court
1.

Legal Standard

Mr. Larson moves for a new trial on the three
statements the Court dismissed. Minnesota Rule of
Civil Procedure 59 establishes the exclusive grounds
for granting a new trial. Grorud v. Thomasson, 177
N.W.2d 51, 52 (Minn. 1970). One ground for supporting
a motion for a new trial is when an error of law occurred at trial. Minn. R. Civ. P. 59.01(f ). In addition to
establishing that an error of law occurred, a party moving for a new trial must also establish that the error
was prejudicial. Torchwood Props., LLC v. McKinnon,
784 N.W.2d 416, 419 (Minn. Ct. App. 2010).

App. 138
2.

“His mind must have really been
messed up to do something like that.
I know Tom would’ve forgave him.”

Mr. Larson argues that a reasonable jury could
have found this statement made by Rosella Decker, Officer Decker’s mother, and broadcast by KARE 11 was
defamatory by implication, and it should have been
submitted to the jury. The Court agrees.
A statement may be defamatory by implication if:
(1) it leaves out certain facts so that the statement conveyed has a defamatory meaning, (2) it linked statements in a way that conveyed a defamatory meaning,
or (3) it stated an opinion that conveyed defamatory
facts. Utecht v. Shopko Dept. Store, 324 N.W.2d 652,
653-54 (Minn. 1982).
A reasonable jury could have found that the statement implies that Mr. Larson killed Officer Decker. Accordingly, Mr. Larson is entitled to a new trial on this
statement.
3.

“He does not have an extensive
criminal history, but was cited with
disorderly conduct in 2009. He was
a second year machine tool student
at St. Cloud Tech. Larson in being
held in the Stearns County Jail.”

Mr. Larson argues that a reasonable jury could
have found this statement made by Julie Nelson during KARE 11’s 10:00 p.m. news broadcast was

App. 139
defamatory by implication, and it should have been
submitted to the jury. The Court agrees.
A statement may be defamatory by implication if
it linked statements in a way that conveyed a defamatory meaning. Utecht, 324 N.W.2d at 653-54. The defamatory meaning of a statement must be interpreted
in light of the context surrounding the statement.
Schlieman v. Gannett Minnesota Broad., Inc., 637
N.W.2d 297, 304 (Minn. Ct. App. 2001).
The context in which this statement appeared was
KARE 11’s 10:00 p.m. news broadcast that began with
the story of Officer Decker’s murder. The opening leadin read by the anchor, Julie Nelson, included the statement, “Investigators say 34-year old Ryan Larson
ambushed the officer, shooting him twice. Larson is in custody.” The story was then sent to a correspondent, Jana Shortal, live in Cold Spring who
stated that Officer Decker “was the good guy last
night going to check on someone who needed
help.” The shot changes to Mr. Larson’s color mugshot,
and Ms. Shortal states, “That someone was 34-year
old Ryan Larson who investigators say opened
fire on Officer Tom Decker for no reason anyone
can fathom.” It was then that the story cut to Rosella
Decker, and she states- “His mind must have really
been messed up to do something like that. I know
Tom would’ve forgave him” The story shortly thereafter returned to Ms. Nelson in the studio. Over Mr.
Larson’s color mugshot, Ms. Nelson states: “Charges
could be filed as early as Monday against Ryan
Larson, the man . . . accused of killing Officer

App. 140
Decker.” She closed the story by stating: “He does
not have an extensive criminal history, but was
cited with disorderly conduct in 2009. He was a
second year machine tool student at St. Cloud
Tech. Larson is being held in the Stearns County
Jail.”
Given this context, a reasonable jury could have
found that the statement implied that Mr. Larson was
responsible for killing Officer Decker. Accordingly, Mr.
Larson is entitled to a new trial on this statement.
4.

“[S]he had one thing she wanted to
say to Larson if she got to [sic] the
chance to see him leave the jail. ‘This
isn’t over,’ she said.”

Mr. Larson argues that a reasonable jury could
have found this statement made by Roxie Knowles and
published in a December 5, 2012 article by St. Cloud
Times was defamatory by implication, and it should
have been submitted to the jury. The Court agrees.
The article explains that Roxie Knowles, the twin
sister of Officer Decker’s former wife, Becky Decker,
said she came to the jail Tuesday because she had one
thing she wanted to say to Larson if she got to
[sic] the chance to see him leave the jail. “This
isn’t over,” she said.
A reasonable jury could have found that the statement implied that Mr. Larson killed Officer Decker.

App. 141
Accordingly, Mr. Larson is entitled to a new trial on
this statement.
5.

Mr. Larson Is Not Entitled to a New
Trial on Other Grounds

Mr. Larson moves for a new trial on numerous
other grounds, including the Court’s jury instructions
on falsity (not having requested language from
Jadwin), negligence and probable cause, and the
Court’s admission of the Application to Detain and a
juvenile record. The Court properly instructed the jury
on these matters, and properly admitted the Application to Detain and related evidence as well as evidence
related to Mr. Larson’s juvenile record.
The Court has already granted Mr. Larson’s motion for a new trial on the three previously dismissed
statements because a reasonable jury could have found
they implied Mr. Larson killed Officer Decker. The
Court has already granted a new trial on the statements that were submitted to the jury on the issues of
negligence and damages. Mr. Larson is not entitled to
a new trial on any other grounds.
III. Defendants’ Motion to Strike Mr. Larson’s Reply Brief Should Be Granted
Defendants move to strike Mr. Larson’s reply brief
because it exceeds the allowable page limits “No memorandum of law submitted in connection with either a
dispositive or nondispositive motion shall exceed 35

App. 142
pages, exclusive of the recital of facts[,] . . . except with
permission of the court. . . . If a reply memorandum of
law is filed, the cumulative total of the original memorandum and the reply memorandum shall not exceed
35 pages, except with permission of the court.” Gen. R.
Practice 115.05. Mr. Larson’s initial memorandum of
law in support of his motion does not contain a recitation of facts and is 35 pages in length. His reply memorandum also does not contain a recitation of facts.
Thus, the entire reply memorandum runs afoul of the
page limit Accordingly, Mr. Larson’s reply brief should
be stricken in its entirety.
ORDER
Accordingly, IT IS HEREBY ORDERED that:
1.

Plaintiff Ryan Larson’s Motion for Judgment
as a Matter of Law is GRANTED IN PART
AND DENIED IN PART.
a.

Mr. Larson’s Motion for Judgment as a
Matter of Law as to the defamatory nature and falsity of all eight statements
submitted to the jury is GRANTED.

b.

These statements include:

c.

Police say that man – identified as 34year old Ryan Larson – ambushed Officer Decker and shot him twice, killing him.

d.

Rosella holds no ill-will against the
man accused of killing her son.

App. 143

2.

e.

Ryan Larson, the man accused of
killing officer Decker, could be
charged as early as Monday.

f.

Investigators say 34-year old Ryan
Larson ambushed the officer, shooting him twice. Larson is in custody.

g.

He was the good guy last night going
to check on someone who needed
help. That someone was 34-year old
Ryan Larson who investigators say
opened fire on Officer Tom Decker
for no reason anyone can fathom.

h.

Investigators believe he fired two
shots into Cold Spring police officer
Tom Decker, causing his death.

i.

Man faces murder charge.

j.

Police say Larson is responsible for
the shooting death of Cold SpringRichmond
Police
Officer
Tom
Decker.

k.

Mr. Larson’s other motions for judgment
as a matter of law are DENIED.

Plaintiff Ryan Larson’s Motion for a New
Trial is GRANTED as to the eight statements submitted to the jury listed above as
well as the three dismissed statements listed
below.
a.

His mind must have really been
messed up to do something like that.
I know Tom would’ve forgave him.

App. 144
b.

He does not have an extensive criminal history, but was cited with disorderly conduct in 2009. He was a
second year machine tool student at
St. Cloud Tech. Larson is being held
in the Stearns County Jail.

c.

[S]he had one thing she wanted to
say to Larson if she got to [sic] the
chance to see him leave the jail. “This
isn’t over,” she said.

3.

Defendants’ Motion to Strike Plaintiff ’s Reply
Brief is GRANTED.

4.

The judgment entered for Defendants on January 5, 2017, is VACATED.

5.

This matter is scheduled for trial during the
August 14, 2017-September 15, 2017 trial
block. The parties may contact the Court for
a trial date certain.

LET JUDGMENT BE ENTERED ACCORDINGLY.
BY THE COURT:
Dated: 6/13/17

/s/ Susan Burke
Susan Burke
District Court Judge

App. 145
STATE OF MINNESOTA
COUNTY OF HENNEPIN
Ryan Larson,
Plaintiff,
v.
Gannett Company Inc.,
Gannett Satellite Information
Network Inc., Multimedia
Holdings Corpation, d/b/a
KARE 11-TV and d/b/a
St. Cloud Times,

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT
Case Type:
Personal Injury
Judge Susan N. Burke
ORDER FOR
JUDGMENT
(Filed Dec. 5, 2016)
Court File No.
27-CV-15-9371

Defendant.
This matter was tried to a jury from November 7,
2016, to November 17, 2016. Stephen Fiebiger, Esq.,
appeared for Plaintiff. Steven Wells, Esq., Angela
Porter, Esq., and Emily Mawer, Esq., appeared for Defendants.
FINDINGS OF FACT
The jury returned a divided verdict on November
21, 2016. As to all eight statements on the verdict form,
the divided jury found that the statements were defamatory, the statements referred to Plaintiff, and the
statements were published. However, the divided jury
found that all eight statements on the verdict form
were not false.

App. 146
CONCLUSIONS OF LAW
Because the divided jury found that the statements were not false, Plaintiff Ryan Larson is not entitled to recover any damages in this case.
ORDER
Accordingly, IT IS HEREBY ORDERED that
Plaintiff Ryan Larson’s Complaint is DISMISSED in
its entirety with prejudice and on the merits.
LET JUDGMENT BE ENTERED ACCORDINGLY.
BY THE COURT:
Dated: December 5, 2016

/s/ Susan N. Burke
SUSAN N. BURKE
District Court Judge

Filed in Fourth Judicial
District Court
9:31 am, Jan 05, 2017
Hennepin County Civil,
MN

JUDGMENT
THE FORGOING SHALL
CONSTITUTE THE JUDGMENT AND JUDGMENT
ROLL OF THE COURT
KATE FOGARTY, COURT
ADMINISTRATOR
ENTERED Jan 05, 2017
BY

App. 147
STATE OF MINNESOTA
COUNTY OF HENNEPIN

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Ryan Larson,
Plaintiff,
v.
Gannett Company Inc.,
Gannett Satellite
Information Network Inc.,
Multimedia Holdings
Corporation, d/b/a KARE
11-TV and d/b/a St.
Cloud Times,

Case Type: Personal
Injury
Judge Susan N. Burke
SPECIAL VERDICT
FORM
Court File No.
27-CV-15-9371

Defendants.
We, the jury duly impaneled and sworn to try the
issues in the above-entitled case, do hereby answer the
questions propounded by the Court as follows:
KARE 11 Broadcast: 6:00 p.m. on November 30,
2012
Question 1
Statement: Police say that man – identified
as 34-year old Ryan Larson –
ambushed Officer Decker and
shot him twice, killing him.

App. 148
Liability
(a) By the greater weight of the evidence,
was this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

If your answer to Question 1(a) was “Yes,” answer Question 1(b). If your answer to Question
1(a) was “No,” skip to Question 2(a).
(b) By the greater weight of the evidence, did
this statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 1(b) was “Yes,” answer Question 1(c). If your answer to Question
1(b) was “No,” skip to Question 2(a).
(c) By the greater weight of the evidence,
was this statement published?
Answer:

Yes

X

No ____

If your answer to Question 1(c) was “Yes,” answer Question 1(d). If your answer to Question
1(c) was “No,” skip to Question 2(a).
(d) By the greater weight of the evidence,
was this statement false?
Answer:

Yes ____

No

X

If your answer to Question 1(d) was “Yes,” answer Question 1(e). If your answer to Question
1(d) was “No,” skip to Question 2(a).

App. 149
(e) By the greater weight of the evidence,
was KARE 11 negligent in the publication of this statement?
Answer:

Yes ____

No ____

If your answer to Question 1(e) was “Yes,” answer Question 1(f). If your answer to Question
1(e) was “No,” skip to Question 2(a).
(f ) By clear and convincing evidence, was
this statement made by KARE 11 with
actual malice?
Answer:

Yes ____

No ____

If your answer to Question 1(f ) was “Yes,” answer Question 1(g). If your answer to Question
1(f ) was “No,” skip to Question 1(h).
(g) By clear and convincing evidence, did
KARE 11 act with deliberate disregard
for the rights or safety of others?
Answer:

Yes ____

No ____

Answer Question 1(h).
(h) By the greater weight of the evidence,
does this statement significantly add to
Ryan Larson’s harm over and above any
harm he sustained as a result of statements reporting the fact of his arrest and
the arresting charge?
Answer:

Yes ____

No ____

App. 150
Actual Damages
If your answer to Question 1(e) was “Yes,” answer
Questions 1(i) and 1(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

(j)

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

Special Damages
If your answer to Question 1(e) was “Yes,” answer
Question 1(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ ________

App. 151
Loss of Future Earning Capacity
If your answer to Question 1(e) was “Yes,” answer
Question 1(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $________

Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 1(f ) was “Yes,” answer
Questions 1(m) and 1(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

App. 152
(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

Punitive Damages
If your answers to Questions 1(f) and 1(g) were
both “Yes,” answer Question 1(o).
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
Question 2
Statement: Rosella holds no ill-will against
the man accused of killing her
son.
Liability
(a) By the greater weight of the evidence, was
this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

If your answer to Question 2(a) was “Yes,” answer
Question 2(b). If your answer to Question 2(a) was
“No,” skip to Question 3(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?

App. 153
Answer:

Yes

X

No ____

If your answer to Question 2(b) was “Yes,” answer
Question 2(c). If your answer to Question 2(b) was
“No,” skip to Question 3(a).
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 2(c) was “Yes,” answer
Question 2(d). If your answer to Question 2(c) was
“No,” skip to Question 3(a).
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No

X

If your answer to Question 2(d) was “Yes,” answer
Question 2(e). If your answer to Question 2(d) was
“No,” skip to Question 3(a).
(e) By the greater weight of the evidence, was
KARE 11 negligent in the publication of this
statement?
Answer:

Yes ____

No ____

If your answer to Question 2(e) was “Yes,” answer
Question 2(f ). If your answer to Question 2(e) was
“No,” skip to Question 3(a).
(f ) By clear and convincing evidence, was this
statement made by KARE 11 with actual malice?
Answer:

Yes ____

No ____

App. 154
If your answer to Question 2(g) was “Yes,” answer
Question 2(g). If your answer to Question 2(g} was
“No,” skip to Question 2(h).
(g) By clear and convincing evidence, did KARE
11 act with deliberate disregard for the rights
or safety of others?
Answer:

Yes ____

No ____

Answer Question 2(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 2(e) was “Yes,” answer
Questions 2(i) and 2(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

App. 155
(j)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.
iii.

Harm to his reputation
Mental distress
Humiliation

iv Embarrassment

$ ________
$ ________
$ ________
$ ________

Special Damages
If your answer to Question 2(e) was “Yes,” answer
Question 2(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ ________

Loss of Future Earning Capacity
If your answer to Question 2(e) was “Yes,” answer
Question 2(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

App. 156
Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 2(f ) was “Yes,” answer
Questions 2(m) and 2(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ ________
$ ________

iii.

Humiliation

$ ________

iv.

Embarrassment

$ ________

Punitive Damages
If your answers to Questions 2(f ) and 2(g) were
both “Yes,” answer Question 2(o).

App. 157
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
$ ________
Question 3
Statement: Ryan Larson, the man accused
of killing officer Decker, could
be charged as early as Monday.
Liability
(a) By the greater weight of the evidence, was
this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

If your answer to Question 3(a) was “Yes,” answer
Question 3(b). If your answer to Question 3(a) was
“No,” skip to Question 4(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 3(b) was “Yes,” answer
Question 3(c). If your answer to Question 3(b) was
“No,” skip to Question 4(a).
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 3(c) was “Yes,” answer
Question 3(d). If your answer to Question 3(c) was
“No,” skip to Question 4(a).

App. 158
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No

X

If your answer to Question 3(d) was “Yes,” answer
Question 3(e). If your answer to Question 3(d) was
“No,” skip to Question 4(a).
(e) By the greater weight of the evidence, was
KARE 11 negligent in the publication of this
statement?
Answer:

Yes ____

No ____

If your answer to Question 3(e) was “Yes,” answer
Question 3(f). If your answer to Question 3(e) was
“No,” skip to Question 4(a).
(f ) By clear and convincing evidence, was this
statement made by KARE 11 with actual malice?
Answer:

Yes ____

No ____

If your answer to Question 3(f ) was “Yes,” answer
Question 3(g). If your answer to Question 3(f) was
“No,” skip to Question 3(h).
(g) By clear and convincing evidence, did KARE
11 act with deliberate disregard for the rights
or safety of others?
Answer:

Yes ____

No ____

Answer Question 3(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he

App. 159
sustained as a result of statements reporting
the fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 3(e) was “Yes,” answer
Questions 3(i) and 3(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

(j)

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Special Damages
If your answer to Question 3(e) was “Yes,” answer
Question 3(k).

App. 160
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ _______

Loss of Future Earning Capacity
If your answer to Question 3(e) was “Yes,” answer
Question 3(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 3(f) was “Yes,” answer
Questions 3(m) and 3(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

App. 161
(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Punitive Damages
If your answers to Questions 3(f ) and 3(g) were
both “Yes,” answer Question 3(o).
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
$ ________
KARE, 11 Broadcast: 10:00 p.m. on November 30,
2012
Question 4
Statement: Investigators say 34-year old
Ryan Larson ambushed the officer, shooting him twice. Larson is in custody.
Liability
(a) By the greater weight of the evidence, was
this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

App. 162
If your answer to Question 4(a) was “Yes,” answer
Question 4(b). If your answer to Question 4(a) was
“No,” skip to Question 5(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 4(b) was “Yes,” answer
Question 4(c). If your answer to Question 4(b) was
“No,” skip to Question 5(a).
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 4(c) was “Yes,” answer
Question 4(d). If your answer to Question 4(c) was
“No,” skip to Question 5(a).
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No

X

If your answer to Question 4(d) was “Yes,” answer
Question 4(e). If your answer to Question 4(d) was
“No,” skip to Question 5(a).
(e) By the greater weight of the evidence, was
KARE 11 negligent in the publication of this
statement?
Answer:

Yes ____

No ____

If your answer to Question 4(e) was “Yes,” answer
Question 4(f). If your answer to Question 4(e) was
“No,” skip to Question 5(a).

App. 163
(f ) By clear and convincing evidence, was this statement made by KARE 11 with actual malice?
Answer:

Yes ____

No ____

If your answer to Question 4(f) was “Yes,” answer
Question 4(g). If your answer to Question 4(f ) was
“No,” skip to Question 4(h).
(g) By clear and convincing evidence, did KARE
11 act with deliberate disregard for the rights
or safety of others?
Answer:

Yes ____

No ____

Answer Question 4(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 4(e) was “Yes,” answer
Questions 4(i) and 4(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages directly caused by this statement, up to
the time of this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

App. 164
(j)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Special Damages
If your answer to Question 4(e) was “Yes,” answer
Question 4(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ _______

Loss of Future Earning Capacity
If your answer to Question 4(e) was “Yes,” answer
Question 4(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

App. 165
Presumed Damages
[Based on your answers on the special verdict
form, Ryan Larson will be awarded either actual damages or presumed damages. He will
not be awarded both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 4(f ) was “Yes,” answer
Questions 4(m) and 4(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

App. 166
Punitive Damages
If your answers to Questions 4(f ) and 4(g) were
both “Yes,” answer Question 4(o).
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
$ ________
Question 5
Statement: He was the good guy last night
going to check on someone who
needed help. That someone was
34-year old Ryan Larson who investigators say opened fire on
Officer Tom Decker for no reason anyone can fathom.
Liability
(a) By the greater weight of the evidence, was
this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

If your answer to Question 5(a) was “Yes,” answer
Question 5(b). If your answer to Question 5(a) was
“No,” skip to Question 6(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 5(b) was “Yes,” answer
Question 5(c). If your answer to Question 5(b) was
“No,” skip to Question 6(a).

App. 167
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 5(c) was “Yes,” answer
Question 5(d). If your answer to Question 5(c) was
“No,” skip to Question 6(a).
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No

X

If your answer to Question 5(d) was “Yes,” answer
Question 5(e). If your answer to Question 5(d) was
“No,” skip to Question 6(a).
(e) By the greater weight of the evidence, was
KARE 11 negligent in the publication of this
statement?
Answer:

Yes ____

No ____

If your answer to Question 5(e) was “Yes,” answer
Question 5(f ). If your answer to Question 5(e) was
“No,” skip to Question 6(a).
(f ) By clear and convincing evidence, was this
statement made by KARE 11 with actual malice?
Answer:

Yes ____

No ____

If your answer to Question 5(f) was “Yes,” answer
Question 5(g). If your answer to Question 5(f) was
“No,” skip to Question 5(h).

App. 168
(g) By clear and convincing evidence, did KARE
11 act with deliberate disregard for the rights
or safety of others?
Answer:

Yes ____

No ____

Answer Question 5(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 5(e) was “Yes,” answer
Questions 5(i) and 5(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

(j)

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:

App. 169
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Special Damages
If your answer to Question 5(e) was “Yes,” answer
Question 5(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ _______

Loss of Future Earning Capacity
If your answer to Question 5(e) was “Yes,” answer.
Question 5(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25.]

App. 170
If your answer to Question 5(f ) was “Yes,” answer
Questions 5(m) and 5(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Punitive Damages
If your answers to Questions 5(f ) and 5(g) were
both “Yes,” answer Question 5(o).
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
$ ________

App. 171
KARE11.com News Story
Question 6
Statement: Investigators believe he fired
two shots into Cold Spring police officer Tom Decker, causing
his death.
Liability
(a) By the greater weight of the evidence, was
this statement by KARE 11 defamatory?
Answer:

Yes

X

No ____

If your answer to Question 6(a) was “Yes,” answer
Question 6(b). If your answer to Question 6(a) was
“No,” skip to Question 7(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 6(b) was “Yes,” answer
Question 6(c). If your answer to Question 6(b) was
“No,” skip to Question 7(a).
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 6(c) was “Yes,” answer
Question 6(d). If your answer to Question 6(c) was
“No,” skip to Question 7(a).
(d) By the greater weight of the evidence, was
this statement false?

App. 172
Answer:

Yes ____

No

X

If your answer to Question 6(d) was “Yes,” answer
Question 6(e). If your answer to Question 6(d) was
“No,” skip to Question 7(a).
(e) By the greater weight of the evidence, was
KARE 11 negligent in the publication of this
statement?
Answer:

Yes ____

No ____

If your answer to Question 6(e) was “Yes,” answer
Question 6(f). If your answer to Question 6(e) was
“No,” skip to Question 7(a).
(f ) By clear and convincing evidence, was this
statement made by KARE 11 with actual malice?
Answer:

Yes ____

No ____

If your answer to Question 6(f ) was “Yes,” answer
Question 6(g). If your answer to Question 6(f) was
“No,” skip to Question 6(h).
(g) By clear and convincing evidence, did KARE
11 act with deliberate disregard for the rights
or safety of others?
Answer:
Answer Question 6(h).

Yes ____

No ____

App. 173
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 6(e) was “Yes,” answer
Questions 6(i) and 6(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

(j)

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

App. 174
Special Damages
If your answer to Question 6(e) was “Yes,” answer
Question 6(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ _______

Loss of Future Earning Capacity
If your answer to Question 6(e) was “Yes,” answer
Question 6(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 6(f ) was “Yes,” answer
Questions 6(m) and 6(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:

App. 175
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Punitive Damages
If your answers to Questions 6(f ) and 6(g) were
both “Yes,” answer Question 6(o).
(o) What amount of money will serve to punish
KARE 11 and discourage others from behaving in a similar way?
$ ________
St. Cloud Times Article: December 1, 2012
Question 7
Statement: Man faces murder charge.

App. 176
Liability
(a) By the greater weight of the evidence, was
this statement by the St. Cloud Times defamatory?
Answer:

Yes

X

No ____

If your answer to Question 7(a) was “Yes,” answer
Question 7(b). If your answer to Question 7(a) was
“No,” skip to Question 8(a).
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 7(b) was “Yes,” answer
Question 7(c). If your answer to Question 7(b) was
“No,” skip to Question 8(a).
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 7(c) was “Yes,” answer
Question 7(d). If your answer to Question 7(c) was
“No,” skip to Question 8(a).
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No

X

If your answer to Question 7(d) was “Yes,” answer
Question 7(e). If your answer to Question 7(d) was
“No,” skip to Question 8(a).

App. 177
(e) By the greater weight of the evidence, was the
St. Cloud Times negligent in the publication
of this statement?
Answer:

Yes ____

No ____

If your answer to Question 7(e) was “Yes,” answer
Question 7(f). If your answer to Question 7(e) was
“No,” skip to Question 8(a).
(f ) By clear and convincing evidence, was this
statement made by the St. Cloud Times with
actual malice?
Answer:

Yes ____

No ____

If your answer to Question 7(f) was “Yes,” answer
Question 7(g). If your answer to Question 7(f ) was
“No,” skip to Question 7(h).
(g) By clear and convincing evidence, did the St
Cloud Times act with deliberate disregard for
the rights or safety of others?
Answer:

Yes ____

No ____

Answer Question 7(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

App. 178
Actual Damages
If your answer to Question 7(e) was “Yes,” answer
Questions 7(i) and 7(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

(j)

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

Special Damages
If your answer to Question 7(e) was “Yes,” answer
Question 7(k).

App. 179
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ _______

Loss of Future Earning Capacity
If your answer to Question 7(e) was “Yes,” answer
Question 7(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 7(f ) was “Yes,” answer
Questions 7(m) and 7(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ _______
$ _______

App. 180
iii.

Humiliation

$ _______

iv.

Embarrassment

$ _______

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ ______
$ ______

iii.

Humiliation

$ ______

iv.

Embarrassment

$ ______

Punitive Damages
If your answers to Questions 7(f ) and 7(g) were
both “Yes,” answer Question 7(o).
(o) What amount of money will serve to punish
the St. Cloud Times and discourage others
from behaving in a similar way?
$ ________
Question 8
Statement: Police say Larson is responsible
for the shooting death of Cold
Spring-Richmond Police Officer
Tom Decker.
Liability
(a) By the greater weight of the evidence, was
this statement by the St. Cloud Times defamatory?
Answer:

Yes

X

No ____

App. 181
If your answer to Question 8(a) was “Yes,” answer
Question 8(b). If your answer to Question 8(a) was
“No,” you are finished with the verdict form.
(b) By the greater weight of the evidence, did this
statement refer to Ryan Larson?
Answer:

Yes

X

No ____

If your answer to Question 8(b) was “Yes,” answer
Question 8(c). If your answer to Question 8(b) was
“No,” you are finished with the verdict form.
(c) By the greater weight of the evidence, was
this statement published?
Answer:

Yes

X

No ____

If your answer to Question 8(c) was “Yes,” answer
Question 8(d). If your answer to Question 8(c) was
“No,” you are finished with the verdict form.
(d) By the greater weight of the evidence, was
this statement false?
Answer:

Yes ____

No _ X

If your answer to Question 8(d) was “Yes,” answer
Question 8(e). If your answer to Question 8(d) was
“No,” you are finished with the verdict form.
(e) By the greater weight of the evidence, was the
St. Cloud Times negligent in the publication
of this statement?
Answer:

Yes ____

No ____

If your answer to Question 8(e) was “Yes,” answer
Question 8(f ). If your answer to Question 8(e) was
“No,” you are finished with the verdict form.

App. 182
(f ) By clear and convincing evidence, was this
statement made by the St. Cloud Times with
actual malice?
Answer:

Yes ____

No ____

If your answer to Question 8(f ) was “Yes,” answer
Question 8(g). If your answer to Question 8(f ) was
“No, “ skip to Question 8(h).
(g) By clear and convincing evidence, did the St.
Cloud Times act with deliberate disregard for
the rights or safety of others?
Answer:

Yes ____

No ____

Answer Question 8(h).
(h) By the greater weight of the evidence, does
this statement significantly add to Ryan Larson’s harm over and above any harm he sustained as a result of statements reporting the
fact of his arrest and the arresting charge?
Answer:

Yes ____

No ____

Actual Damages
If your answer to Question 8(e) was “Yes,” answer
Questions 8(i) and 8(j).
(i)

What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ ______
$ ______

App. 183

(j)

iii.

Humiliation

$ ______

iv.

Embarrassment

$ ______

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.
ii.

Harm to his reputation
Mental distress

$ ______
$ ______

iii.

Humiliation

$ ______

iv.

Embarrassment

$ ______

Special Damages
If your answer to Question 8(e) was “Yes,” answer
Question 8(k).
(k) What amount of money will fairly and adequately compensate Ryan Larson for damages
directly caused by this statement, up to the
time of this verdict, for:
i.

Special damages

$ ______

Loss of Future Earning Capacity
If your answer to Question 8(e) was “Yes,” answer
Question 8(l).
(l)

What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future directly caused by this statement, for:
i.

Loss of future earning capacity $ ________

App. 184
Presumed Damages
[Based on your answers on the special verdict form,
Ryan Larson will be awarded either actual damages or presumed damages. He will not be awarded
both. For the difference between actual and presumed damages, see Instruction Nos. 20 and 25]
If your answer to Question 8(f) was “Yes,” answer
Questions 8(m) and 8(n).
(m) What amount of money will fairly and adequately compensate Ryan Larson for damages
for the use of this statement, up to the time of
this verdict, for:
i.
ii.

Harm to his reputation
Mental distress

$ ______
$ ______

iii.

Humiliation

$ ______

iv.

Embarrassment

$ ______

(n) What amount of money will fairly and adequately compensate Ryan Larson for damages
reasonably certain to occur in the future for
the use of this statement for:
i.
ii.

Harm to his reputation
Mental distress

$ ______
$ ______

iii.

Humiliation

$ ______

iv.

Embarrassment

$ ______

Punitive Damages
If your answers to Questions 8(f ) and 8(g) were
both “Yes,” answer Question 8(o).

App. 185
(o) What amount of money will serve to punish
the St. Cloud Times and discourage others
from behaving in a similar way?
$ ________
______________________
Date and Time

______________________
Jury Foreperson

After six hours of deliberation (but not before)
seven of the eight of you may return a verdict. If a verdict is returned by seven jurors rather than eight, all
seven must sign:
JURORS CONCURRING
/s/ [Illegible]

/s/ [Illegible]

/s/ [Illegible]

/s/ [Illegible]

/s/ [Illegible]

/s/ [Illegible]

/s/ [Illegible]
11-21-2016 10:43 am
Date and Time

/s/ [Illegible]
Jury Foreperson

App. 186
STATE OF MINNESOTA
COUNTY OF HENNEPIN
Ryan Larson,

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT
Case Type:
Personal Injury
Judge Susan N. Burke

Plaintiff,
v.
Gannett Company Inc.,
Gannett Satellite Information
Network Inc., Multimedia
Holdings Corpation, d/b/a
KARE 11-TV and d/b/a
St. Cloud Times,

ORDER
(Filed Nov. 10, 2016)
Court File No.
27-CV-15-9371

Defendant.
ANALYSIS
The fair report privilege does not apply to statements made by police at a news conference or in a news
release that go beyond the fact of arrest or charge of a
crime. (Order Granting in Part and Denying in Part
Defendants’ Motion for Summary Judgment 11-20.)
Moreover, under the fair report privilege, a news report
must be a substantially accurate summary of the occurrence reported. Moreno v. Crookston Times Printing
Co., 610 N.W.2d 321, 333 (Minn. 2000); see also Restatement (Second) Torts § 611.
Six of the allegedly defamatory statements in this
case go beyond the fact of arrest. They are not covered
by the fair report privilege. These statements include:

App. 187
Police say that man – identified as 34year old Ryan Larson – ambushed Officer
Decker and shot him twice, killing him.
*

*

*

Ryan Larson, the man accused of killing
officer Decker, could be charged as early
as Monday.
*

*

*

Investigators say 34-year old Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.
*

*

*

He was the good guy last night going to
check on someone who needed help.
That someone was 34-year old Ryan Larson who investigators say opened fire on
Officer Tom Decker for no reason anyone
can fathom.
*

*

*

Investigators believe he fired two shots
into Cold Spring police officer Tom
Decker, causing his death.
*

*

*

Police say Larson is responsible for the
shooting death of Cold Spring-Richmond
Police Officer Tom Decker.
Even if the fair report privilege was extended to
apply to statements made by police at news conferences and news releases, these six allegedly

App. 188
defamatory statements would still not be privileged
because the statements are not substantially accurate
as a matter of law.
The fair report privilege is a qualified privilege,
and to claim its protection, a news report must be accurate and complete or a fair abridgment of the occurrence reported. Moreno, 610 N.W.2d at 333; see also
Restatement (Second) Torts § 611. The legal test regarding whether a report is “fair and accurate” was
explained in Jadwin v. Minneapolis Star & Tribune,
390 N.W.2d 437 (Minn. Ct. App. 1986). The question is
whether the report is “substantially accurate.” A statement is substantially accurate “if its gist or sting is
true, that is, if it produces the same effect on the mind
of the recipients which the precise truth would have
produced.” Id. at 441 (quoting Williams v. WCAU-TV,
555 F. Supp. 198, 202 (E.D. Pa. 1983)).
In determining whether Defendants’ statements
were substantially accurate, the Court must allow
some degree of leeway in accuracy when describing
legal issues to the public. Id. at 442. The Court is to
read the reports in light of “expected lay interpretation[s]” rather than strictly scrutinizing whether a report was technically accurate in defining legal charges
or describing legal rulings. Id. at 442 n. 2 (citing Ricci
v. Venture Magazine, Inc., 574 F. Supp. 1563, 1567 (D.
Mass. 1983) (courts are to apply a “common sense
standard of expected lay interpretation of media reports of trials, rather than inquiring whether a report
was strictly correct in defining legal charges and describing legal rulings”)).

App. 189
“Where there is no dispute as to the underlying
facts, the question of whether a statement is substantially accurate is one of law for the court.” Id. at 441
(citing Williams, 555 F. Supp. at 203). In this case,
there is no dispute as to the underlying facts. This case
is not like McKee v. Laurion where there were credibility issues with respect to what the plaintiff in that case
did or did not say. 825 N.W.2d 725 (Minn. 2013).
In this case, the effect the precise truth of the news
conference, news release, and jail log would produce on
the mind of the recipient was that Officer Decker had
been shot in what appeared to be an ambush-style killing when he responded to call for a welfare check. The
subject of the welfare check, Ryan Larson, had been
interviewed by Steams County deputies and some of
that investigation was ongoing. Mr. Larson was taken
into custody and booked at the Stearns County Jail on
murder charges. The investigation was in its very early
stages and was active and ongoing as police continued
to investigate the crime.
To the contrary, the effect each of the defendants’
statements would produce on the mind of the recipient
was that police firmly believed Ryan Larson killed
Officer Decker, that they were likely proceeding with
murder charges, and those charges could be brought as
early as Monday. There was no sense that the investigation was in its early, preliminary stages. There was
no sense that the investigation was ongoing. The effect
of each statement was that police had their man. The
investigation was over. Each of defendants’ statements
gave the impression that police had concluded without

App. 190
doubt that Ryan Larson killed Officer Decker and that
the investigation was not active. Each of these statements created the impression of finality to the investigation and certainty to the idea that Mr. Larson had
killed Officer Decker that was not present in the news
conference, news release, and jail log.
During the news conference, law enforcement officials repeatedly emphasized the fact that the investigation was in its preliminary stages. For example, in
response to a question whether there was reason to
believe there might be some other individual involved,
Drew Evans of the BCA replied “Again, we don’t have
any re – information to believe that at this time, but
it’s in early stages of the of the investigation, we continue to follow-up on all leads.” (News Conference
Transcript 5.) In response a question regarding
whether something had happened in Mr. Larson’s life
that could have triggered him to be upset, Sheriff
Sanner replied “Again, it’s far too early in the investigation to make a comment in reference to that.” (Id. at
6.)
Law enforcement repeatedly refused to answer
specific questions asked by reporters and largely refused to comment on the facts of the case. The transcript of the news conference is replete with
statements like: “Again, that’s part of the active and
ongoing investigation.” (Id. at 5); “That’s part of the
active investigation. We can’t discuss that at this time.”
(Id.); “Again, that’s part of the active investigation
and we just can’t comment on that at this time.” (Id.);
“It’s – again, that’s part of the active crime scene and

App. 191
we just – we can’t discuss the details of the active crime
scene at this time.” (Id. at 6.)
Law enforcement officials did not comment on or
imply what their individual or collective beliefs were
regarding Mr. Larson’s guilt or responsibility for the
crime. They did not comment on the strength of the evidence. In fact, it appears that had reporters directly
asked the police if they were saying that Mr. Larson
was the person responsible for shooting Officer Decker,
the officers would have either denied that statement or
refused to comment and reiterated that the investigation was active and ongoing. Similarly, it appeared
that if reporters had asked the police officers if they
believed Mr. Larson was the person responsible for
shooting Officer Decker, the officers again would have
either denied that statement or refused to comment
and reiterated that the investigation was active and
ongoing. Furthermore, had reporters directly asked
the police if they were saying that Mr. Larson was accused of or charged with murdering Officer Decker, the
officers would have denied those statements as well.
For these reasons, each of the Defendants’ statements produced a harsher effect or sting on the mind
of the recipients than the precise truth would have
produced. Thus, these six allegedly defamatory statements are not substantially accurate.
Two allegedly defamatory statements do convey
the fact of arrest or charge of a crime. However, neither
of these statements are substantially accurate.

App. 192
Therefore, neither statement is protected by the fair
report privilege. These statements are:
Rosella holds no ill-will against the man
accused of killing her son.
*

*

*

Man faces murder charge.
The effect the precise truth of the news conference,
the news release and the jail log would produce on the
mind of the recipient was that investigators were in
the early hours of their investigation, they had arrested one suspect and were continuing an active investigation, and that the Stearns County Attorney’s
Office had not charged Mr. Larson with a crime.
To the contrary, the effect each of these statements
would produce on the mind of the recipient is that
Mr. Larson had been formally charged with murder
by the Stearns County Attorney’s Office. In this context, “accused” generally means charged with a
crime. Accuse – Definition of accuse in English|Oxford
Dictionaries, (last visited November 10, 2016),
https://en.oxforddictionaries.com/definition/accuse
(“Charge (someone) with an offence or crime”);
Accuse|Definition of Accuse by Merriam-Webster,
(last visited November 10, 2016), http://www.merriamwebster.com/dictionary/accuse (“to charge with a fault
or offense : to charge with an offense judicially or by
a public process”); American Heritage Dictionary
Entry: accuse, (last visited November 10, 2016),
https://ahdictionary.com/word/search.html?q=accuse
(“To charge formally with a wrongdoing”). The

App. 193
statement “Man faces murder charge” clearly would
produce on the mind of the recipient that Mr. Larson
had been formally charged with murder. These statements produced a harsher effect or sting on the mind
of the recipients than the precise truth would have produced. Thus, these statements are not substantially accurate, and therefore, they are not protected under the
fair report privilege.
The Court’s Order Granting in Part and Denying
in Part Defendants’ Motion for Summary Judgment
dated May 19, 2016, is so modified.
ORDER
Accordingly, IT IS HEREBY ORDERED that:
1.

The Court’s Order Granting in Part and Denying in Part Defendants’ Motion for Summary
Judgment dated May 19, 2016, is so modified.

2.

Defendants’ Motion for Summary Judgment
is DENIED.
BY THE COURT:

Dated: 11/10/2016

/s/ Susan N. Burke
SUSAN N. BURKE
District Court Judge

App. 194
STATE OF MINNESOTA
COUNTY OF HENNEPIN
Ryan Larson,
Plaintiff,
v.

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT
Case Type:
Personal Injury
Judge Susan N. Burke

Gannett Company Inc.,
Gannett Satellite Information
Network Inc., Multimedia
Holdings Corpation, d/b/a
KARE 11-TV and d/b/a
St. Cloud Times,

ORDER GRANTING
IN PART AND
DENYING IN PART
DEFENDANTS’
MOTION FOR
SUMMARY
JUDGMENT

Defendant.

(Filed May 19, 2016)
Court File No.
27-CV-15-9371

This matter came before the Honorable Susan N.
Burke on February 19, 2016, on Defendants’ motion for
summary judgment. Stephen Fiebiger, Esq., appeared
for Plaintiff. Mark Anfinson, Esq., appeared for Defendants.
INTRODUCTION
The Court holds the fair report privilege does not
apply to extra-judicial statements made by police regarding an arrest and criminal investigation before
any judicial control is exercised, even if those statements are made in the context of a news conference or
disseminated by a news release. The need for public

App. 195
dissemination of information during the brief period of
time before an arrestee is brought before a judge does
not justify depriving defamed individuals of their constitutional right to a remedy, especially in light of the
increased risk of defamatory statements prior to action
by a court. Moreover, genuine issues of material fact
exist as to whether the reporting was fair and accurate
when law enforcement officials offered only limited
statements and repeatedly qualified their answers indicating that the investigation was ongoing and in its
preliminary stages.
BACKGROUND
The undisputed facts are as follows.1 At 9:00 a.m.
on November 30, 2012, a news conference was conducted in Cold Spring, Minnesota. The news conference was led by Drew Evans of the Bureau of Criminal
Apprehension (“BCA”) and also included Stearns
County Sheriff John Sanner and Cold Spring Police
Chief Phil Jones. The subject of the news conference
was the shooting death of Cold Spring police officer
Tom Decker on November 29, 2012. Both KARE 11 –
TV (“KARE 11”) and the St. Cloud Times assigned
staffers to Cold Spring to cover Officer Decker’s death,
and both media companies had staffers attend the
news conference.2

1

Bolded statements are statements specifically identified in
Plaintiff ’s Complaint and set out verbatim.
2
Defendant Gannett Company, Inc. (“Gannett”) owns and
operates Defendants Gannett Satellite Information Network, Inc.

App. 196
During the news conference, law enforcement officials largely declined to share specific details of the
investigation with the media. Officials responded to
questions asked by reporters by stating that they could
not comment and that the investigation was still active
and ongoing. Officials consistently stressed that the investigation was in its very early stages, and they repeatedly refused to comment on many facts of the case.
Nonetheless, a few details regarding the facts of the
case were released during the news conference.
Sheriff Sanner stated that Officer Decker was assigned to conduct a welfare check on Ryan Larson, the
plaintiff in this matter. Sheriff Sanner stated that the
family of Mr. Larson was concerned that Mr. Larson
was possibly suicidal. Sheriff Sanner stated that after
pulling into the parking lot of Winners Bar, “Officer
Decker left his squad car and a very short time later
was confronted by an armed individual, shot twice, and
died.” Mr. Evans explained that Mr. Larson, “was taken
into custody and was booked into the Stearns County
jail in connection with” the killing of Officer Decker.
When asked if there was any reason to believe that
there might be some other individual involved in the
shooting, Mr. Evans replied that law enforcement
had no “information to believe that at this time[.]” Mr.
Evans followed this comment with yet another statement explaining that the investigation was still in its
(“Gannett SINI”) and Multimedia Holdings Corporation (“Multimedia Holdings”). Gannett SINI and Multimedia Holdings own
and operate KARE 11. Multimedia Holdings owns and operates
the St. Cloud Times.

App. 197
preliminary stages, and that law enforcement would be
following up on any and all leads in its investigation.
Mr. Evans also stated that it was apparent to law enforcement based on their preliminary investigation
that Officer Decker “was ambushed at the scene.”
The Minnesota Department of Public Safety also
issued a news release on November 30, 2012. The news
release explains that Officer Decker was shot and
killed around 11:00 p.m. on November 29, 2012, near
Winners Bar while conducting a welfare check at a
nearby apartment. It states that “[w]ithin an hour” after launching a search for the shooter, “Stearns County
SWAT team investigators took Ryan Michael Larson,
34, of Cold Spring into custody. Larson was booked into
the Stearns County Jail on murder charges” earlier
that morning. Staffers of KARE 11 and the St. Cloud
Times both received copies of the news release.
After Mr. Larson was arrested, he was booked into
the Stearns County jail. Mr. Larson’s booking information was recorded on the Stearns County jail log.
The jail log stated that Mr. Larson had been booked on
November 30, 2012, on a charge of second-degree murder. The jail log also contains a disclaimer which states,
in part:
An arrest does not mean that the inmate has
been convicted of the crime. Booking at the
County Jail does not indicate guilt. Information contained herein should not be relied
upon for any type of legal action. The County
Sheriff ’s Office cannot represent that the information is current, accurate, or complete.

App. 198
KARE 11 broadcast news stories about Officer
Decker’s murder on its 5:00 p.m., 6:00 p.m., and 10:00
p.m. newscasts on November 30, 2012. In its 5:00 p.m.
story, anchor Julie Nelson reported: “Tonight – a 34
year old man named Ryan Larson is in jail – accused
of Officer Decker’s murder.” This newscast included a
pre-recorded “package piece” by reporter John Croman.
Mr. Croman received a copy of the news release after
arriving in Cold Spring and watched a recording of the
entire news conference. Mr. Croman’s package piece
included an interview with Rosella Decker, Officer
Decker’s mother. After Mr. Croman’s package piece was
broadcast, the coverage returned to Mr. Croman live in
Cold Spring where he was joined by reporter Jana
Shortal. Ms. Shortal gave some background information on Mr. Larson including his criminal history.
The coverage returned to Ms. Nelson where she closed
by stating: “[C]harges against Ryan could come next
week.” While the 5:00 p.m. broadcast identified Mr.
Larson as a suspect, neither Ms. Nelson, Mr. Croman,
or Ms. Shortal stated that Mr. Larson shot and killed
Officer Decker or reported that investigators or police
said that Mr. Larson had shot and killed Officer
Decker.
KARE 11’s 6:00 p.m. newscast began with the
story of Officer Decker’s killing. Ms. Nelson led into the
story stating Officer Decker “was shot and killed last
night while conducting a welfare check on a suicidal
man. Police say that man – identified as 34-year
old Ryan Larson – ambushed Officer Decker and
shot him twice, killing him.” Producer Panhia Yang

App. 199
wrote the script read by Ms. Nelson on the 6:00 p.m.
newscast. She testified that she understood the difference in being charged with a crime as opposed to being
arrested and booked on suspicion of a crime.
After Ms. Nelson’s lead-in on Officer Decker’s murder, the story was sent to Mr. Croman in Cold Spring.
Mr. Croman broadcast another package piece that included his interview with Rosella Decker. During the
package piece, Mr. Croman stated: “Rosella holds no
ill-will against the man accused of killing her
son.” He thought that this statement was significant
because in his experience, the families of victims do not
often have charitable things to say about the accused.
Mr. Croman testified that he understood what it meant
to be arrested and booked on suspicion of a crime.
After the package piece was finished, the story
went back to Mr. Croman live in Cold Spring, where
he described the emotional atmosphere in Cold Spring,
highlighting the procession of a white hearse with
Officer Decker’s body and ringing church bells. Mr.
Croman chose to highlight the procession because it
was an interesting visual and, at the time, he did not
know that it was common for the bodies of slain police
officers to be escorted by other law enforcement officials. The broadcast returned to Ms. Nelson, and she
closed the coverage by stating: “Ryan Larson, the
man accused of killing officer Decker, could be
charged as early as Monday.” Mr. Larson’s color
mugshot appeared simultaneous with this statement
and along with a short summary of his background information including his criminal history.

App. 200
KARE 11’s 10:00 p.m. newscast began with the
story of Officer Decker’s murder. Ms. Nelson’s opening
script reported: “Investigators say 34-year old
Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.” The story was then
sent to Ms. Shortal live in Cold Spring who broadcast
her own package piece that included the interview
with Rosella Decker. Ms. Shortal testified that she understood the difference between being charged with a
crime as opposed to being arrested and booked on suspicion of a crime.
Ms. Shortal’s package piece also included a statement by Cold Spring resident Amanda Weber referring
to Officer Decker: “He definitely was one of the good
guys.” After Ms. Weber’s statement, the shot shifted to
police cars with Ms. Shortal reporting over the image:
“He was the good guy last night going to check
on someone who needed help.” The shot changed to
Mr. Larson’s color mugshot, and Ms. Shortal stated:
“That someone was 34-year old Ryan Larson who
investigators say opened fire on Officer Tom
Decker for no reason anyone can fathom.” Ms.
Shortal also commented: “If there were one job Tom
Decker loved more than policing in this town, it
was fathering his kids, Kelley and Jade, Justin
and Devon, ages 5, 6, 7, and 8.”
The story then went back to the interview with Rosella Decker where she stated: “His mind must have
really been messed up to do something like that.
I know Tom would’ve forgave him.” The story returned to Ms. Shortal live in Cold Spring where she

App. 201
reported from a shot that included Winners Bar noting
that this was the location where Officer Decker was
“ambushed.” The story then went back to Ms. Nelson
to close the story. Over Mr. Larson’s color mugshot,
Ms. Nelson stated: “Charges could be filed as early as
Monday against Ryan Larson, the man . . . accused of
killing Officer Decker.” She then described Mr. Larson’s
background: “He does not have an extensive criminal history, but was cited with disorderly conduct in 2009. He was a second year machine tool
student at St. Cloud Tech. Larson is being held in
the Stearns County Jail.”
Ms. Nelson referred viewers to KARE11.com. A
screenshot of KARE11.com was broadcast that included an article titled “Suspect jailed in fatal shooting
of Cold Spring officer.” Although this article appeared
in the screenshot at the end of the 10:00 p.m. broadcast
on November 30, 2012, the article is dated 2:04 p.m. on
December 1, 2012. However, the posting date is often
when the story was last updated, so it is possible that
the story was posted to KARE11.com on November 30,
2012, but last updated on December 1, 2012. In any
case, the article characterizes Officer Decker’s killing
as an “alleged ambush” and states: “Investigators believe [Mr. Larson] fired two shots into Cold
Spring police officer Tom Decker, causing his
death.”
On December 1, 2012, the St. Cloud Times published several news stories about Officer Decker’s
killing. One of the front-page stories was written by
reporter Kari Petrie on November 30, 2012, and

App. 202
contained the following headline: “Man faces murder
charge.” Ms. Petrie did not write the headline, but did
write the body of the article. Ms. Petrie testified that
she had a general understanding of the legal process
involved with the filing of formal criminal charges. The
body of the article contained the following statements:
“Ryan Michael Larson, 34, is in Stearns County Jail
and faces possible charges of second-degree murder.
Police say Larson is responsible for the shooting
death of Cold Spring-Richmond Police Officer
Tom Decker.”
At 1:17 p.m. on December 1, 2012, after the St.
Cloud Times had published its newspaper for that day,
the Stearns County Sher-riff signed a document titled
“Application for Judicial Determination of Probable
Cause to Detain” (“Application to Detain”). The Application to Detain began, “Facts constituting probable
cause to believe a crime was committed and [Mr. Larson] committed” it. It then described particular facts to
justify the requested detention of Mr. Larson past the
pre-charge detention period that was set to expire at
12:00 p.m. on December 3, 2012. The Application to
Detain was approved on December 3, 2012 (“Order”),3
and Mr. Larson was held for an extended hold.
By December 4, 2012, prosecutors had reviewed
the evidence against Mr. Larson and determined that
there was insufficient evidence to continue to detain

3

The Court was only provided with the first page of the
Order as an exhibit to the affidavit of John Bodette.

App. 203
Mr. Larson. Thus, on December 4, 2012, Mr. Larson was
released from the Stearns County Jail.
On December 5, 2012, the St. Cloud Times published an article about Mr. Larson’s release from jail.
The article was written by Ms. Petrie and reporter
David Unze. The article quoted citizens that had
turned out to see Mr. Larson released. The article reported that Roxie Knowles, the twin sister of Officer
Decker’s former wife, was present at the jail. The article reported:
[S]he had one thing she wanted to say to
Larson if she got to [sic] the chance to
see him leave the jail.
“This isn’t over,” she said.
Law enforcement continued its investigation. On
January 2, 2013, BCA agents attempted to interview
with Eric Thomes of Cold Spring. However, he fled the
agents and entered an outbuilding on his property.
Law enforcement officials tried for several hours to
contact Mr. Thomes, but he refused to exit the building.
Shortly before 7:00 p.m. on January 2, 2013, law enforcement officials entered the building to find that
Mr. Thomes had committed suicide. A subsequent
search of Mr. Thomes led investigators to a .20 gauge
shotgun located at a separate property. BCA Laboratory firearms experts determined that the gun was
likely the weapon used to kill Officer Decker. In light
of this evidence, Mr. Larson was cleared as a suspect
by the BCA in August of 2013.

App. 204
On November 26, 2014, Mr. Larson commenced
this action against Defendants claiming that “[t]he
false statements, innuendo and implication by defendants that plaintiff was responsible for the murder of
officer Decker, shot and killed officer Decker, that police or investigators said he shot and killed officer
Decker, and was charged with his murder . . . constitutes defamation that caused damage to plaintiff ’s
reputation and injury to him “ (Compl. ¶ 35.) The Complaint specifically identifies defamatory statements
contained in KARE 11’s 6:00 p.m. and 10:00 p.m. news
broadcasts, the KARE11.com article titled “Suspect
jailed in fatal shooting of Cold Spring officer,” the
St. Cloud Times article published on December 1, 2012,
with the headline “Man faces murder charge,” and the
St. Cloud Times article published on December 5, 2012,
covering Mr. Larson’s release from jail that quotes
Roxie Knowles.
ANALYSIS
Defendants have moved for summary judgment
arguing that their potential liability is barred by the
fair report privilege. They argue that all of the statements that Mr. Larson claims are defamatory were
based directly on claims made by law enforcement
during the news conference or contained in the news
release, the jail log, and the Application to Detain and
Order. Defendants maintain that their news stories
fairly and accurately conveyed the claims made by law
enforcement at the time as reflected in these sources,
and consequently, the news stories fall under the fair

App. 205
report privilege and cannot form the basis of Mr.
Larson’s defamation suit. Mr. Larson argues: (1) the
news conference, news release, jail log, and Application
to Detain and Order do not qualify for protection under
the fair report privilege in Minnesota, and (2) Defendants’ news stories are not fair and accurate reports of
the statements made in those materials.
The Court holds that to the extent the news conference and news release only communicated the fact
of Mr. Larson’s arrest or of the charge of crime made
by the officer in making or returning his arrest, these
sources are entitled to the privilege. Other statements
made in these sources are not entitled to the privilege.
Further, the Court holds that the jail log and the Application to Detain and Order are entitled to the privilege. Finally, the Court finds that genuine issues of
material fact exist regarding whether Defendants
abused the privilege.
I.

Summary Judgment Standard

Rule 56.03 provides that summary judgment will
be granted “if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine issue as to any material fact and that either party is entitled to judgment as a matter of law.” Minn. R. Civ. P.
56.03. “The purpose of summary judgment is to determine whether issues of fact exist, not to resolve issues
of fact” Fain v. Anderson, 816 N.W.2d 696, 702 (Minn.
Ct. App. 2012) (citing Albright v. Henry, 174 N.W.2d

App. 206
106, 113 (Minn. 1970)). The moving party has the
burden of proving that no genuine issue of material
fact exists, and the non-moving party has the benefit
of that view of the evidence most favorable to it. See
Vieths v. Thorp Fin. Co., 232 N.W.2d 776, 778 (Minn.
1975). Further, all factual inferences are resolved in
favor of the non-moving party. See Northland Ins. Co.
v. Bennett, 533 N.W.2d 867, 871 (Minn. Ct. App. 1995).
II.

Principles of Defamation Law

Mr. Larson’s Complaint contains a single allegation of defamation. “To establish the elements of a defamation claim in Minnesota, a plaintiff must prove
that: (1) the defamatory statement was ‘communicated
to someone other than the plaintiff; (2) the statement
is false; (3) the statement tends to ‘harm the plaintiff ’s
reputation and to lower [the plaintiff ] in the estimation of the community,’ and (4) ‘the recipient of the false
statement reasonably understands it to refer to a specific individual.’ ” McKee v. Laurion, 825 N.W.2d 725,
729-30 (Minn. 2013) (citations omitted).
Statements that falsely accuse a person of a crime
will be considered defamatory per se and do not require
proof of actual harm in order to be actionable. See
Longbehn v. Schoenrock, 727 N.W.2d 153, 158-60
(Minn. Ct. App. 2007). Defamation per se can be established if the statements imply or impute serious misconduct, even if the speaker does not directly accuse
the person of such misconduct:

App. 207
With regard to false accusations of a crime,
the words need not carry upon their face a direct imputation of crime. It is sufficient if the
words spoken, in their ordinary acceptance,
would naturally and presumably be understood, in the connection and under the circumstances in which they are used, to impute a
charge of crime.
Id. at 158-59 (citations omitted). Generally, Minnesota
law requires that “the defamatory matter be set out
verbatim,” and the plaintiff ’s action will be confined to
those statements identified in the complaint. Moreno v.
Crookston Times, Printing Co., 610 N.W.2d 321, 326
(Minn. 2000).
III.

The Fair Report Privilege

Even if a plaintiff can establish each element of a
defamation claim, the defendant may still prevail if
the statements are protected by a privilege. Lewis v.
Equitable Life Assurance Soc’y, 389 N.W.2d 876, 889
(Minn. 1986). These privileges rest on public policy
grounds and are grounded in the determination that
statements made in particular contexts or on certain
occasions should be encouraged despite the risk that
the statements might be defamatory. See id. “Whether
an occasion is a proper one upon which to recognize a
privilege is a question of law for the court to determine,” id. (citation omitted), and the party claiming the
protection of a privilege bears the burden of proof. See
Mahoney & Hagberg v. Newgard, 729 N.W.2d 302, 306

App. 208
(Minn. 2007) (citing Rehn v. Fischley, 557 N.W.2d 328,
333 (Minn. 1997)).
Defendants argue that the fair report privilege
protects them from liability for Mr. Larson’s defamation claims. However, the fair report privilege does not
apply to statements made by the police about the facts
of a criminal case that go beyond the mere fact of arrest
and the charge of arrest before any court action has
been taken. Moreno, 610 N.W.2d at 333 (“While an arrest or indictment is an official act generally covered
by [Section 611 of the Restatement (Second) of Torts],
‘statements made by the police or by the complainant
or other witnesses or by the prosecuting attorney as to
the facts of the case or evidence expected to be given
are not yet part of the judicial proceeding or of the
arrest itself and are not privileged under this Section.’ ”).
As discussed in Moreno, Minnesota cases have
historically analyzed the fair report privilege within
the context of “judicial proceedings.” Minnesota courts
have consistently held that the privilege does not apply
in the absence of any court action or court control over
the judicial proceedings wherein both sides of a matter
have an opportunity to be heard. These courts balanced the need for a robust and unfettered press and
the possible chilling effect on the dissemination of
information to the public against the constitutional
right to a remedy for those injured by defamatory
statements and established limitations to the fair report privilege.

App. 209
In Nixon v. Dispatch Printing Co., 112 N.W. 258
(Minn. 1907), defamatory statements derived from a
complaint in a divorce action were published in a newspaper. Id. at 311. The Court found that the newspaper
was not entitled to the fair report privilege, holding
that a complaint which has never been presented to
the court for its action is not yet part of a “judicial proceeding” within the meaning of the privilege. Id. at 313.
That is, the matter must be under the control of the
court where both sides could be heard before the privilege would apply. The Court explained:
The distinction between a complaint and judicial proceedings proper is clear. The first is ex
parte, not subject to the control of the court in
the first instance, the clerk must file it, and its
publication can in no manner serve the administration of justice, or any other legitimate
object of public interest. The last are had in
court, under the control of the judge
where both sides may be heard. A fair report of such a proceeding would include the
claims of all parties as made in court. It is the
publication of such a report only that is privileged. We hold, upon principle an authority,
that a publication of judicial proceedings, if
fair and impartial, is privileged; but a complaint or other pleading in a civil action, is not
a judicial proceeding within the rule, and its
publication, if it contains libelous matter, can
only be justified by showing that it is true. It
follows that the publication in this case was
not privileged.
Id. at 313 (citations omitted) (emphasis added).

App. 210
The Nixon Court further explained that “Wile fact
that managers of newspapers have been accustomed to
publish, when filed, the pleadings in civil actions, and
to consider such publications as privileged, is immaterial, for neither custom nor opinion can withdraw person, character, or property from the protection of the
Constitution.” Nixon, 112 N.W. at 311. The Nixon Court
discussed the policy reasons underlying its holding:
It is true, as claimed by counsel for defendant,
that a complaint, when filed in the office of the
clerk of the court, becomes a part of the records in the action, and that by virtue of the
statute (Rev. Laws 1905, § 614) the clerk must
exhibit the records in his office for the inspection of any person demanding the same free
of charge, except in cases where fees are provided by law, and then upon tender of such
fees. This right, however, does not authorize
the person inspecting the record to make an
improper use thereof, or to publish to the
world through the medium of the press libelous matter contained in the record. Complaints in civil actions are filed by the
plaintiff. The court does not pass upon the
question whether or not they shall be filed.
Nor has the clerk of the court any right to refuse to file a complaint, when requested by the
plaintiff, although it may contain libelous
matter. Now, if the filing of such a complaint
must be construed as a judicial proceeding
within the rule stated, then any one who happens to read the complaint after it is filed is
privileged to publish it, and send it into the
houses and offices of thousands of the citizens

App. 211
of the state, and thereby brand the person
against whom the complaint is filed with infamy If such be the law, then as easy and safe
way has been provided whereby a party desiring to libel another may do so with impuity [sic] by entitling the libel in an action,
labeling it a complaint, and filing it with the
clerk. The constitutional guaranty to the citizen of a certain remedy for all wrongs which
he may receive in his person, property, or
character cannot be evaded by any such
makeshift.
Id. at 312-13.
In Hurley v. Northwest Publications, Inc., 273
F. Supp. 967 (D. Minn. 1967), the federal district court
applying Minnesota law applied the rule in Nixon that
a matter had to be sufficiently under the control of the
court to be entitled to protection under the fair report
privilege. Hurley also involved defamatory statements
derived from a complaint that had been published by a
newspaper. Hurley, 273 F. Supp. at 969-70. However,
unlike the complaint in Nixon which had not been
acted upon by a judge in any manner, the complaint in
Hurley was specifically authorized by an order of the
probate court. Id. at 970. In fact, the complaint in
Hurley “arose out of the probate proceedings and was,
in effect, a logical and necessary outgrowth and continuation of those proceedings. Id. at 971. Thus, the situation in Hurley was “cloaked with official sanction”
such that the fear that the filing of a complaint would
be used as an instrument for privileged defamation did
not arise. Id. at 972. Hurley held that “the filing of the

App. 212
complaint was sufficiently under the court’s control to
confer privilege.” Id. Importantly, the defendants in
Hurley urged the court to follow extra-jurisdictional
cases and adopt a more modem view of the fair report
privilege that was contrary to Nixon. Id. at 971. The
court declined to do so, relying in part on an Advisory
Committee Comment following the statute on criminal
defamation that specifically acknowledged and approved of the reasoning in Nixon. Id.; see also Moreno,
610 N.W.2d at 332 (cautioning against relying on other
jurisdictions because their defamations laws and privileges often were the result of state statutes or developed over time in that jurisdiction’s common law).
In Schuster v. U. S. News & World Report, Inc., the
Eighth Circuit Court of Appeals, applying Minnesota
law, addressed the Nixon rule in the criminal context.
602 F.2d 850, 853 (8th Cir. 1979). That case involved
defamatory statements derived from a criminal indictment. Id. The Eighth Circuit held that “the contents of
the San Diego indictments was privileged as fair and
accurate reporting of judicial proceedings.” Id. at 854.
The Eighth Circuit contrasted the facts of its case from
Nixon, stating that “Nixon applies only where a mere
filing is involved. Here a grand jury had indicted individuals and criminal proceedings were underway. An
indictment is a judicially recognized presentment of
charges and thus differs substantially from a unilaterally filed private complaint.” Id. at 854 n. 8. The importance is that a grand jury indictment reflects
official action being taken by an agency of the court.
See Restatement (Second) of Torts § 611, cmt. d (“[The

App. 213
privilege] is also applicable to the proceedings of an
agency of the court, such as a grand jury returning an
indictment.”). Notably, Schuster specifically recognized
the public interest in an unfettered press and the possible chilling effect on the presentation of public issues
that might result if the privilege did not apply to certain sources. See id at 853. Nonetheless, the court still
required that some court action be taken before the
fair report privilege would apply. See id.
In Moreno, the Minnesota Supreme Court expanded the fair report privilege to city council meetings. 610 N.W.2d at 332. However, in doing so, the
Court explained that the fair report privilege is limited
under Section 611 in that a reporter cannot “make additions of his own that would convey a defamatory impression, nor to impute corrupt motives to any one, nor
to indict expressly or by innuendo the veracity or integrity of any of the parties.” Moreno, 610 N.W.2d at
333 (quoting Restatement (Second) of Torts § 611, cmt.
f ). The Court used as an example of unprivileged conduct police statements that go beyond the fact of an
arrest. In doing so, the Court quoted approvingly Comment h of Section 611 of the Restatement. The full text
of Comment h reads:
An arrest by an officer is an official action, and
a report of the fact of the arrest or of the
charge of crime made by the officer in making
or returning the arrest is therefore within
the conditional privilege covered by this Section. On the other hand statements made by
the police or by the complainant or other

App. 214
witnesses or by the prosecuting attorney as to
the facts of the case or the evidence expected
to be given are not yet part of the judicial proceeding or of the arrest itself and are not privileged under this Section.
Restatement (Second) of Torts § 611, cmt. h) (emphasis
added).
This limitation of the privilege also applies to
extra-judicial statements made by police in press conferences. Citing Comment h to Section 611 of the Restatement and to cases throughout the country, one
treatise summarized why these events are not covered
under the fair report privilege:
Informal statements by police and prosecutors, as in interviews and press conferences, do not constitute “official
proceedings” of the type covered by this
privilege. This is so, although in some cases
the speakers themselves may be eligible for
the protection of other privileges, or although
reliance on the speakers, even in the absence
of the privilege, may help support a defense of
due care on the part of the publisher. A conversation between a reporter and a detective
is not a public event that requires, or merits,
coverage under this privilege. And extrajudicial defamation of the citizenry by the police
is not a vital process of democratic government.
Harper, James and Gray on Torts § 5.24 pp. 244-45
(emphasis added).

App. 215
Minnesota’s Rules of Professional Conduct
acknowledge the danger of these extrajudicial statements. The rules prohibit prosecutors and police from
making extra-judicial statements that will have a substantial likelihood of materially prejudicing a jury trial
in a pending criminal matter. See Minn. R. Prof. Conduct 3.6 & 3.8. The rules reflect a balance between the
right to a fair trial and safeguarding the right of free
expression, noting that without limits on free expression, important constitutional rights would be nullified. Minn. R. Prof. Conduct 3.6 cmt. 1. The rules
explain:
In the context of a criminal prosecution, a
prosecutor’s extrajudicial statement can create the additional problem of increasing public condemnation of the accused. Although the
announcement of an indictment for example,
will necessarily have severe consequences for
the accused, a prosecutor can, and should,
avoid comments which have no legitimate law
enforcement purpose and have a substantial
likelihood of increasing public opprobrium of
the accused.
Minn. R. Prof. Conduct 3.8, cmt. 5.
Police may have an official duty to keep the public
informed on the facts of an ongoing criminal investigation. However, statements made at that time run a
greater risk of being defamatory. See, e.g., Stokes v.
CBS Inc., 25 F. Supp. 2d 992, 1007 (D. Minn. 1998)
(recognizing that statements made to the media by
police “runs the risk of excessive publication” and is

App. 216
especially risky when the motivation behind the statements “is to uncover information against a specific
criminal suspect”).
a.

News Conference and News Release

Defendants argue that the news conference is
entitled to the privilege because it was conducted by
high-ranking officials in their official capacities for the
specific purpose of disseminating information in the
public interest and was open to the public. However,
under applicable Minnesota law, these extra-judicial
statements are analyzed in the context of “judicial
proceedings.” Comment h to Section 611 specifically
identifies these types of statements within the context
of judicial proceedings. Minnesota courts have consistently analyzed extra-judicial statements like the ones
at issue in this case under Comment h and not under
any other section of the Restatement. To construe
these statements under a different provision of the Restatement would strip Comment h of any meaning.
Moreover, the news conference is unlike other proceedings identified in the Restatement. Restatement
(Second) of Torts § 611, cmt. d (listing, for example:
grand jury indictments; proceedings before administrative, executive, or legislative bodies that are “judicial in character;” extradition hearings; impeachment
proceedings; proceedings before Congress or a state
legislature; disciplinary hearings of licensed professionals).

App. 217
The policy considerations underlying Minnesota’s
court decisions do not change simply because the extra-judicial statements are characterized as falling
under a different provision of the Restatement. The
possible chilling effect on free expression and the dissemination of information in the public interest would
still not outweigh the constitutional right to a remedy
for defamation. Accordingly, the fair report privilege
does not apply to these extra-judicial statements even
when they are contained in a police news conference.
Defendants also argue that the news release is
entitled to the privilege. For the same reasons that the
extra-judicial statements communicated at the news
conference are not entitled to the privilege, those same
statements appearing in the news release likewise are
not entitled to the privilege. The limitation cannot be
defeated by writing the statements down and handing
them to a reporter. Accordingly, the fair report privilege does not apply to these extra-judicial statements
even when they are contained in a police news release.
In this case, the content of the news conference
and news release went far beyond disseminating the
fact of the arrest or of the charge of crime made by the
officer in making or returning the arrest. Most of the
information conveyed in these sources was the type of
information specifically identified in Moreno and the
Restatement as not falling under the scope of the privilege. See Moreno, 610 N.W.2d at 333. To the extent
the news conference and news release communicated
merely the fact of Mr. Larson’s arrest and the charge of

App. 218
the arrest, those statements are privileged. Other
statements are not.
b.

Jail Log

Mr. Larson argues that the jail log is not a legal
document entitled to the fair report privilege. He also
highlights the disclaimer at the bottom of the jail log
that makes clear that its contents are not to be relied
upon for any legal purpose. For the following reasons,
the Court finds that the jail log is a protected source
under the fair report privilege.
The jail log is a publicly available law enforcement
record. Although Minnesota has not extended the fair
report privilege to jail logs, Minnesota does recognize
the general principle that fair and accurate reports of
public records qualify for the fair report privilege.
Jadwin v. Minneapolis Star & Tribune Co., 390 N.W.2d
437, 441 (Minn. Ct. App. 1986) (citing Time, Inc. v.
Firestone, 424 U.S. 448, 455-57 (1976) and Nixon v.
Dispatch Printing Co., 112 N.W. 258 (1907)) (“Newspapers have a qualified privilege when making a fair and
accurate report of public records.”). More specifically,
Minnesota’s federal district court has recognized that
publicly available law enforcement records are generally subject to the fair report privilege. In Conroy v.
Kilzer, 789 F. Supp. 2d 1457 (D. Minn. 1992), the federal district court found that the fair report privilege
protected newspaper articles based on publically available law enforcement reports containing defamatory
statements about a former St. Paul fire chief relating

App. 219
to the investigation of arson cases. See id at 1464-66
(recognizing that the fair report privilege protects “fair
and substantially accurate reports of public proceedings and the contents of public records”).
The jail log is a publically available record created
and maintained by law enforcement. It contains information that Comment h of Section 611 of the Restatement specifically identifies as protected: the fact of an
arrest and the arresting charge. The jail log does not
include any other information related to the facts of
the case or the surrounding facts of the arrest itself.
The disclaimer at the bottom of the jail log does
not exclude the source from protection. That disclaimer
simply states that booking at the jail does not indicate
guilt, and the information contained in the jail log
should not be relied upon for any type of legal action.
In this case, no legal action was taken in reliance on
the information contained in the jail log. Accordingly,
the jail log is protected by the fair report privilege.
c.

Application to Detain and Order

The Application to Detain was filed with the district court on December 1, 2012, and approved by the
court on December 3, 2012. When the court approved
the Application to Detain in the Order, it exercised the
type of official control over the proceeding that Minnesota courts have required in extending the fair report
privileged to a particular document as part of a judicial
proceeding. Thus, both the Application to Detain and
Order are protected by the fair report privilege.

App. 220
However, these sources can only be used to protect
the statement identified in the December 5, 2012,
St. Cloud Times article. Contrary to the affidavit of
John Bodette implying that these sources were used
in preparing the December 1, 2012, St. Cloud Times
article, the Application to Detain was not signed by the
Steams County Sheriff until 1:17 p.m. on December 1,
2012, and it is undisputed that the December 1, 2012,
article had been written on November 30, 2012. Thus,
the only possible report of Defendants’ that could have
relied on these sources would be the December 5, 2012,
St. Cloud Times article.
IV. Fair Report Privilege and Substantial
Accuracy
Even if all of Defendants’ sources fell within the
fair report privilege, there would still be issues of fact
for the jury concerning whether or not Defendants
fairly and accurately reported the contents of these
sources. The fair report privilege is a qualified privilege, and to claim its protection, a news report must
be accurate and complete or a fair abridgment of the
occurrence reported. See Moreno, 610 N.W.2d at 333;
Restatement (Second) Torts § 611. The legal test regarding whether a report is “fair and accurate” was explained in Jadwin v. Minneapolis Star & Tribune, 390
N.W.2d 437 (Minn. 1986).
The question is whether the report is “substantially accurate.” Id. A report is considered substantially accurate “if its gist or sting is true, that is, if it

App. 221
produces the same effect on the mind of the recipients
which the precise truth would have produced.” Jadwin,
390 N.W.2d at 441. The fair report privilege is not absolute, and it will be lost if it is shown that the privilege
has been abused. For example, “although it is unnecessary that the report be exhaustive and complete, it is
necessary that nothing be omitted or misplaced in such
a manner as to convey an erroneous impression to
those who hear or read it, as for example . . . the use of
a defamatory headline in a newspaper report, qualification of which is found only in the text of the article.”
Restatement (Second) of Torts § 611, cmt. f. Moreover,
the privilege “can be defeated if additional contextual
material, not part of the proceeding [or record], is
added that conveys a defamatory impression or comments on the veracity or integrity of any party.”
Moreno, 610 N.W.2d at 333; see also Restatement (Second) of Torts § 611, cmt. f. Plaintiff bears the burden of
showing that the privilege has been abused. See Lewis,
389 N.W.2d at 890. Whether or not the privilege has
been abused is a question of fact for the jury. See
Moreno, 610 N.W.2d at 321; Hurley, 273 F. Supp. at
972.
a.

Genuine Issue of Material Fact Regarding Gist or Sting of Statements

Mr. Larson argues that statements regarding
what law enforcement “believed” or “said” and statements identifying him as being “accused” of murdering
Officer Decker are not substantially accurate. Mr.
Larson also challenges statements about his criminal

App. 222
history. Statements from KARE 11’s 6:00 p.m. broadcast include:
Police say that man – identified as 34year old Ryan Larson – ambushed Officer
Decker and shot him twice, killing him.
*

*

*

Rosella holds no ill-will against the man
accused of killing her son.
*

*

*

Ryan Larson, the man accused of killing
officer Decker, could be charged as early
as Monday.
(Compl. ¶¶ 13-14.) Statements from KARE 11’s 10:00
p.m. broadcast include:
Investigators say 34-year old Ryan Larson ambushed the officer, shooting him
twice. Larson is in custody.
*

*

*

He was the good guy last night going to
check on someone who needed help.
That someone was 34-year old Ryan Larson who investigators say opened fire on
Officer Tom Decker for no reason anyone
can fathom.
*

*

*

His mind must have really been messed
up to do something like that. I know Tom
would’ve forgave him

App. 223
*

*

*

The story discussed plaintiff Larson’s
background and Ms. Nelson stated: “He
does not have an extensive criminal history, but was cited with disorderly conduct in 2009. He was a second year
machine tool student at St. Cloud Tech.
Larson is being held in the Stearns
County Jail.”
(Compl. ¶¶ 16-25.) One statement from the KARE11.com
titled “Suspect jailed in fatal shooting of Cold Spring
officer” was also identified in the Complaint: “Investigators believe he fired two shots into Cold
Spring police officer Tom Decker, causing his
death.” (Compl. ¶ 27.) Mr. Larson challenges the headline of the December 1, 2012, St. Cloud Times article,
“Man faces murder charge,” and the statement in
the body of that article, “Police say Larson is responsible for the shooting death of Cold SpringRichmond Police Officer Tom Decker.” (Compl.
¶ 31.) Finally, Mr. Larson challenges a statement made
in the December 5, 2012, St. Cloud Times article:
[S]he had one thing she wanted to say to
Larson if she got to [sic] the chance to
see him leave the jail.
“This isn’t over,” she said.
(Compl. ¶ 32.)
Viewing the evidence in the light most favorable
to Mr. Larson, a reasonable jury could easily find that
these statements are not substantially accurate. All

App. 224
but the statement identified in the December 5, 2012,
St. Cloud Times article can only be compared with the
protected portions of the news conference, news release, and jail log since these were the only sources
that existed at the time these statements were made.
During the news conference, law enforcement officials repeatedly emphasized the fact that the investigation was in its preliminary stages. Law enforcement
repeatedly refused to answer specific questions asked
by reporters and largely refused to comment on the
facts of the case. The officials did not comment on or
imply what their individual or collective beliefs were
regarding Mr. Larson’s guilt or responsibility for the
crime. They did not comment on the strength of the evidence. In fact, it appears that had reporters directly
asked the police if they were saying that Mr. Larson
was the person responsible for shooting Officer Decker,
the officers would have either denied that statement or
refused to comment and reiterated that the investigation was active and ongoing. Similarly, if reporters had
asked the police officers if they believed Mr. Larson
was the person responsible for shooting Officer Decker,
the officers again would have either denied that statement or refused to comment and reiterated that the
investigation was active and ongoing. Furthermore,
had reporters directly asked the police if they were
saying that Mr. Larson was accused of or charged with
murdering Officer Decker, the officers would have denied those statements as well. Viewing the evidence
in the light most favorable to Mr. Larson, a reasonable
jury could determine that Defendants’ statements

App. 225
could have produced a different effect on the mind of
the recipients than that which the precise truth of Defendants’ sources would have produced.
b.

Statements by Rosella Decker and
Roxie Knowles Do Not Stem From
Protected Sources

Two statements identified in Mr. Larson’s Complaint do not stem from the news conference, news release, jail log, or Application to Detain and Order: (1)
the statement by Rosella Decker during KARE 11’s
10:00 p.m. broadcast – “His mind must have really
been messed up to do something like that. I know
Tom would’ve forgave him;” and (2) the statement
by Roxie Knowles in the December 5, 2012, St. Cloud
Times article – “[Ms. Knowles] had one thing she
wanted to say to Larson” if she got the chance to
see him leave the jail: ‘This isn’t over,’ she said.”
(Compl. ¶¶ 22 & 32.)
Defendants argue that these statements are consistent with what law enforcement officials were saying at the time based on the news conference and news
release. However, even if these sources fell within the
scope of the fair report privilege, the legal test in applying the privilege asks whether the statement is a
fair and accurate report of the protected source. It cannot be maintained that the statements of Rosella
Decker and Roxie Knowles were derived from any of
the sources Defendants argue are protected by the fair
report privilege. Thus, it could not be the case that

App. 226
these statements fairly and accurately report the content of Defendants’ sources. Accordingly, Defendants
are not entitled to the fair report privilege with regard
to these statements.
c.

Statement Regarding Officer Decker’s
Family

Defendants argue that the following statement
identified in Mr. Larson’s Complaint is either true or
not capable of being construed as defamatory:
Reporter Shortal also commented on officer
Decker’s family stating: “If there were one job
Tom Decker loved more than policing in this
town, it was fathering his kids, Kelley and
Jade, Justin and Devon, ages 5, 6, 7, and 8.”
(Compl. ¶ 23.)
The Court agrees that this statement is not capable of
being construed as defamatory as it does not comment
at all on Mr. Larson nor does it have any implication
that could be construed as defaming Mr. Larson. Accordingly, Defendants are entitled to summary judgment in their favor with regard to this statement.
ORDER
Accordingly, IT IS HEREBY ORDERED that:
1.

Defendants’ motion for summary judgment
with regard to Plaintiff ’s defamation claim
based on the statement, “If there were one job
Tom Decker loved more than policing in this

App. 227
town, it was fathering his kids, Kelley and
Jade, Justin and Devon, ages 5, 6, 7, and 8,” is
GRANTED.
2.

As to every other statement identified in
Plaintiff ’s Complaint, Defendants’ motion for
summary judgment is DENIED.
BY THE COURT:

Dated: 5/19/2016

/s/ Susan N. Burke
SUSAN N. BURKE
District Court Judge

App. 228
No. A17-1068
-------------------------------------------------------------------------------------------

STATE OF MINNESOTA
IN SUPREME COURT
-------------------------------------------------------------------------------------------

Ryan Larson,
Appellant/Cross-Respondent,
vs.
Gannett Company Inc., Gannett Satellite Information
Network Inc., Multimedia Holdings Corporation,
d/b/a KARE 11-TV and d/b/a St. Cloud Times,
Respondents/Cross-Appellants.
-------------------------------------------------------------------------------------------

PETITION FOR REHEARING BY
RESPONDENTS/CROSS-APPELLANTS
-------------------------------------------------------------------------------------------

DORSEY & WHITNEY LLP STEPHEN C. FIEBIGER
Steven J. Wells (#0163508)
LAW OFFICE
Timothy J. Droske (#0388687) Stephen C. Fiebiger
Nicholas J. Bullard (#0397400) (#0149664)
50 South Sixth Street,
2500 West County
Suite 1500
Road 42, Suite 190
Minneapolis, MN 55402-1498 Burnsville, MN 55337
Telephone: (612) 340-2600 Telephone: (952)
wells.steve@dorsey.com
746-5171
droske.tim@dorsey.com
Attorney for Appellant/
bullard.nick@dorsey.com
Cross-Respondent
Attorneys for Respondents/
Cross-Appellants

App. 229
[i] TABLE OF CONTENTS
INTRODUCTION ................................................

1

ARGUMENT ........................................................

3

I. The Proper Relief Is not a Remand for a
New Trial, but Reinstatement of the Jury
Verdict ........................................................

3

A. Falsity and the applicability of a privilege are distinct ..................................

4

B. The jury found, pursuant to instructions correctly stating the law as to
non-privileged statements, that the
statements were true ..........................

5

C. Defendants squarely raised the jury’s
finding on falsity as a separate and independent basis for affirmance ...........

7

D. The Court’s focus on the fair and accurate reporting privilege mistakenly
assumes that the jury considered the
privilege question ................................

7

E. The Court’s remand violates fundamental First Amendment principles ...

8

II. At a Minimum, this Court Must First Remand to the Court of Appeals to Address
the Issues of Negligence and Causation of
Damages ....................................................

9

CONCLUSION..................................................... 12

App. 230
[ii] TABLE OF AUTHORITIES
Minnesota Cases
Chafoulias v. Peterson,
668 N.W.2d 642 (Minn. 2003),
reh’g granted, 668 N.W.2d (Minn. 2003)........ 2, 11,12
Jadwin v. Minneapolis Star & Tribune Co.,
367 N.W.2d 476 (Minn. 1985)..................................10
Lewis v. Equitable Life Assurance Society
of the U.S.,
389 N.W.2d 876 (Minn. 1986)....................................5
Maethner v. Someplace Safe, Inc.,
929 N.W.2d 868 (Minn. 2019)....................................4
McKee v. Laurion,
825 N.W.2d 725 (Minn. 2013)....................................9
Moreno v. Crookston Times Printing Co.,
610 N.W.2d 321 (Minn. 2000).............................. 8, 10
Richie v. Paramount Pictures, Corp.,
544 N.W.2d 21 (Minn. 1996) ............................... 4, 10
Roemer v. Martin,
440 N.W.2d 122 (Minn. 1989)....................................6
Rouse v. Dunkley & Bennett, P.A.,
520 N.W.2d 406 (Minn. 1994)....................................4
Steumpges v. Parke, Davis & Co.,
297 N.W.2d 252 (Minn. 1980)....................................9
Weinberger v. Maplewood Review,
668 N.W.2d 667 (Minn. 2003)....................................4

App. 231
Other Cases
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974) .................................................10
[iii] Milkovich v. Lorain Journal Co.,
497 U.S. 1 (1990) .......................................................9
Phila. Newspapers, Inc. v. Hepps,
475 U.S. 767 (1986) ...................................................9
Statutes and Rules
Minn. R. Civ. App. P. 140.01..........................................2

[1] INTRODUCTION
Respondents (Defendants at trial) agree with the
Court’s conclusion that the district court erred in failing to recognize the existence of the fair and accurate
reporting privilege, and that statements 7 through 11
were non-actionable as a matter of law. But Defendants respectfully request that the Court rehear and reconsider the remand instruction for a new trial in its
Opinion, which addresses only issues relating to the
applicability of the fair and accurate reporting privilege for statements 1 through 5. The Court concludes
that the jury instructions and special verdict form
were “prejudicial” because they “did not adequately set
forth the relevant factors that the jury should consider
in determining that the privilege was defeated for lack
of fairness and substantial accuracy.” Op. 4. But that
conclusion is mistaken because it assumes that questions relating to the fair and accurate reporting

App. 232
privilege were submitted to the jury, when it is undisputed that the privilege issue was never submitted to
or considered by the jury. In fact, because of the district
court’s pretrial holding that the fair and accurate reporting privilege was inapplicable as a matter of law,
this case was submitted to the jury on the basic instructions that apply to all defamation cases in the absence of privilege. And the jury found, relying on
textbook instructions that this Court acknowledges
came right out of the Model Jury Instructions Guide,
that the allegedly defamatory statements were not
false. There is, then, no basis for a remand on the fair
and accurate reporting privilege because the jury has
already found that, even in the absence of privilege,
Larson failed to meet his constitutional requirement
for proving falsity.
[2] The Court’s remand instruction to the district
court is also mistaken for the independent reason that
Defendants raised other alternative grounds for upholding the jury verdict in its appeal to the Court of
Appeals, i.e., the absence of any evidence of negligence
or causation of damages—additional constitutional requirements in a defamation case. The Court of Appeals
never reached those issues because of its holding regarding the fair and accurate reporting privilege. But
the applicability of the fair and accurate reporting
privilege is moot if, again, Larson failed at trial to meet
his constitutional requirement to demonstrate negligence and that Defendants caused actual damages. Accordingly, if this Court does not simply reinstate the
jury’s falsity determination, it should, as it did in

App. 233
Chafoulias v. Peterson, 668 N.W.2d 642 (Minn. 2003),
reh’g granted, 668 N.W.2d at 666 (Minn. 2003), remand
to the Court of Appeals for consideration of whether
the alternative grounds argued by Defendants, but
never addressed by the Court of Appeals, support judgment as a matter of law in favor of Defendants.
Defendants squarely raised these issues to the
Court of Appeals and this Court. Defs. Ct. App. Br. 3946, 50-52; Defs. Sup. Ct. Br. 49-53, 59-60. The Court
overlooked, failed to consider, misapplied, or misconceived this when it instead remanded directly to the
district court for a new trial, and the petition should be
granted to order this relief. See Minn. R. Civ. App. P.
140.01.
[3] ARGUMENT
I.

The Proper Relief Is not a Remand for a
New Trial, but Reinstatement of the Jury
Verdict.

The Court properly “conclude[d] that the [fair and
accurate reporting] privilege does apply.” Op. 2-3, 32.
But the Court’s determination that “the district court
did not adequately instruct the jury on the fairness
and accuracy inquiry,” does not compel the “conclu[sion] that the error was potentially prejudicial to
Larson and that he is entitled to a new trial so that a
jury can determine whether the privilege was defeated
concerning statements 1 through 5.” Op. 37-38 (emphasis added). That conclusion overlooked, failed to consider, misapplied, or misconceived two undisputed

App. 234
procedural facts: (1) the jury never considered the privilege’s applicability in the first place (as a result of the
district court’s pretrial determination of its inapplicability); and (2) the jury found for Defendants on the element of “falsity” in the absence of any privilege issue.
See App.Add.44-69. Because falsity and the applicability of privilege are distinct inquiries, the jury’s findings
on falsity pursuant to instructions that correctly
stated the law as to non-privileged statements are dispositive and eliminate any basis for remand. Simply
put, there is no need or basis for a retrial on issues related to privilege when, even if the statements are not
privileged, the jury has already found that they are
true. These issues were squarely presented to this
Court, and ignoring the jury’s finding on the falsity element has constitutional implications.
[4] A. Falsity and the applicability of a
privilege are distinct.
As the Court reaffirmed just last year, falsity and
the existence of a privilege go to two distinct elements
of a defamation claim. See Maethner v. Someplace Safe,
Inc., 929 N.W.2d 868, 873 (Minn. 2019) (“Under the
common law, a plaintiff pursuing a defamation claim
‘must prove that the defendant made: (a) a false and
defamatory statement about the plaintiff; (b) in [an]
unprivileged publication to a third party; (c) that
harmed the plaintiff ’s reputation in the community.’ ”
(quoting Weinberger v. Maplewood Review, 668 N.W.2d
667, 673 (Minn. 2003) (emphases added)).

App. 235
The Court’s Opinion recognizes there is a significant distinction between the “falsity” inquiry in connection with the fair and accurate reporting privilege
and the “falsity” element of defamation in the absence
of privilege: “This distinction matters because when
the privilege applies, the re-publisher is not liable if
the statement is reported accurately and fairly, even if
the underlying statement is false.” Op. 33 (emphasis
added). The converse is also true: Even when the privilege does not apply, there is no liability when the statement is true. See Richie v. Paramount Pictures, Corp.,
544 N.W.2d 21, 25 (Minn. 1996) (“In Minnesota, the elements of defamation require the plaintiff to prove
that a statement was false. . . .” (internal quotation
omitted)); Rouse v. Dunkley & Bennett, P.A., 520
N.W.2d 406, 410-11 (Minn. 1994) (making clear plaintiff “bears the burden on proof of each element of his
defamation claim,” and the failure to satisfy that burden as to any one element defeats the claim).
[5] B. The jury found, pursuant to instructions correctly stating the law as to nonprivileged statements, that the statements were true.
Although the Court concludes that the instructions to the jury did not adequately advise the jury of
the factors to consider in applying the fair and accurate reporting privilege, it does not suggest that the
jury was improperly instructed on falsity as applied to
defamation claims not involving the fair and accurate
reporting privilege: “The district court instructed the

App. 236
jury here only on substantial accuracy, using the model
jury instruction on the falsity element of a defamation
claim.” Op. 32. Indeed, the district court’s falsity instructions were lifted verbatim from the Model Jury
Instruction Guide. Compare App.Add.149 (model instruction on falsity), with Defs.Add.3 (district court’s
instruction on falsity). And as the Court itself observed: “Notably, Larson did not seek an instruction on
republication.” Op. 11. This is significant because there
was thus nothing requiring the jury to focus on the
truth or falsity of the underlying statements, particularly when Larson asked that each of the “police say”
statements (statements 1 through 5) be submitted to
the jury in its entirety on the Special Verdict Form. See
Defs. Sup. Ct. Br. 52-53 (citing Doc.87 at 2-3;
App.Add.44-62). This is also a critical and dispositive
difference compared to how the jury was charged in
Lewis, rendering that case inapplicable. See id. at 5153 (showing that interrogatory focused exclusively
upon truth or falsity of underlying statement).1 Nor is
there any error in the jury not being [6] instructed on
or relying upon a “republication” or “implication” theory when Larson himself explicitly disavowed any such
theory on the stand, instead making clear the claimed
falsity and harm was that what the press reported was
1

Lewis is also inapplicable because it applied falsity by implication in the context of a defamation claim involving “compelled self-publication.” See Op. 33 n.14 (discussing Lewis v.
Equitable Life Assurance Society of the U.S., 389 N.W.2d 876, 88889 (Minn. 1986)). The doctrine of republication, therefore, which
could have been argued here but was not asserted, did not fit
cleanly in that case.

App. 237
not what the police said. Defs. Sup. Ct. Br. 52. For each
of the five statements this Court remanded for a new
trial—which all have a reference similar to “Police say”
or “Investigators say”—Larson’s attorney asked him
why the statement was “false,” and each time, Larson
responded, “[b]ecause police never said that.” Id. at 18
(quoting Tr.730-43).2
All of that allowed the jury properly to consider
whether the entire statements were true or false, without regard to whether they were privileged. And that
is what they did: They found each of the statements
submitted to them (including statements 1 through 5)
to be true. App.Add.44-69. That finding must be respected by this Court. It is well established that a jury
“verdict will be sustained if it is possible to do so on
any reasonable theory of the evidence.” Roemer v. Martin, 440 N.W.2d 122, 124 (Minn. 1989). Here, the record
evidence and the Court’s Opinion clearly reflect that,
without any regard to the applicability of the fair and
accurate reporting privilege, there is sufficient evidence to support a finding that statements 1 through 5
in their entirety were not false. Thus, the jury’s verdict
here must be sustained. There is no basis for this Court
to disregard the jury’s finding in Defendants’ favor as
to the falsity element simply because the jury instructions did not reflect the proper instruction for the fair
2

This is exactly why Larson did not ask for a republication
instruction; he wanted to argue it was the press statements that
had caused the harm, not the police statements. A republication
instruction would have conflicted with Larson’s causation of harm
theory.

App. 238
and accurate [7] reporting privilege, which goes to a
separate element of the claim the jury never even considered. Reinstating the jury’s verdict is required.
C. Defendants squarely raised the jury’s
finding on falsity as a separate and independent basis for affirmance.
Defendants made clear in their briefing to this
Court that the jury’s finding on falsity presented an independent basis for affirming the Court of Appeals’ decision for Defendants, separate from the fair and
accurate reporting privilege: “The jury’s finding on falsity—separate from the fair-report privilege—is an alternative ground for affirming the Court of Appeals.”
Defs. Sup. Ct. Br. 49 (emphasis added); see also Defs.
Ct. App. Br. 39-46 (same argument to the Court of Appeals). The Court’s Opinion inaccurately characterized
Defendants’ position as only “contend[ing] that the
statements in the news reports were ‘fair and accurate
as a matter of law,’ ” and alternatively, “to rely upon the
jury’s verdict that the statements were not false to conclude that the fair and accurate reporting privilege
was not defeated for lack of substantial accuracy.” Op.
30-31. This overlooked Defendants’ express argument
that the jury’s instruction and finding on falsity was
supported by the record and compelled that the verdict
be reinstated. Defs. Sup. Ct. Br. 49-53; see also Defs. Ct.
App. Br. 39-46.

App. 239
D. The Court’s focus on the fair and accurate reporting privilege mistakenly assumes that the jury considered the
privilege question.
In the second sentence of the Opinion, the Court
states: “Because we conclude that the privilege does
apply, we must also consider whether the jury instructions adequately advised the jury on the proper focus
of its inquiry in determining whether the privilege was
defeated.” Op. 2. It is undisputed, however, that the
jury was never [8] presented with, or made, an “inquiry
in determining whether the privilege was defeated.”
See App.Add.44-69. Such an inquiry was precluded by
the district court’s pretrial ruling that privilege did not
apply as a matter of law. The incorrect assumption that
the jury was “inadequately instructed” on an inquiry it
never made has led the Court to overlook, in its remand instruction, the critical and dispositive importance of the jury’s well-supported finding, applying
instructions that correctly stated the law as applied to
non-privileged statements, that Defendants’ statements were true. Indeed, the problem with the jury instructions identified by the Court is that “the focus in
determining whether the fair and accurate reporting
privilege was defeated is not on the ‘truth or falsity of
the content of the defamatory statement,’ but on ‘the
accuracy with which the statement is reported.’ ” Op.
32 (quoting Moreno v. Crookston Times Printing Co.,
610 N.W.2d 321, 331 (Minn. 2000)). But that “focus” is
simply irrelevant where—either because the privilege
was never raised or, as here, the trial court determines

App. 240
as a matter of law it does not apply—the jury decides
that allegedly defamatory statements are true, without any regard for the separate defense of privilege.
E. The Court’s remand violates fundamental First Amendment principles.
Significantly, failing to reinstate the verdict on falsity and instead remanding for a new trial frustrates
fundamental and constitutional defamation law precepts. This Court has made clear that “[t]ruth is a
complete defense to a defamation claim and ‘true statements, however disparaging, are not actionable.’ ”
McKee v. Laurion, 825 N.W.2d 725, 730 (Minn. 2013)
(quoting Steumpges v. Parke, Davis & Co., 297 N.W.2d
252, 255 [9] (Minn. 1980)); see Milkovich v. Lorain Journal Co., 497 U.S. 1, 13 (1990) (recognizing common law
principle that “truth is a complete defense”); Phila.
Newspapers, Inc. v. Hepps, 475 U.S. 767, 776 (1986)
(constitutionally requiring that the plaintiff prove falsity to recover for defamation). Here, however, the
Court, while finding that the district court erred, is ultimately doing the same thing the district court did—
stripping away Defendants’ successful and complete
defense to the defamation claims based on the jury’s
finding that the statements were true. This is particularly problematic given that, “[a]s a general rule, the
truth or falsity of a statement is a question for the
jury,” and one in which “[t]he plaintiff has the burden.”
McKee, 825 N.W.2d at 730. It turns those defamation
principles on their head to grant Larson a new trial
due to the district court’s failure to properly instruct

App. 241
the jury as to the separate defense of privilege, when
the jury has already squarely found that Larson failed
to meet his burden as to falsity in the absence of privilege—a complete defense to defamation. The implication of the Court’s decision is that the falsity inquiry
can be entirely displaced by the inquiry into the fair
and accurate reporting privilege—a ruling that conflicts with the “constitutional requirement that the
plaintiff bear the burden of showing falsity, as well as
fault, before recovering damages.” Phila. Newspapers,
475 U.S. at 776. Rehearing is required for the Court to
reinstate the jury’s verdict.
II.

At a Minimum, this Court Must First Remand to the Court of Appeals to Address
the Issues of Negligence and Causation of
Damages.

Alternatively, and at a minimum, the Court must
first remand this case to the Court of Appeals to consider the alternative grounds for entering judgment in
[10] Defendants’ favor that were raised on appeal, but
have not yet been addressed. The Court of Appeals specifically acknowledged that, “[a]lternatively, appellants
urge us to conclude that the district court incorrectly
denied their motion for judgment as a matter of law
because Larson failed to offer evidence that appellants
were negligent or caused his damages.” App.Add.2, 1011, 28. The Court of Appeals, however, found it did “not
need to reach [these] other issues raised by appellants,” based on its determinations that (1) the fair and
accurate reporting privilege applied, and (2) the

App. 242
district court erred in vacating the jury’s verdict that
the statements were not false and in ordering a new
trial. Id.; Defs. Ct. App. Br. 2, 50-52. Now, however, with
the Court affirming the first holding but reversing the
second, Defendants’ alternative argument—which pertains to constitutionally-required elements of defamation3—must be considered.
This does not mean that Defendants’ alternative
arguments as to negligence and causation of damages
must be taken up by this Court. Although Larson and
Defendants briefed this alternative argument to the
Court, Defendants also acknowledged that “those [11]
arguments can be left for remand if necessary.” Defs.
Sup. Ct. Br. 2, 59-60. Defendants thus do not take issue
with the Court’s finding that it is “unnecessary to consider respondents’ arguments regarding the evidence
of negligence and damages.” Op. 45 n.20. But now that
3

The U.S. Supreme Court held that the First Amendment
prohibits states from imposing strict liability for defamation in
Gertz v. Robert Welch, Inc., 418 U.S. 323, 345-48 (1974), after
which this Court adopted a negligence standard for defamation
claims brought by private individuals. Moreno, 610 N.W.2d at 329
(discussing Jadwin v. Minneapolis Star & Tribune Co., 367
N.W.2d 476, 480 (Minn. 1985)). Moreover, this Court has recognized that “in Gertz . . . , the U.S. Supreme Court held that in a
private plaintiff defamation action against a media defendant
speaking on a matter of public concern, states may not constitutionally ‘permit recovery of presumed . . . damages, at least when
liability is not based on a showing of knowledge of falsity or reckless disregard for the truth.’ ” Richie, 544 N.W.2d at 25 (quoting
Gertz). Instead, “it is necessary to restrict defamation plaintiffs
who do not prove knowledge of falsity or reckless disregard for the
truth to compensation for actual injury.” Id. at 25-26 (quoting
Gertz).

App. 243
remand is necessary, the Court of Appeals must address those issues. It is of no consequence that if “a new
trial must be held to determine whether the privilege
was defeated,” that “trial will also, encompass issues of
negligence and damages.” Id. Instead, it is the finding
that a new trial is required that now compels the Court
of Appeals to take up and consider Defendants’ alternative arguments based on lack of evidence of negligence and causation of damages. See App.Add.2.
Rehearing should be granted so the Court can first
order remand to the Court of Appeals on these outstanding issues, just as this Court did in Chafoulias v.
Peterson, 668 N.W.2d 642 (Minn. 2003). There, like
here, this Court affirmed in part and reversed in part
the decision of the Court of Appeals on the question of
a privilege’s applicability in a defamation case and remanded the issue back to the district court. Id. at 660,
reh’g granted, 668 N.W.2d at 666 (Minn. 2003). And
also like here, the defendant “petitioned for rehearing,
requesting that any remand first be made to the court
of appeals to consider the alternative grounds” put before the Court of Appeals. Id. at 666. There, this Court
concluded that its reversal “necessitates consideration
of the alternative grounds raised, and accordingly our
remand should be to the court of appeals to first address those issues.” Id. at 667. The same result is compelled here. This Court’s reversal and order for a new
trial first necessitates consideration of the alternative
grounds raised as to the [12] lack of evidence concerning negligence and damages, and remand should first

App. 244
be to the Court of Appeals to address those issues. See
id.
CONCLUSION
For all the foregoing reasons, Defendants request
that their petition for rehearing be granted, and the
jury’s verdict be reinstated, or alternatively, that the
Court first remand to the Court of Appeals to address
the issues of negligence and causation of damages,
which were fully raised below but not reached by the
Court of Appeals.
Dated: March 11, 2020

DORSEY & WHITNEY LLP

By: /s/ Steven J. Wells
Steven J. Wells (#0163508)
Timothy J. Droske (#0388687)
Nicholas J. Bullard (#0397400)
50 South Sixth Street, Suite 1500
Minneapolis, MN 55402-1498
(612) 340-2600
wells.steve@dorsey.com
droske.tim@dorsey.com
bullard.nick@dorsey.com
Attorneys for Respondents/
Cross-Appellants
[13] [Certificate Of Compliance Omitted]

App. 245
Instruction No. 13
Definition of “false”
A statement or communication is false if it is not
substantially accurate. Substantial accuracy does not
require every word to be true. A statement or communication is substantially accurate if its substance or
gist is true.
In determining whether a statement was false, the
words must be construed as a whole without taking
any word or phrase out of context. The meaning of
the statement must be construed in the context of the
article or broadcast as a whole.
Plaintiff bears the burden of proving that a statement
is false by the greater weight of the evidence.

App. 246
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN
Ryan Larson,

FOURTH JUDICIAL
DISTRICT
File No. 27-CV-15-9371

Plaintiff,

TRIAL DAY 6

v.
Gannett Company, Inc.,
Gannett Satellite Information
Network, Inc., Multimedia
Holdings Corporation,
d/b/a KARE 11-TV and
d/b/a the St. Cloud Times,
Defendants.
The above-entitled matter came on for hearing before the Honorable Susan N. Burke, one of the Judges
of the above Court, at the Hennepin County Government Center, Minneapolis, Minnesota, on the 15th day
of November, 2016.
*

*

*

APPEARANCES
STEPHEN FIEBIGER, Attorney at Law, appearing with and on behalf of the Plaintiff.
STEVEN WELLS, Attorney at Law, and ANGELA
PORTER, Attorney at Law, appearing with and on behalf of the Defendants.

App. 247
KLAY BAYNAR, Clerk.
VICKI PIERCE, Court Reporter.
*

*

*

DIRECT EXAMINATION OF RYAN LARSON
[730] Q. Okay. Now I’d like to go through some of
the statements that were made in the newscast and in
the newspaper articles with you. And the first one was
a statement on 6 o’clock KARE 11 news broadcast of
November 30, 2012 where Julie Nelson said, “Police
say that man identified as 34-year-old Ryan Larson
ambushed Officer Decker and shot him twice, killing
him.” Do you recall seeing that [731] on the newscast
that we watched?
A.

I do.

Q.

And was this statement true or false?

A.

It’s false.

Q.

And why?

A.

Because law enforcement never said that.

Q.

And had you shot and killed Officer Decker?

A.

Absolutely not.

MR. WELLS: Your Honor, I object and move
that it be stricken. There’s no foundation about his
knowledge about what police said.

App. 248
THE COURT: It’s overruled. Or, I mean, I
suppose you can ask him if he watched the news conference.
BY MR. FIEBIGER:
Q. Mr. Larson, had you seen the video of the news
conference from November 30, 2012 with law enforcement that we watched here in court?
A. As of today? I’ve watched it more than anybody has.
Q.

All right.
THE COURT:

Okay, he can answer then.

Q. And having watched the news conference that
you just said, was the statement, “Police say that man
identified as 34-year-old Ryan Larson ambushed Officer Decker and shot him twice, killing him,” was that
true or false?
[732] A.
Q.

It’s a false statement.

And can you explain why it’s false?

A. Because the only way that anybody could possibly come to that as being said or summarized, I guess,
is through a complete assumption of what law enforcement meant or what they said. In their news conference, their news release, their jail log, anything you
want, that statement was never said. The only way you
can come to that is by an assumption.

App. 249
Q. Now when you heard that statement, how did
it make you feel?
A. Being accused or told or, you know, having
something published like that for everybody to see or
hear, being accused of one of the most heinous crimes
that a person could possibly be accused of, it – I mean,
it hurts. It’s not something I wish upon anybody.
*

*

*

[738] Q. In the newscast, anchor Julie Nelson
read the following statement in her script, “Investigators say 34-year-old Ryan Larson ambushed the officer,
shooting him twice. Larson is in custody.” Is that statement true or false?
A.

That statement is false.

Q.

And why is it false?

A.

Because authorities never said that.

Q. And how about with respect to you ambushing
and shooting Officer Decker?
A. Authorities never said that. Not once was my
name used in conjunction with a sentence that included the words “ambushed” or the fact that Officer
Decker was shot twice.
Q. And did you ambush and shoot Officer
Decker?
[739] A.

I did not.

App. 250
Q. In looking at that statement or listening to
that statement, how did that make you feel?
A. Of course it made me feel horrible, hurt, insulted, embarrassed, confused. I mean, there’s – you
can put any negative emotion and it would apply to the
feelings felt when you’re accused of something like
that. And when I say accused, I don’t mean accused by
law enforcement, I mean accused by the media.
Q. In that same newscast at 10 o’clock on November 30, 2012, there was a report by Jana Shortal,
one of the reporters at KARE 11. And in her story she
made the statement, “He was the good guy last night
going to check on someone who needed help. That
someone was 34-year-old Ryan Larson, who investigators say open fired on Officer Tom Decker for no reason
anyone can fathom.” And you heard that in the video
that we watched from that newscast, right?
A.

Yes, I did.

Q.

And is that statement true or false?

A. The part about Tommy Decker being the good
guy is true. The rest of it is completely fabricated and
false.
Q.

And why is it fabricated and false?

A. Because law enforcement never said those
words.
Q. And how about with respect to you opening
fire on [740] Officer Tom Decker, did that happen?

App. 251
A. No, it did not. And those words were not even
remotely uttered at the press conference, in the news
release, in the jail log or any other law enforcement
source.
Q. Now can you describe how that statement
made you feel?
A. Again, hurt, confusion, frustration, anger. It’s
– it hurts. It all hurts.
*

*

*

[741] Q. In the 10 o’clock news of November 30,
2012, by KARE 11 there was a reference to kare11.com,
and then there was an article on KARE 11 – or on
kare11.com that had the sentence and the statement
that said, “Investigators believe he fired two shots into
Cold Spring Police Officer Tom Decker, causing his
death.” Do you recall seeing that?
A.

I do.

Q.

And is that statement true or false?

A. I don’t know what investigators believe, I
guess. I can’t read minds. But they – that statement
was never conveyed publicly to my knowledge.
Q.

And had you killed Officer Decker?

A.

No, I had not.

Q. When you saw that statement, how did that
statement make you feel?

App. 252
A. Hurt, confusion, anger, frustration, same as
everything else. It’s a bad situation, but –.
*

*

*

[743] Q. If you can look in the middle column of
the “Man faces murder charge” story. There’s a statement that says, “Police say Larson is responsible for
the shooting death of Cold Spring-Richmond Police Officer Tom Decker.” Do you see that statement?
A.

I do.

Q.

Okay. Was that true or false?

A.

That is false.

Q.

And why?

A.

Because police never said that.

Q. Okay. And were you responsible for the shooting death of Officer Decker?
A.

I was not.
*

*

*

App. 253
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN
Ryan Larson,

FOURTH JUDICIAL
DISTRICT
File No. 27-CV-15-9371

Plaintiff,

TRIAL DAY 8

v.
Gannett Company, Inc.,
Gannett Satellite Information
Network, Inc., Multimedia
Holdings Corporation,
d/b/a KARE 11-TV and
d/b/a the St. Cloud Times,
Defendants.
The above-entitled matter came on for hearing
before the Honorable Susan N. Burke, one of the
Judges of the above Court, at the Hennepin County
Government Center, Minneapolis, Minnesota, on the
17th of November, 2016.
*

*

*

APPEARANCES
STEPHEN FIEBIGER, Attorney at Law, appearing on behalf of the Plaintiff.
STEVEN WELLS, Attorney at Law, and ANGELA
PORTER, Attorney at Law, appearing on behalf of the
Defendants.

App. 254
KLAY BAYNAR, Clerk.
VICKI PIERCE, Court Reporter.
*

*

*

[1132] You know, the case law is really clear about
this at the US Supreme Court level, Your Honor, which
is that in a – you know, in a defamation case, the burden is always on the plaintiff, and that’s even more important – the burden to prove truth or falsity. And
that’s even more important where it’s a private plaintiff case against the media on an issue of public importance. The Hepps case that’s cited in Jadwin is, you
know, a quintessential case for that proposition, and
we’re not aware of any case in which – in America ever
in which a court has decided that even though a reasonable jury could come out different ways on a [1133]
question at trial, that the Court gets to engage essentially as – some how as a matter of law and impose its
own determination. I mean, that would be totally contrary to all the US Supreme Court law on the plaintiff ’s burden to prove to a jury that statements are true
or false. Or prove falsity. And I don’t think there’s anything in Jadwin that was ever intended to sort of upset
that balance that the US Supreme Court had struck,
and it would be unconstitutional if they had.
*

*

*

App. 255
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN

FOURTH JUDICIAL
DISTRICT

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Ryan Larson,

File No. 27-CV-15-9371

Plaintiff,
v.

TRIAL DAY 8

Gannett Company, Inc., Gannett
Satellite Information Network,
Inc., Multimedia Holdings
Corporation, d/b/a KARE 11-TV
and d/b/a the St. Cloud Times,
Defendants.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

The above-entitled matter came on for hearing before the Honorable Susan N. Burke, one of the Judges
of the above Court, at the Hennepin County Government Center, Minneapolis, Minnesota, on the 17th of
November, 2016.
*

*

*

APPEARANCES
STEPHEN FIEBIGER, Attorney at Law, appearing on behalf of the Plaintiff.
STEVEN WELLS, Attorney at Law, and ANGELA
PORTER, Attorney at Law, appearing on behalf of the
Defendants.

App. 256
KLAY BAYNAR, Clerk.
VICKI PIERCE, Court Reporter.
*

*

*

[1205] KARE 11 and the St. Cloud Times have not
accepted responsibility and accountability ever for the
statements that they published about Mr. Larson that
were defamatory and false. And instead, they insist
they did nothing wrong. They present a story that they
were doing nothing more than summarizing events
from the news conference, the Department of Public
Safety press release and the jail log in order so that
readers could better understand what information was
being presented by law enforcement after Officer
Decker’s killing.
But that’s not what they did. Instead, they invented their own story of what happened, and it
pointed the finger at Mr. Larson as being the cop killer
of Officer Decker. And they told it to the public. KARE
11 and the St. Cloud Times, I submit, developed their
explanation of what happened after they gathered information in getting ready for the case for trial after
they had been sued.
Instead of reporting facts as stated by law enforcement, KARE 11 and the St. Cloud Times reported their
version of the events, and they did so by broadcasting
it on the 6:00 and 10 o’clock news and by [1206] publishing it in the St. Cloud Times on December 1st,
2012. And now they want to blame their false and defamatory statements on the police. They want to say

App. 257
anyone else but them in terms of who’s accountable.
And in this case, they’ve come into court and say that
it’s Mr. Larson who’s trying to shoot the messenger. I
think it’s time that KARE 11 and the St. Cloud Times
stop accusing Mr. Larson of shooting anyone, and this
is the place to do it.
We saw from the evidence what was really said by
law enforcement at the news conference. And KARE 11
and the St. Cloud Times saying it’s otherwise doesn’t
make it so. There’s an old saying, I think we’ve all
heard that, just by saying it’s so doesn’t make it so. And
I submit that you keep that in the back of your mind
someplace in terms of looking at the statements that
were made and what was reported.
*

*

*

[1211] Here, as we’ve seen going through each of
the statements, they were false and defamatory, as Mr.
Larson had not shot and killed Officer Decker. And law
enforcement officials never said he did shoot and kill
Officer Decker. That’s a recurring issue that comes up
in the context of these statements.
*

*

*

[1222] With respect to the statements of KARE 11,
they were published with actual malice because they
knew they were false or they had serious doubts about
their truth. They knew they were false at the law enforcement news conference, because nobody said them.
It’s really that clear. The statements were not said by
anyone in law enforcement.

App. 258
In terms of the negligence part of those statements, I would submit that it’s not reasonable for a
news station or newspaper to publish statements that
haven’t been made and then try to say all we’re doing
is summarizing them or paraphrasing them or interpreting [1223] what was said and putting that out to
the public. Well, that’s not their job, and we heard that.
Their job is to report the facts, present the news so the
viewer and the reader can get an honest description of
what happened. We’re not looking to watch for their
paraphrasing or summaries or their interpretations.
We want to know what law enforcement said, and
that’s not what they did. They gave their interpretation of what they said law enforcement said and now
insist that they were correct in doing so. That’s not reasonable, and I think you will see that.
*

*

*

[1229] But here, KARE 11 and the St. Cloud Times
went way way beyond reporting the facts. They put
their own interpretation on it and left it at that. They
can call it summarizing what the police said, but they
reported statements that were never made by the police and that were false and that they had serious
doubts that were – about their truth, because they
were never made.
*

*

*

[1233] Mr. Evans testified that at the news conference there had been no determination made that Ryan
Larson was responsible for shooting and killing Officer
Decker. He said there had been no conclusions made

App. 259
that Ryan Larson ambushed Officer Decker, shooting
him twice, killing him. He testified that at the news
conference law enforcement was not giving out details
of what they believed happened when Officer Decker
was killed. He indicated it was early in the investigation. If asked if he was saying at the news conference
that Mr. Larson was accused of or charged with murder
of Officer Decker, Superintendent Evans said no, that
isn’t what he said. In response to being asked if he had
been asked at the news conference if law enforcement
believed Ryan Larson was responsible for shooting and
killing Officer Decker, Superintendent Evans again responded no and no to that it was too early in the investigation.
KARE 11 and the St. Cloud Times telling you that
it’s otherwise doesn’t make it so. And that’s the stark
contrast in the evidence we have here, but I would suggest that Superintendent Evans is telling the story
[1324] correctly and telling the truth and that KARE
11 and the St. Cloud Times are not, and that they’re
giving you the story they think they need to give in order to avoid Mr. Larson’s claims for defamation.
*

*

*

App. 260
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN

FOURTH JUDICIAL
DISTRICT
Case Type: Other Civil

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Ryan Larson,

Court File No. 27-CV-15-9371

Plaintiff,
vs.
Gannett Company, Inc., Gannett
Satellite Information Network,
Inc., and Multimedia Holdings
Corporation,
Defendants.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

TRANSCRIPTION
OF
AUDIO RECORDING OF
PRESS CONFERENCE NOVEMBER 30, 2012
TRANSCRIBED BY: MARY P. MITCHELL, RDR, CRR
[2] FILENAME: “Press Conference November 30,
2012”
STEARNS CO. SHERIFF JOHN SANNER:
Obviously, this is
public safety. At
Stearns County
concern from the

a very difficult day for everyone in
about 9 o’clock last evening, the
Sheriff ’s Office received calls of
family of Ryan Larson that he was

App. 261
potentially suicidal. A short time later, Cold Spring officers responded to Mr. Larson’s residence, and failed
to make contact with him at that time.
Although, the officers did return approximately an
hour and 45 minutes later, still attempting to make
contact with the individual. And when the officers
pulled up, Officer Decker left his squad car, and a very
short time later was confronted by an armed individual, shot twice, and died.
BCA DEP. SUPT. DREW EVANS: First, on
behalf of the Minnesota Department of Public Safety
and the Minnesota Bureau of Criminal Apprehension,
we’d like to offer our heartfelt condolences to the Cold
Spring Police Department and the Cold Spring community, um, for the loss of Officer Decker, who served
this community, and who is a resident of the community.
I’ll briefly update you just on the current status of
the investigation.
[3] Um, shortly after Officer Decker was killed, the
area was surrounded by police that responded to the
area. A SERT team from the Stearns County Sheriff ’s
Office was eventually able to take into custody the subject of the welfare check. After that occurred, he was
interviewed by Stearns County deputies, and some of
that investigation is still ongoing.
Members of the BCA crime scene team have processed the crime scene, and that’s still in process right
now, gathering evidence related to this investigation.

App. 262
We have agents and deputies from the Stearns County
Sheriff ’s Office, along with other police personnel in
the area, conducting follow-up investigation and interviews, um, around the entire state of Minnesota at this
time.
As we’ve noted, this is an active and ongoing investigation. We’ll continue to follow up to determine
exactly what happened in this incident. And as we
noted, um, Ryan Larson was taken into custody and
was booked into the Stearns County jail in connection
with this incident.
I’m going to give – turn this over to the chief, who
will provide some background on Officer Decker, and
then we’ll take a few questions related to this incident.
[4] CHIEF PHIL JONES: It’s a privilege for
me to talk about Officer Tom Decker. He was a – a
chief ’s dream. Not only did I have not a – no problems
with him, um, but he was the type of officer who accumulated six letters of appreciation and commendations
within his short six and a half years with us.
Um, we lost an officer; community lost a citizen.
Um, Tom Decker was an active citizen, an active member of the community. He grew up on a farm just south
of town with his parents, um, who still reside there,
and attended Ricori schools. He’s a hometown boy.
Went off to Alexandria Technical College, where he was
trained in law enforcement. And worked three more
years as a police officer, and eventually ended up, um,
finding what he called his dream job here with us at
the Cold Spring/Richmond Police Department.

App. 263
Tommy was also married, and had four children,
all very young in age.
We’re gonna miss him. The community and all of
law enforcement will miss Tom Decker. Thank you.
STEARNS CO. SHERIFF JOHN SANNER:
At this time we can open up to a few questions related
to this incident.
[5] FEMALE PRESS: Was Officer Decker familiar with the suspect? Did he know him?
STEARNS CO. SHERIFF JOHN SANNER:
I don’t believe so.
MALE PRESS: Seems like it’s a pretty extensive crime scene. We saw some people kinda walking out near the river. Um, any – any information that
you can give us regarding that?
BCA DEP. SUPT. DREW EVANS: Again,
that’s part of the active and ongoing investigation. All
I’ll say is that it’s an active crime scene and that we’re,
uh, looking for and gathering evidence related to this
crime right now.
MALE PRESS: Is there any reason to believe there might be some other individual involved?
BCA DEP. SUPT. DREW EVANS: Uh, again,
we don’t have any information to believe that at this
time, but it’s in early stages of the investigation. We
continue to follow up on all leads.

App. 264
MALE PRESS: Do you know if Officer
Decker ever removed his firearm from his holster?
BCA DEP. SUPT. DREW EVANS: That’s
part of the active investigation. We can’t discuss that
at this time.
MALE PRESS: Did you recover a weapon
from [6] the suspect, that you believe was used in this?
BCA DEP. SUPT. DREW EVANS: Again,
that’s part of the active investigation, and we just can’t
comment on that at this time.
FEMALE PRESS: Where was Larson when
he shot at Officer Decker? Was he in an apartment?
Was he around the alley, around –
BCA DEP. SUPT. DREW EVANS: It’s –
again, that’s part of the active crime scene, and we just,
we can’t discuss the details of the active crime scene at
this time.
FEMALE PRESS: I asked about Officer
Decker; was anybody in the police department familiar
and had dealings with Mr. West [sic] in this case?
CHIEF PHIL JONES: Yes. I found one of my
officers that, um, was familiar with this individual.
Um, however, he didn’t have – seem to have a lot of
background either. So we are, um, basically looking
into how long he’s even lived in this location. We don’t
believe that he, uh, has occupied, uh, that apartment
for very long.

App. 265
FEMALE PRESS: You had mentioned that
he was possibly suicidal, that was the family’s concern.
Any idea what was going on in his life or anything like
that? Or had something triggered him last night to be
[7] notably upset?
STEARNS CO. SHERIFF JOHN SANNER:
Again, it’s far too early in the investigation to make a
comment in reference to that.
MALE PRESS: Anybody else injured or
were any other outstanding people involved?
STEARNS CO. SHERIFF JOHN SANNER:
No.
MALE PRESS: Was he related at all to Eric
Decker, plays for the NFL, for the Broncos, from – went
to Ricori?
CHIEF PHIL JONES:
MALE PRESS:
of Deckers in the area?

I suspect so.

You’re saying there are a lot

CHIEF PHIL JONES: There’s a lot of
Deckers around here. Um, but someone brought that
up earlier and I said, “I’m not positive.” If you track
down Eric, he can probably let you know. Bring the
Broncos.
MALE PRESS: Can you tell us where Officer Decker was hit with these two shots?
BCA DEP. SUPT. DREW EVANS: Uh, we’re
not prepared to comment on that at this time. Uh, the

App. 266
Ramsey County Medical Examiner’s Office will be performing an autopsy, and we’ll be able to provide additional information once that’s completed.
[8] MALE PRESS:

Once –

FEMALE PRESS: Was he wearing a bulletproof vest? Was he wearing a protective vest?
CHIEF PHIL JONES:

Yes.

MALE PRESS: Any idea how much longer
the, the scene’s gonna sorta, you guys are gonna be
there and what it’s gonna take to kind of get all the
pieces together?
BCA DEP. SUPT. DREW EVANS: We’ll, we’ll
hold the scene until our investigation is complete. And
I just can’t comment on the length of time that will
take.
MALE PRESS: Can you talk about the size
of this police department and what kind of a loss Officer Decker is related to the size.
CHIEF PHIL JONES: On a small department like ours, we serve, we serve multiple jurisdictions: Um, the city of Cold Spring, the city of Richmond,
and the surrounding Wakefield Township. We’ve got a
jurisdiction of roughly 37 square miles, and about
9,500 citizens. We’ve got eight full-time and eight parttime. And there’s a lot of demands, with only eight fulltime officers, placed on each officer.
So Officer Decker was our use-of-force instructor,
firearms instructor. Uh, he was, uh, our [9] department

App. 267
jokester. He had a great sense of humor. All the, uh –
everyone who met him liked him.
STEARNS CO. SHERIFF JOHN SANNER:
We have time for just one more question.
FEMALE PRESS: You may have mentioned
this and I apologize. Did – was he alone? Or did he have
a partner with him when he arrived on scene there?
BCA DEP. SUPT. DREW EVANS: I could –
he did, he had a – was with a partner when he was
shot. And, you know, what I can say about this is from
our preliminary investigation, it’s, it’s apparent to us
that the officer was ambushed at the scene.
FEMALE PRESS: Was his partner, did he
remain in the car? Did he ever get out and was he ever
shot at?
BCA DEP. SUPT. DREW EVANS: Again,
that’s part of the active investigation. But he was, uh,
he was on scene at the time of the shooting, and, uh,
was certainly present when it occurred.
MALE PRESS: Can you, can you talk a little
bit about was there a lockdown at the bar and the restaurants and the town and just kind of the process that
went through that, all of that, as this was happening –
happening?
UNIDENTIFIED MALE:
want [10] to.

Sheriff, do you

STEARNS CO. SHERIFF JOHN SANNER:
Really, I mean, we’re getting into an area now that we,

App. 268
uh, just, it wouldn’t be prudent for us to comment any
further on this. We’ve answered the questions that we
can at this particular time. When we get to a point in
the investigation that we can give you, uh, good updates, we certainly will. Thank you.
UNIDENTIFIED
body, we appreciate it.

MALE:

Thanks

every-

(End of audio file.)
*

*

*

[11] REPORTER’S CERTIFICATE
I, Mary P. Mitchell, a Registered Diplomate Reporter and Certified Realtime Reporter, and Notary
Public in the State of Minnesota, do hereby certify:
That the foregoing pages of typewritten material
constitutes an accurate verbatim stenographic record
taken by me from an audio recording to the best of my
ability;
That the transcript may contain misidentified
speakers, unintelligible or inaudible portions that
were indecipherable to me and beyond my control;
That I am not financially interested nor do I have
any contract with any parties, attorneys, or persons
with an interest in any action related to this transcription that would affect or have a substantial tendency
to affect my impartiality.

App. 269
DATED: October 10, 2016.
/s/ Mary P. Mitchell
Mary P. Mitchell
Registered Diplomate Reporter
Certified Realtime Reporter

App. 270
MINNESOTA DEPARTMENT OF PUBLIC SAFETY
NEWS RELEASE
Bruce Gordon, Director of Communications
FOR IMMEDIATE RELEASE
November 30, 2012
Alcohol and Gambling Enforcement Bureau of
Criminal Apprehension Driver and Vehicle Services
Emergency Communication Networks Homeland
Security and Emergency Management Minnesota
State Patrol Office of Communications Office of
Justice Programs Office of Pipeline Safety Office of
Traffic Safety State Fire Marshal
CONTACT:
Jill Oliveira, 651-793-2726
COLD SPRING POLICE OFFICER
KILLED IN THE LINE OF DUTY
ST. PAUL—The Stearns County Sheriff ’s Office and
the Minnesota Bureau of Criminal Apprehension are
investigating the shooting death of a Cold Spring Police Department officer.
Officer Tom Decker, 31, was shot and killed around 11
p.m. Thursday night near Winner’s Bar on Main Street
in Cold Spring as Decker and his partner conducted a
welfare check at a nearby apartment. Officer Decker
died at the scene.
Law enforcement agencies from across the region
along with the Minnesota State Patrol launched a
search for the suspect. Within an hour, Stearns County

App. 271
SWAT team investigators took Ryan Michael Larson,
34, of Cold Spring into custody. Larson was booked into
the Stearns County Jail on murder charges early this
morning.
“We’re still in the very early stages of this ongoing and
active investigation. Officers from many agencies are
taking part, conducting interviews and processing the
crime scene,” said Bureau of Criminal Apprehension
Assistant Superintendent Drew Evans. “The Bureau of
Criminal Apprehension offers its condolences to Officer Decker’s family and to the Cold Spring Police Department and community.”
Officer Decker spent more than 10 years in law enforcement in Mille Lacs, Meeker and Stearns counties
and had worked as an officer with the Cold Spring Police Department since March 2006. Decker was a native of Cold Spring. Funeral arrangements for Officer
Decker are not yet set. Officer Decker’s body has been
taken to the Ramsey County Medical Examiner’s Office for autopsy.
The shooting is being investigated by the Minnesota
Bureau of Criminal Apprehension and the Stear
County Sheriff ’s Office with assistance from the Cold
Spring Police Department, the Minnesota State Patrol,
the St. Cloud Police and several other agencies.

App. 272
445 Minnesota Street, Suite 100 • Saint Paul,
Minnesota 55101-5155 • dps.mn.gov. •
facebook.com/MnPublicSafety •
@MnDPS_DPS ADD. 86

